<html>
<title> - HEARING ON PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 114-707]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-707

                     HEARING ON PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2016

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
22-272PDF                       WASHINGTON: 2017
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                                     
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                             June 29, 2016
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................    32
Murray, Hon. Patty, U.S. Senator from Washington.................    13
    Prepared statement...........................................    14
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    34
Heller, Hon. Dean, U.S. Senator from Nevada......................    38
Cassidy, Hon. Bill, U.S. Senator from Louisiana..................    40
    Exhibit......................................................    42
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    43
Tester, Hon. Jon, U.S. Senator from Montana......................    45

                               WITNESSES

Inhofe, Hon. James M. U.S. Senator from Oklahoma.................     1
    Prepared statement...........................................     3
Fischer, Hon. Deb, U.S. Senator from Nebraska....................     4
    Prepared statement...........................................     6
Franken, Hon. Al, U.S. Senator from Minnesota....................     7
Cotton, Hon. Tom, U.S. Senator from Arkansas.....................     8
    Exhibit......................................................     9
McCaskill, Hon. Claire, U.S. Senator from Missouri...............    10
    Prepared statement...........................................    12
Merkley, Hon. Jeff, U.S. Senator from Oregon.....................    48
McLenachen, David, Deputy Under Secretary for Disability 
  Assistance, Veterans' Benefits Administration, U.S. Department 
  of Veterans Affairs; accompanied by Maureen McCarthy, M.D., 
  Assistant Deputy Under Secretary for Health for Patient Care 
  Services, Veterans Health Administration.......................    15
    Prepared statement...........................................    17
    Additional views dated August 3, 2016........................    28
    Response to request arising during the hearing by:
      Hon. Dean Heller...........................................    39
      Hon. Jon Tester............................................    47
    Response to posthearing questions submitted by Hon. Mazie K. 
      Hirono.....................................................    49
Butler, Roscoe, Deputy Director of Health Care, National Veterans 
  Affairs and Rehabilitation Division, The American Legion.......    52
    Prepared statement...........................................    53
Fuentes, Carlos, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    62
    Prepared statement...........................................    63
Weidman, Rick, Executive Director for Policy and Government 
  Affairs, Vietnam Veterans of America...........................    69
    Prepared statement...........................................    70
Ziober, Kevin, Member of the Reserve Component...................    74
    Prepared statement...........................................    76

                                APPENDIX

Cleland, Max, Secretary, American Battle Monuments Commission 
  (ABMC); prepared statement.....................................    85
Wilson, LeAnn, Executive Director, Association for Career and 
  Technical Education (ACTE); prepared statement.................    87
Kahn, Thomas S., Director, Legislative Affairs, American 
  Federation of Government Employees, AFL-CIO (AFGE); letter.....    89
Webb, Amy, Legislative Policy Advisor, AMVETS; prepared statement    89
American Public Health Association (APHA); prepared statement....    98
Ilem, Joy J., National Legislative Director, Disabled American 
  Veterans (DAV); prepared statement.............................    99
Doederlein, Allen, President, Depression and Bipolar Support 
  Alliance (DBSA); prepared statement............................   107
Civil Rights Division and the Servicemembers and Veterans Affairs 
  Initiative, U.S. Department of Justice (DOJ); prepared 
  statement......................................................   109
Michaud, Hon. Michael, Assistant Secretary for Veterans' 
  Employment and Training, U.S. Department of Labor (DOL); 
  prepared statement.............................................   160
Blumrosen, Alexander, President, The Lafayette Escadrille 
  Memorial Foundation; letter....................................   163
Salanti, MAJ Frederick R., US Army (Ret.), Founder/Executive 
  Director, Missing in America Veterans Recovery Program (MIAP); 
  prepared statement.............................................   165
Military Officers Association of America (MOAA); prepared 
  statement......................................................   171
Military Order of the Purple Heart (MOPH); prepared statement....   173
Kiefer, Keith, Director at Large, NAAV Minnesota State Co-
  Commander & Enewetak Radiological Cleanup Veteran (1978), 
  National Association of Atomic Veterans (NAAV); prepared 
  statement......................................................   177
National Alliance on Mental Illness (NAMI); prepared statement...   181
Wescott, Joseph W., II, Legislative Director, National 
  Association of State Approving Agencies (NASAA); prepared 
  statement......................................................   182
Chaw, Terisa E., Executive Director, National Employment Lawyers 
  Association (NELA); letter.....................................   185
National Guard Association of the United States (NGAUS); prepared 
  statement......................................................   195
Lerner, Hon. Carolyn N., Special Counsel, U.S. Office of Special 
  Counsel (OSC); prepared statement..............................   197
Paralyzed Veterans of America (PVA); prepared statement..........   198
Reserve Officers Association of the United States (ROA); prepared 
  statement......................................................   202
Southcentral Foundation (SCF); prepared statement................   205
Fronabarger, Derek, Director of Policy, Student Veterans of 
  America (SVA); prepared statement..............................   207
Josten, Bruce R., Executive Vice President, Government Affairs, 
  Chamber of Commerce of the United States of America; letter....   209
  
  

 
                     HEARING ON PENDING LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 29, 2016

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:28 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Heller, Cassidy, Tillis, 
Sullivan, Blumenthal, Murray, Brown, Tester, and Hirono.

      OPENING STATEMENT OF HON. JOHNNY ISAKSON, CHAIRMAN, 
                   U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call this meeting of the Senate 
Veterans' Affairs Committee to order.
    We are going to start right on time. We have a number of 
members who wish to address legislation they have proposed. We 
have an agenda of 18 bills that are before the Veterans' 
Affairs Committee, so it is going to be a lengthy hearing. I 
know there are Senators that have places to be.
    I am going to waive my own opening statement, along with 
Ranking Member Blumenthal. We will make our statements later in 
the day in respect for the Senators that are here.
    As is tradition with our Committee, we will give each 
Senator up to 5 minutes to make a presentation on their 
legislation. As is tradition, we do not enter into questions 
and answers as Committee Members, but once you have made your 
testimony, you may leave if you would like. If you wish to 
stay, you are welcome to stay. We are delighted that you came.
    We will start with the first testimony from Senator Inhofe.

              STATEMENT OF HON. JAMES M. INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. I appreciate it 
very much.
    In 2010, Congress passed the Post-9/11 Veterans Education 
Assistance Improvement Act. This Act authorized veterans to use 
their benefits to pursue a technical or career certificate 
program as an option instead of traditional liberal arts 
opportunities at a college or university. It is kind of 
interesting. I am the right one to do this, because in the 
State of Oklahoma, I actually introduced the first legislation 
back in the 1970s to establish these technical training areas. 
So, I am very partial to them. The Career and Technical 
Education Centers, or CTEs, are public, not private, not-
profit, non-degree granting institutions that provide skills 
and certificates important to every community and are found in 
over ten States.
    The city of Enid, OK, has been the home of the Autry 
Technology Center. Now, you and I may be the only two here old 
enough to remember who Gene Autry was. You, too? All right. 
[Laughter.]
    Well, anyway, he is an Oklahoman, in case you did not know. 
The Autry Technology Center, since 1967, has served over 10,000 
people annually through programs and services that enhance 
skills and employment opportunities. Autry currently offers 26 
full-time career programs, from air conditioning to culinary 
arts, radiology, and several other critically-applied skills 
used nationwide.
    Public, not-profit centers in the Oklahoma Career Tech 
System, like Autry, in Enid, are proven to significantly 
contribute to the economic development and quality-of-life in 
Oklahoma, especially to returning veterans. Career and 
Technical Education Centers are vital as post-secondary 
education options and workforce training system for our 
veterans.
    The administration recently took action to block certain 
technical center benefits from our veterans. Since March, the 
VA is not allowing the Post-9/11 G.I. Bill to pay for any form 
of independent study from a non-degree producing institution, 
including CTEs. In many cases, this hindrance precludes 
veterans from utilizing these courses in pursuing these 
certificate programs.
    CTEs, much like their college and university counterparts, 
are utilizing internet-based courses as a component of their 
programs to provide flexibility for working adults in expanding 
those programs. Unlike colleges and universities, however, CTEs 
are not technically degree producing, so the VA is preventing 
the use of G.I. Bill funds for any CTE program that has 
independent study.
    Marcie Mack, the State Director of Oklahoma's Career 
Technology System, told me last week that her--this is her 
quote--she said, ``Oklahoma's Career Tech System is committed 
to serving U.S. military veterans. However, with current 
Federal policy, there are obstacles for our veterans to be able 
to participation in the Oklahoma Career Tech System and receive 
their benefits.''
    Now, to address the current policy issues, I have 
introduced, and it is before this Committee now, S. 3021, along 
with Senator Lankford, clarifying the law to ensure accredited 
CTE programs can continue to receive G.I. Bill benefits even if 
a portion of the program is done through independent study.
    In the time since I introduced this legislation, I have 
heard concerns from this Committee about whether this would 
open the door for bad actors in the education space to take 
advantage of these benefits. Now, my staff has worked with your 
staff, your folks. They have explored these concerns and have 
modifications to the language that is in the bill now to ensure 
that the bill does not have negative unintended consequences. 
It is my hope that the Committee will quickly consider this 
legislation.
    I deeply appreciate the attention the Committee has given 
to my bill and I look forward to continuing my work to ensure 
that this problem is addressed.
    Now, there is not time to go into the other one, but I have 
another piece of legislation because there has been a problem 
with the VA centers in Oklahoma, the Muskogee Center, the 
Oklahoma City Center, the Tulsa Center. It has only been with 
my office's dedicated attention that these clinics have any 
progress being made. We have been helped by Ralph Gigliotti. He 
is the Veterans Integrated Service Networks, or VISN, Director 
for our area. He is really good. I sing his praises. He is 
outstanding. He has been very supportive. We have some 
legislation that is called S. 2554 that would give the VISNs 
more options, more authority to get things done, because they 
are the ones who are really capable of getting it done.
    So, while S. 2554 is in the Committee, it has not been 
considered yet. I would like to have you consider that at your 
earliest convenience.
    Chairman Isakson. Well, we appreciate your testimony on 
education as well as on the VISNs. We look forward to working 
with you on legislation and appreciate your interest in our 
veterans.
    Senator Inhofe. Thank you.
  Prepared Statement of Hon. James Inhofe, U.S. Senator from Oklahoma
    In 2010, Congress passed the Post-9/11 Veterans Educational 
Assistance Improvements Act. This Act authorized veterans to use their 
hard earned educational benefits to pursue a technical or career 
certificate program as an option instead of the traditional liberal 
arts opportunities at a college or university.
    Career technology centers, or CTEs are public, non-profit, non-
degree granting institutions that provide skills and certificates 
important to every community and are found in over ten states.
    The city of Enid, Oklahoma has been home to the Autry Technology 
Center since 1967 and serves over 10,000 people annually through 
programs and services that enhance skills and employment opportunities.
    Autry currently offers 26 full-time career programs from air 
conditioning to culinary arts, to radiography, to welding, and several 
other critical, applied skills used nationwide.
    Public, non-profit centers in the Oklahoma Career-Tech system, like 
Autry Technology Center in Enid, are proven to significantly contribute 
to the economic development and quality of life in Oklahoma, especially 
our returning veterans.
    Career and technical education centers are vital as a post-
secondary education option and workforce training system for our 
veterans, but the administration recently took action to block certain 
tech center benefits from our vets.
    Since March, the VA has not allowed the Post-9/11 GI Bill to pay 
for any form of independent study from a non-degree producing 
institution, including CTEs. In many cases, this hindrance precludes 
veterans from utilizing these courses or pursing these certificate 
programs.
    CTEs, much like their college and university counterparts, are 
utilizing internet based courses as a component of their programs to 
provide flexibility for working adults and veterans to better 
accommodate their lifestyles and encourage learning.
    Unlike colleges and universities, however, CTEs are not technically 
degree producing, and so the VA is preventing the use of GI Bill funds 
for any CTE program that has an independent study component.
    Marcie Mack, the State Director of the Oklahoma Career-Tech system, 
told me last week that, ``Oklahoma's Career-Tech system is committed to 
serving U.S. military veterans; however, with current Federal policy 
there are obstacles for our veterans to be able to participate in 
Oklahoma's Career-Tech system and receive their benefits.''
    To address the current policy issues, I have introduced S. 3021 
along with Sen. Lankford, clarifying the law to ensure accredited CTE 
programs can continue to receive GI Bill benefits even if a portion of 
the program is done by independent study.
    In the time since I introduced this legislation, I have heard 
concerns from this Committee about whether this would open the door for 
bad actors in the education space to take advantage of these benefits.
    My staff, along with the staff of this Committee, have explored 
these concerns and have modifications to the language to ensure the 
bill does not have negative, unintended consequences, and it is my hope 
that the Committee will quickly consider this legislation so that 
veterans in Oklahoma can achieve career success after leaving the 
service.
    I deeply appreciate the attention the Committee has given to my 
bill, and I look forward to continuing my work with you to ensure this 
issue is addressed.
    While I am here, I would also like to address the Committee on some 
of the VA health clinic challenges we have had in Oklahoma.
    We have had serious problems at both VA centers in Oklahoma--
Muskogee and Oklahoma City. It has only been with my office's dedicated 
attention to these clinics that any measurable progress is being made.
    We have been helped by Ralph Gigliotti, our VISN director, who is 
outstanding. He has been very supportive of ensuring the changes that 
need to happen on the ground in Oklahoma actually take place. Both 
centers now have new directors because of his leadership.
    Recently, the VA contracted with the Joint Commission to do an 
investigation of Oklahoma's facilities together with the Inspector 
General. Having this outside entity come in and compare the VA 
facilities with private sector health care facilities is helping 
identify clear problems for the local and regional directors to go 
after and fix. It is always nice to have a second opinion.
    One section of S. 2554 provides permanent authority for VISN 
directors like Ralph Gigliotti, to contract with outside entities to do 
these kinds of investigations. I believe this is an important authority 
that needs to be explicitly provided to them, so that more of the VA 
health center problems, which we hear about all over the place, can be 
fully addressed.
    Thank you again for having me today.

    Chairman Isakson. Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman. Good afternoon 
and thank you for holding this hearing.
    This Committee has addressed some of the most difficult 
issues that have faced our veterans. Across the country, 
people's confidence in the care we provide to veterans has been 
understandably shaken. As has been mentioned time and time 
again in this Committee, veterans deserve more from us. They 
expect more from us. They expect us to uphold our end of the 
bargain. The complications with the construction project in 
Denver, for example, have raised serious questions about our 
ability to provide veterans the high quality care that they 
have earned.
    Partnerships across the aisle and across the branches of 
government have been important to overcoming the issues facing 
our veterans in the past. By bringing more partnerships about 
between veterans, their communities, and the Federal 
Government, we have an opportunity to uphold our end of the 
bargain for our servicemembers. We can do this, and we can do 
this by tapping into the strength in our local communities. 
Through community partnerships, our family members, neighbors, 
and businesses can give back to those who have given so much 
for them.
    The VA has identified communities in Nebraska and across 
the country that are ready, willing, and able to contribute to 
improving our veterans' access to quality care. These 
communities do not want to wait for Washington. They are ready 
to restore the veterans' health care system and they want to 
take an active role in restoring our national confidence in 
that system.
    So, my bill, S. 2958, creates a pathway for local 
communities to do just that. Local leaders have expertise in 
aligning both design and medical teams in constructing medical 
facilities. Through the partnerships created in this bill, 
local leaders would have the opportunity to manage construction 
projects from start to finish. By allowing the private sector 
experts to lead these projects, the VA can avoid issues that 
have haunted previous projects.
    Our veterans and the American people deserve transparency. 
They deserve projects that are on time. They deserve projects 
that are on budget.
    The VA has already appropriated millions of dollars to 
construction projects that are not yet finished. This 
legislation would allow communities to contribute the remaining 
finances to complete these projects. The VA's financial 
obligation for the construction of these medical facilities 
would be limited to the previous appropriation and not one 
dollar more. This legislation can serve as a model for 
expediting the VA's efforts to coordinate its infrastructure 
with the needs of our veteran population.
    Communities across the country are willing to help take up 
this national responsibility of caring for our veterans. It is 
our responsibility, I believe, to fully explore ways that 
empower them to do so, and I believe that my legislation would 
do that.
    Thank you, Mr. Chairman.
    Chairman Isakson. Having dealt with the Denver hospital 
debacle and gone through that, I am glad that there are 
thoughtful members of the Senate looking at solutions to our 
future problems so we do not ever have to replicate those 
again. Thank you very much for your thoughtful proposal.
    Senator Fischer. Thank you, sir.
    [The prepared statement of Senator Fischer follows:]
   Prepared Statement of Hon. Deb Fischer, U.S. Senator from Nebraska

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson. Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Chairman Isakson, and thank 
you, Senator Murray, for the opportunity to speak on behalf of 
the Atomic Veterans Health Care Parity Act, which I introduced 
with Senator Tillis. Thank you also to Senator Coons and 
Senator Wyden for cosponsoring the bill and the others 
testifying on behalf of this important legislation.
    Like the Members of this Committee, one of my highest 
priorities as a Senator is making sure that our veterans and 
their families get every benefit that they deserve. We need to 
help our veterans find a home and a job, recover from their 
physical and psychological wounds, and take full advantage of 
the benefits that they were promised when they enlisted, 
benefits they have earned with their service and their 
sacrifices as well as the sacrifices of their families.
    The veterans of the cleanup of the Enewetak Atoll have not 
gotten the benefits that they earned. During the 1940s and the 
1950s, the United States conducted more than 40 nuclear tests 
on the Enewetak Atoll in the Marshall Islands. Thousands of 
members of the U.S. Armed Forces participated in the clean-up 
of Enewetak between 1977 and 1980, so that was years later. 
Servicemembers removed radioactive fallout, soil, and debris, 
including significant amounts of plutonium, and dumped it into 
a crater on Runit Island, that was then covered with 18 inches 
of concrete.
    Now, we dropped so much nuclear material on Enewetak that 
it was as if we had dropped 1.6 Hiroshima bombs every day for 
12 years. That is what we are talking about. These 
servicemembers were typically without any form of protective 
gear. They wore Defense Department-issued T-shirts, shorts, and 
combat boots to remove highly contaminated material.
    Today, half of Enewetak, of the atoll, is still considered 
unsuitable for human habitation. Thirty-six years after the 
clean-up was completed, residents still must be tested for 
radiation levels, especially those that work closely with the 
soil, just like our veterans did.
    Now, our servicemembers who were actually part of the 
nuclear tests, the ones that were part of the nuclear tests 
during their active service, do receive extra benefits as 
atomic veterans to deal with illnesses that are assumed to be 
related to radiation exposure. However, servicemembers that 
were part of the clean-up do not receive these extra benefits, 
despite their exposure.
    Many of the veterans who served on Enewetak Atoll have 
already passed away. Many more of the clean-up veterans suffer 
from various types of cancer, respiratory and heart diseases, 
at early ages and at high rates. There are reports that their 
children may also be suffering from illnesses caused by having 
a parent who was exposed to radiation.
    Clean-up veterans are forced to pay out of pocket for their 
medical costs because the VA does not recognize them as atomic 
veterans. Despite being put in harm's way, these veterans that 
cleaned up after the nuclear tests are not being adequately 
compensated by their government.
    In order to right this wrong, Senator Tillis and I 
introduced the Atomic Veterans Health Care Parity Act. This 
bipartisan, bicameral legislation assures that the veterans who 
participated in the clean-up of the Enewetak Atoll receive the 
benefits they deserve, benefits that their service should have 
entitled to them years ago.
    Thank you, Mr. Chairman; thank you both Senators Murray and 
Hirono, for the opportunity to testify on this important piece 
of legislation. I look forward to working with you and the rest 
of the Committee to move this very important legislation along. 
Thank you very much.
    Chairman Isakson. Thank you very much, Senator Franken.
    Senator Cotton.

                 STATEMENT OF HON. TOM COTTON, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Cotton. Thank you, Mr. Chair. I would like to thank 
the Ranking Member, Senator Blumenthal. Thank you, Senator 
Murray and Senator Hirono, for the chance to appear before you 
today. My testimony did not require a grant of immunity. 
[Laughter.]
    I am here today to discuss my legislation, the Charles 
Duncan Buried with Honor Act, which would expand the cemetery 
burial options offered by the VA to financially insolvent 
veterans.
    I want to begin by telling a story about the bill's 
namesake, Mr. Charles Duncan, a Navy veteran from Little Rock, 
AR. Mr. Duncan died last year at the age of 66. He was 
financially insolvent and his family could not afford his 
funeral costs. Thanks to the past efforts of this Committee in 
passing the Dignified Burial and Other Veterans Benefits 
Improvement Act of 2012, Mr. Duncan was eligible for VA 
assistance with his burial costs. Unfortunately, because of a 
small gap in the law, Mr. Duncan and other veterans like him 
can only receive this assistance if they are buried in a 
national cemetery.
    In Arkansas, as I suspect in other States, this rule can 
necessitate hours of travel to reach the closest cemetery. For 
instance, we have three national cemeteries, one in Little 
Rock, one in Fort Smith, and one in Fayetteville. But the 
national cemetery in Little Rock is full, leaving Fort Smith 
and Fayetteville in the west as the only options.
    In Mr. Duncan's case, his adult daughter has no means of 
transportation and was unable to make the drive to Fort Smith 
from Little Rock and missed her father's funeral. Since then, 
she has been unable to visit her father's grave. Would it not 
make more sense to allow these veterans the option of a State 
veterans' cemetery if that cemetery is closer to the veteran's 
home?
    In Arkansas, we have two State cemeteries, one in Little 
Rock and one in east Arkansas at Birdeye. Both of them have 
plenty of room for more veterans, and as you can see, a large 
part of my State is closer to Little Rock and Birdeye than it 
is to either Fort Smith or Fayetteville.
    [Graphic follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Senator Cotton. Mr. Duncan could have been laid to rest in 
the Little Rock State cemetery, saving taxpayer money and 
allowing friends and families to attend the service or visit 
the gravesite. This is a small but important change.
    Since Senator Murray's bill took effect, the VA has 
reimbursed claims totaling almost $240,000 for the interment of 
203 veterans. The costs associated with this legislation as 
estimated at only $2 million over 10 years. I would suggest the 
cost is minimal when you consider the sacrifices our veterans 
have made and the solace this could provide their loved ones.
    Additionally, this change would not add additional stress 
to the VA or distract from their other efforts. It is a simple, 
straightforward change that the VA Veterans' Cemeteries Grant 
Program is well equipped to handle, and I would note that the 
VA submitted a no benefit cost or savings legislative proposal 
to make this type of change in its fiscal year 2017 budget 
submission, indicating its willingness to implement this 
legislation.
    Finally, in the interest of moving the bill forward, it 
retains the ``no next of kin'' provision in current law, which 
maintains the VA's commitment to our Homeless Veterans 
Initiative. This provision holds no cost, but also requires 
indigent veterans to disavow loved ones to be eligible for 
burial benefits. I hope there is a way to resolve that matter 
at a later date, and I look forward to working with the 
Committee and the VA on it.
    Charles Duncan was not the first veteran in this position, 
but we can help ensure that he is the last.
    Thank you for your time and thank you for your continued 
support for our veterans.
    Chairman Isakson. Thank you very much, Senator Cotton, for 
your thoughtful recommendation and presentation.
    Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman, and thank you 
to Senator Murray and Senator Hirono for being here today.
    I would like to address a very important topic with you 
today. I am here to speak in support of the Arla Harrell Act, 
legislation which I introduced to address a very serious 
injustice that has been perpetrated against veterans that were 
purposely exposed through our own military to chemical agents 
as part of U.S. Government experiments during World War II.
    The U.S. Government conducted classified chemical tests of 
mustard agents, including mustard gas and lewisite, on 
thousands of its own servicemembers. Mustard agents can cause 
painful blisters on exposed skin as well as damage to the eyes 
and respiratory system, leading to a lifetime of adverse health 
impacts. In total, 60,000 servicemembers are estimated to have 
participated in the tests, with about 4,000 of them facing the 
most extreme forms of full body exposure.
    One of these servicemembers is a constituent of mine, Arla 
Harrell, who was twice exposed to mustard gas while stationed 
for basic training at Camp Crowder in Neosho, MO, in 1945. Arla 
and his fellow subjects were told they would be helping the 
military, ``test summer clothing,'' in exchange for additional 
leave. It was not until they arrived at the testing site that 
they were told they would be exposed to mustard agents. 
Servicemembers who participated in chamber tests were 
repeatedly exposed to mustard agents until they developed 
moderate to intense erythema, a painful skin disorder.
    The servicemembers were threatened with court-martial if 
they did not continue with the testing. To make matters worse, 
they were sworn to an oath of secrecy, leaving them unable to 
share what had happened to them with anyone, including their 
own health care providers.
    Following his exposure, Arla was hospitalized twice, first 
at Camp Crowder while still in basic training, and again at the 
98th General Hospital in Munich, Germany. Due to the classified 
nature of the testing and the oath of secrecy, this meant 
decades of suffering and frustration for the impacted veterans 
as they sought medical care from doctors who were in the dark 
about their exposure.
    Seventy years after the experiments took place, the 
government has yet to appropriately assist and compensate many 
of these veterans. The VA finally established a process 25 
years ago to compensate these veterans, but it puts the burden 
on the veterans to prove that they were exposed to mustard gas 
in order to make a successful claim. These tests were 
classified. The young servicemembers were held to an oath of 
secrecy for more than 40 years. Records are incomplete, and for 
some veterans, a massive 1973 fire destroyed their entire 
service files. The VA established a burden of proof that is 
insurmountable to many impacted veterans.
    The VA has rejected approximately 90 percent of the 
applicants for VA benefits connected to exposure of mustard gas 
or lewisite. Of the thousands of veterans who were exposed 
during World War II during this testing, only 40 percent are 
receiving benefits today.
    Arla Harrell himself has been denied benefits multiple 
times, most recently just this month. The VA says it cannot 
confirm that mustard gas testing occurred at Camp Crowder and, 
therefore, cannot approve his benefits. This comes despite the 
clear statements from Arla regarding his treatment and the 
health effects he has suffered, and it comes despite the fact 
that the Army recovered mustard gas in vials in Camp Crowder 
more than 30 years ago and an Army Corps of Engineers report 
identifies gas chambers at Camp Crowder.
    I have put a document up on the easel that was made by the 
Army Corps of Engineers. They went to tear down Camp Crowder 
and someone operating the bulldozer had a smoke of something 
come up from the air and began coughing. They then recovered 
both the vials of mustard gas and found the actual gas chambers 
on the property.
    The Arla Harrell Act would improve the VA's consideration 
of mustard agent exposure claims and address this terrible 
situation. Simply, the bill would flip the burden of proof for 
veterans who have already been denied these benefits. And keep 
in mind, it only flips the benefit of who has to prove this for 
the people who have already applied, which there are less than 
400 of these folks still alive. So, for 400 individuals who 
have already applied, it would flip the burden of proof, but it 
would not open up claims for anyone else who has not previously 
applied. So, it is a very limited application.
    It would require the VA to reconsider all previously 
rejected claims for benefits under this program with the 
presumption that the veteran was exposed to mustard gas. Rather 
than require the veteran to prove exposure of a program 
classified for decades and decades and, frankly, only really 
known about within the bowels of the Department of Defense, or 
DOD, for many years, the bill would require the VA to prove 
that he was not. This is not a large universe of individuals 
and all of them have previously made a claim for benefits.
    Additionally, the bill would require the VA and DOD to 
establish a new policy for the processing of future mustard 
agent benefit claims so that other veterans do not go through 
what Arla Harrell has gone through.
    Arla and his wife, Betty, and their five children have 
fought for compensation for a service-related illness for 
almost 25 years. They just want somebody to believe them.
    After more than 70 years, Arla and veterans like him 
deserve recognition for their selfless service. I urge the 
Committee to support this legislation so we can keep our 
commitment and ensure that all veterans receive the respect, 
care, and benefits they have earned.
    Thank you, Mr. Chairman and Senators for being here, and I 
hope that this is something that would not be controversial and 
that we could move fairly quickly through the process.
    Chairman Isakson. Well, thank you for your testimony. I 
enjoyed our conversations during the markup on National Defense 
Authorization Act on this very subject, and we will continue to 
do the same thing here.
    Senator McCaskill. Thank you so much.
    [The prepared statement of Senator McCaskill follows:]
Prepared Statement of Hon. Claire McCaskill, U.S. Senator from Missouri
    Chairman Isakson, Ranking Member Blumenthal, thank you for the 
opportunity to address the Committee on this important topic. I am here 
today to speak in support of the Arla Harrell Act, legislation I 
introduced to address a serious injustice perpetrated against veterans 
exposed to chemical agents as part of US government experiments during 
World War II.
    The U.S. Government conducted classified chemical tests of mustard 
agents--including mustard gas and lewisite--on thousands of its own 
servicemembers. Mustard agents can cause painful blisters on exposed 
skin as well as damage to the eyes and respiratory system, leading to a 
lifetime of adverse health impacts. In total, 60,000 servicemembers are 
estimated to have participated in the tests, with about 4,000 of them 
facing the most extreme forms of full body exposure.
    One of these servicemembers is a constituent of mine, Arla Harrell, 
who was twice exposed to mustard gas while stationed for basic training 
at Camp Crowder in Neosho, MO in 1945. Arla and his fellow subjects 
were told they would be helping the military ``test summer clothing'' 
in exchange for additional leave. It was not until they arrived at the 
testing site that they were told they would be exposed to mustard 
agents. Servicemembers who participated in chamber testes were 
repeatedly exposed to mustard agents until they developed moderate to 
intense erythema, a painful skin disorder.
    The Servicemembers were threatened with court martial if they did 
not continue with the testing. To make matters worse, they were sworn 
to an oath of secrecy, leaving them unable to share what had happened 
to them with anyone, including their healthcare providers. Following 
his exposure, Arla was hospitalized twice, first at Camp Crowder while 
still in basic training and again at the 98th General Hospital in 
Munich, Germany.
    Due to the classified nature of the testing and the oath of 
secrecy, this meant decades of suffering and frustration for the 
impacted veterans as they sought medical care from doctors who were in 
the dark about their exposure. Seventy years after the experiments took 
place, the government has yet to appropriately assist and compensate 
many of these veterans.
    The VA established a process 25 years ago to compensate these 
veterans, but it puts the burden on the veterans to prove they were 
exposed to mustard gas in order to make successful claims. These tests 
were classified. The young servicemembers were held to an oath of 
secrecy for more than 40 years. Records are incomplete. And for some 
veterans, a massive 1973 fire destroyed their entire service case 
files. The VA established a burden of proof that is insurmountable for 
too many impacted veterans.
    The VA has rejected approximately 90 percent of applicants for VA 
benefits connected to exposure to mustard gas or lewisite. Of the 
thousands of veterans who were exposed during World War II, only 40 are 
receiving these benefits today.
    Arla Harrell himself has been denied benefits multiple times, most 
recently just this month. The VA says that it cannot confirm that 
mustard gas testing occurred at Camp Crowder and therefore cannot 
approve his benefits. This comes despite the clear statements from Arla 
regarding his treatment and the health effects that he has suffered. 
And it comes despite the fact that the Army recovered mustard gas in 
vials at Camp Crowder more than 30 years ago, and an Army Corps of 
Engineers report identifies gas chambers at Camp Crowder.
    The Arla Harrell Act would improve the VA's consideration of 
mustard agent exposure claims and address this terrible situation. 
Simply, the bill would flip the burden of proof for veterans who have 
already been denied these benefits. It would require the VA to 
reconsider all previously rejected claims for benefits under this 
program with a presumption that the veteran was exposed to mustard gas. 
Rather than require the veteran to prove exposure, the bill would 
require the VA to prove that he was not. This is not a large universe 
of individuals--and all of them have previously made a claim for these 
benefits.
    Additionally, the bill would require the VA and DOD to establish a 
new policy for the processing of future mustard agent benefit claims so 
that other veterans do not go through what Arla Harrell and others have 
been through.
    Arla, his wife Betty, and their five children have fought for 
compensation for his service-related illness for almost 25 years. After 
more than seventy years, Arla, and veterans like him, deserve 
recognition for their selfless service. I urge the Committee to support 
this legislation so we may keep our commitment and ensure all veterans 
receive the respect, care, and benefits they have earned.

    Chairman Isakson. Thank you, Senator McCaskill.
    We have one other member of the Senate, Senator Merkley, 
who has asked to testify, but he has not shown up yet. I do not 
know if we have a message that he is coming, so in his absence, 
we will go ahead and go to panel number 1.
    In the absence of Senator Blumenthal, we have a much more 
attractive Senator as Ranking Member, Senator Murray, and I 
recognize Senator Murray first.

            OPENING STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Well, Mr. Chairman, thank you. I want to 
thank you for holding this hearing on some really important 
pieces of legislation.
    I wanted to say, it is not on the agenda today, but I do 
want to take a moment to talk about my Servicemembers Civil 
Relief Act (SCRA) Enhancement and Improvement Act of 2016, 
which I believe is really important to upholding our country's 
commitment to veteran families. Part of that is making sure 
servicemembers have important legal protections so they can 
focus on their mission, and those protections recognize that 
while they are deployed or away from home, servicemembers often 
do not have the resources to respond to a range of financial 
and legal issues.
    Despite these protections, I am disappointed to learn that 
servicemembers continue today to be subjected to predatory 
practices and unfair treatment on their student loans, on their 
mortgages, and on their credit cards. It is why I have 
introduced the SCRA Enhancement and Improvement Act, which 
would put an end to many of these predatory practices and give 
servicemembers and our agencies the tools they need to fight 
back when banks and student loan servicers deny servicemembers 
their rights.
    I will put my statement into the record which explains what 
this does, Mr. Chairman, but it is about student loans, and it 
goes beyond that.
    I was concerned when, several years ago, some of our 
Nation's largest mortgage servicers improperly overcharged and 
foreclosed upon thousands of deployed servicemembers in 
violation of those current laws. So, our legislation deals with 
that, too. I just do not believe we should let our 
servicemembers be taken advantage of.
    Many of the provisions in our legislation have been 
considered by this Committee over the past years. Much of it is 
derived from requests by the Department of Justice for the 
tools it needs to protect our servicemembers.
    So, Mr. Chairman, it is not on the agenda today, but I 
really hope that our Committee can put it on a future agenda 
and deal with this important issue.
    [The prepared statement of Senator Murray follows:]
 Prepared Statement of Hon. Patty Murray, U.S. Senator from Washington
    Mr. Chairman, Thank you for holding this hearing on some important 
pieces of legislation.
    It is not on the agenda today, but I want to take a moment to talk 
about my SCRA Enhancement and Improvement Act of 2016, which I believe 
is so important to upholding our country's commitment to military 
families.
    Part of that is making sure servicemembers have important legal 
protections so they can focus on their mission. These protections also 
recognize that while they are deployed or away from home servicemembers 
often do not have the resources to respond to a range of financial and 
legal issues.
    Despite these protections, I've been disappointed to learn that 
servicemembers continue to be subjected to predatory practices and 
unfair treatment on their student loans, on their mortgages, and on 
their credit cards.
    That is so wrong.
    And, that is why I introduced the SCRA Enhancement and Improvement 
Act, which will help put an end to many of these predatory practices 
and give servicemembers and our agencies the tools they need to fight 
back when banks and student loan servicers deny servicemembers their 
rights.
    My bill will:

    <bullet> Require automatic application of the interest rate cap, 
timely responses to all inquiries, retention of communications with 
servicemembers, and a full explanation of any denial of an SCRA 
protection.
    <bullet> It will require student loan servicers to have a 
designated service representative or point of contact for 
servicemembers and ensure these individuals are properly trained.
    <bullet> It will reduce the interest rate cap to provide meaningful 
protection to servicemembers, including a zero percent cap for 
servicemembers eligible for hostile fire or imminent danger pay.
    <bullet> It will mandate that sufficient notice is given when a 
loan is transferred or sold, and that all benefits or protections 
seamlessly transfer to the new loan servicer.
    <bullet> And it will forgive all Federal and private student loan 
debt in the event the servicemember dies in the line of duty.

    The SCRA Enhancement and Improvement Act also expands protections 
beyond student loans.
    I was concerned when several years ago some of the Nation's largest 
mortgage servicers improperly overcharged and foreclosed upon thousands 
of deployed servicemembers, in violation of the current law.
    To address those problems, and in addition to the interest rate 
cap, the bill would expand the interest rate protection to all of a 
servicemember's debt, regardless of when it was incurred, in order to 
cover consolidation loans and in recognition that the same challenges 
exist for military borrowers regardless of when a debt was first 
incurred.
    My bill will also give servicemembers and our agencies the legal 
and oversight tools they need to hold entities accountable, including 
giving the Attorney General greater authority for investigations and 
enforcement of the SCRA and doubling the fines against bad actors.
    Like everyone here I believe protecting our military men and women 
from predatory practices is an absolutely essential commitment. We will 
not allow our servicemembers to be taken advantage of.
    Many of these provisions have been considered by this Committee 
over the past few years, and much of it is derived from requests by the 
Department of Justice for the tools it needs to protect servicemembers.
    I look forward to working with you, Mr. Chairman, and my colleagues 
to advance this important bill.

    Chairman Isakson. For the record, the distinguished lady 
from Washington asked me to try to get it on the agenda for 
today. We were so, first of all, full, that was impossible. 
Second of all, I talked about a jurisdictional issue with 
Senator Alexander with regard to student loans, which I will 
talk to you about that after the meeting, but we will pursue it 
for you.
    Senator Murray. OK. Thank you.
    Chairman Isakson. Thank you for being here today.
    With that said, our first panel, Mr. David McLenachen, 
Deputy Under Secretary for Disability Assistance, Veterans 
Benefits Administration (VBA), U.S. Department of Veterans 
Affairs, accompanied by Dr. Maureen McCarthy, Assistant Deputy 
Under Secretary for Health for Patient Care Services, Veterans 
Health Administration (VHA).
    Mr. McLenachen, you are recognized.

   STATEMENT OF DAVID McLENACHEN, DEPUTY UNDER SECRETARY FOR 
 DISABILITY ASSISTANCE, VETERANS BENEFITS ADMINISTRATION, U.S. 
    DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY MAUREEN 
McCARTHY, M.D., ASSISTANT DEPUTY UNDER SECRETARY FOR HEALTH FOR 
     PATIENT CARE SERVICES, VETERANS HEALTH ADMINISTRATION

    Mr. McLenachen. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to present the views of the 
Department of Veterans Affairs on several bills that are 
pending before the Committee.
    As you said, joining me today is Dr. Maureen McCarthy, 
Assistant Deputy Under Secretary for Health for Patient Care at 
VHA.
    Because there are so many bills under consideration during 
this hearing, I am unable to address each one individually, Mr. 
Chairman. VA has indicated support for or concern with these 
bills in my accompanying written testimony.
    We provided cost projections for these bills as we can and 
we will provide projections for the remainder as we compile the 
necessary data. We will do that as soon as we possibly can.
    I would like to highlight a few of the bills that VA 
strongly supports that are on the agenda today. S. 2316, which 
affects a provision in current law that prevents VA from 
adequately compensating our most vulnerable beneficiaries when 
the fiduciary that serves them misuses their benefits. It would 
also allow VA to more easily and thoroughly investigate 
financial records in cases where a fiduciary misuse is 
suspected.
    S. 3021 would provide veterans with more flexibility in 
using their Post-9/11 G.I. Bill benefits to pursue independent 
study in a program at an institution that is not an institution 
of higher learning. VA recognizes the importance of career and 
technical education courses and the growth of online and other 
forms of modern non-degree training and supports expanding 
educational assistance to cover these programs.
    S. 3055 would make permanent a successful VHA dental 
insurance pilot program. VA welcomes the opportunity to 
continue offering dental insurance to interested veterans and 
hopes to see the program grow.
    S. 3076, the Charles Duncan Buried with Honor Act, which 
you just heard about, would allow VA to provide caskets and 
urns to indigent veterans with no next of kin who are laid to 
rest in State and tribal cemeteries. VA strongly supports this 
cost neutral expansion of benefits, but suggests clarifying 
that it would apply to veterans' cemeteries of a State or 
Indian tribe.
    S. 603 would expand travel benefits for rural veterans. VA 
strongly supports Sections 2 and 4, but would like to work with 
the Committee regarding Section 3.
    We would also like to work with the Committee to make some 
clarifying edits to S. 2210, the Veteran Partners' Efforts to 
Enhance Reintegration or Veteran PEER Act, and would like to 
discuss with the Committee S. 2279, the Veterans Health Care 
Staffing Improvement Act.
    VA strongly supports S. 2958, which would enable the 
Secretary to establish a pilot program to accept donations of 
real property that address needs identified through VA's long-
range capital planning process. VA welcomes strategic 
partnerships such as the partnership proposed in this 
legislation. We look forward to working with the Committee and 
the bill's sponsors to address VA's technical concerns 
regarding the bill.
    VA has more difficulty supporting some of the other bills 
under consideration today. We fully support delivering benefits 
to veterans and survivors as quickly as possible, but we cannot 
support S. 3023, the Arla Harrell Act, which would create a 
presumption of full-body mustard gas exposure and resulting 
service connection for every World War II veteran who files a 
claim for related disability benefits. Nonetheless, these 
claims remain a high priority for VA and we will continue to 
fully and sympathetically develop and adjudicate every mustard 
gas claim that we receive.
    Delivering benefits to veterans exposed to radiation is 
also a high priority for VA, but we cannot support S. 2791, the 
Atomic Veterans Health Care Parity Act. Historical records and 
scientific evidence available to VA indicate that radiation 
exposure among servicemembers participating in the clean-up of 
the atoll were well below safe thresholds and unlikely to lead 
to any radiogenic disease. While VA is extremely grateful for 
every veteran's service and sacrifice, we believe that the 
paternalistic claim principles codified in current law and VA's 
mustard gas and radiation claim regulations already provide for 
fair and accurate resolution of these complicated claims.
    Finally, like several of our Veterans Service Organization 
partners, we cannot support S. 3081, Working to Integrate 
Networks Guaranteeing Member Access Now or the WINGMAN Act, 
which would give Congressional staff unprecedented access to 
veterans' personal records, even in the absence of those 
veterans' consent. We have outlined additional concerns with 
the WINGMAN Act and other bills in my written testimony.
    Mr. Chairman, this concludes my statement. We are happy to 
entertain any questions that you or other Members of the 
Committee may have. Thank you.
    [The prepared statement of Mr. McLenachen follows:]
  Prepared Statement of David McLenachen, Deputy Under Secretary for 
Disability Assistance, Veterans Benefits Administration, Department of 
                            Veterans Affairs
    Good morning, Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee. Thank you for inviting us here today to 
present our views on several bills that would affect the Department of 
Veterans Affairs' (VA) programs and services. Joining me today is Dr. 
Maureen McCarthy, Assistant Deputy Under Secretary for Health for 
Patient Care Services, Veterans Health Administration (VHA). While VA 
makes every effort to provide views on all bills that are on the 
hearing agenda, due to the time of receipt of the draft bill to 
authorize payment by VA for the costs associated with service by 
medical residents and interns at facilities operated by Indian tribes 
and tribal organizations, we are unable to provide views at this time. 
We look forward to sharing our views on the draft bill in a follow-up 
letter.
s. 2316--to expand the requirements for reissuance of veterans benefits 
in cases of misuse of benefits by certain fiduciaries to include misuse 
by all fiduciaries, to improve oversight of fiduciaries, and for other 
                               purposes.
    This bill would amend Chapters 55 and 61 of Title 38, United States 
Code (U.S.C.), to expand the requirements for reissuance of Veterans' 
benefits in cases of misuse of benefits by certain fiduciaries to 
include misuse by all fiduciaries and improve access to financial 
records for purposes of oversight of fiduciaries.
    Section 1 of S. 2316 would amend 38 U.S.C. Sec. 6107, to authorize 
the VA to reissue benefits to a beneficiary in all cases of fiduciary 
misuse. This bill would extend VA's reissuance authority to include 
misuse by individual fiduciaries who manage benefits for fewer than 10 
beneficiaries, without regard to VA negligence in appointing or 
overseeing such fiduciaries. The bill would prescribe that VA will pay 
the beneficiary or the beneficiary's successor fiduciary an amount 
equal to the misused benefits in any case in which a fiduciary misuses 
a beneficiary's VA benefits.
    Section 2 of S. 2316 would add a new subsection to 38 U.S.C. 
Sec. 5502, which contains VA's authority to oversee and monitor the 
activities of fiduciaries. This new subsection would increase VA access 
to fiduciary-held financial accounts by requiring every fiduciary to 
authorize VA to obtain any record held by any financial institution 
regarding the fiduciary or the beneficiary whenever VA determines that 
such record is necessary:

    <bullet> for the administration of a VA program; or
    <bullet> to safeguard the beneficiary's benefits against neglect, 
misappropriation, embezzlement, or fraud.

    VA supports this bill. It would ensure equal treatment of all 
fiduciary misuse victims regardless of the nature and scope of the 
fiduciary's business or the fiduciary's relationship with the 
beneficiary. This bill would allow VA to promptly reissue benefits that 
have been misused, thereby avoiding any financial hardship to 
beneficiaries caused by the misuse or delays in obtaining restitution 
or VA determining negligence. It would also provide an additional 
measure of oversight and improve the accountability of fiduciaries 
serving our most vulnerable beneficiaries by facilitating VA's 
inspection of financial records when necessary. Any fiduciary who is 
found to have misused VA benefits is barred from future service.
    During calendar year (CY) 2015, VA reissued $2,507,657 to 76 
beneficiaries whose fiduciaries misused benefits as a result of VA's 
negligence, an average of $32,995 per beneficiary. Pension and 
Fiduciary Service estimates that, on average, an additional $2 million 
in VA benefits are misused annually by individual fiduciaries where the 
fiduciary managed the benefits of fewer than 10 beneficiaries, and VA 
was not negligent in its appointment or oversight. Based on the average 
reissuance amount of $32,995, $2 million in benefits would represent 
approximately 61 beneficiaries per year. Under this proposal, VA would 
make these Veterans or survivors whole by reissuing benefits without 
regard to the number of beneficiaries an individual fiduciary managed 
or VA's negligence in its appointment or oversight.
    There would be no additional full-time employee (FTE) costs or 
general operating expenses (GOE) associated with enactment of this 
proposed legislation.
  s. 2958--to establish a pilot program on partnership agreements to 
    construct new facilities for the department of veterans affairs
    S. 2958 would authorize the VA Secretary to enter into up to five 
partnership agreements with a State or local authority; a 501(c)(3) 
corporation; a limited liability corporation; a private entity; a donor 
or donor group; or another non-Federal entity in order to secure 
donations of health care facilities and/or national cemetery assets.
    VA strongly supports this legislation, but seeks a critical change 
needed to preserve civil rights protections. It would enable VA to 
enter into agreements that could potentially assist in providing high 
priority assets that have been identified as a need through our long-
range capital planning process and are considered to be important in 
order to serve Veterans in safe, modern, and secure facilities. VA 
believes that the proposed partnerships will enable the Department to 
use alternative financing mechanisms, beyond VA's traditional 
appropriations, to deliver needed facilities for our Veteran 
population.
    We strongly support the bill's authorization of these partnership 
agreements provided that the legislation preserves civil rights 
protections for Veterans and other employees who will be working to 
construct the facilities resulting from these partnership agreements. 
We look forward to working with the Committee to revise the language in 
section 1(b), which as currently drafted could be interpreted as 
excluding equal opportunity and employment protections.
    VA estimates that S. 2958 would be cost-neutral because it provides 
for the donation of assets at no additional cost to the Federal 
Government beyond funds that have been previously appropriated for a 
project at the time of the agreement. The bill would not create an 
obligation by VA to fund the construction of the facilities 
contemplated by the bill. There would also be no obligation for VA to 
use future appropriations to fund capital costs related to the 
partnerships authorized by this section. VA would be pleased to work 
with the Committee to address technical edits to the bill as drafted.
 s. 3021--to authorize the use of post-9/11 educational assistance to 
 pursue independent study programs at certain educational institutions 
              that are not institutions of higher learning
    The proposed legislation would amend paragraph (4) of section 
3680A(a) to authorize the use of Post-9/11 educational assistance to 
pursue independent study programs at certain educational institutions 
that are not institutions of higher learning. Currently, under section 
3680A(a)(4), the Secretary is explicitly prohibited from approving 
enrollment in ``any independent study programs except an accredited 
independent study program (including open circuit television) leading 
(A) to a standard college degree, or (B) to a certificate that reflects 
educational attainment offered by an institution of higher learning.'' 
As such, VA is not authorized to pay educational assistance for 
independent study courses at an institution not considered an 
institution of higher learning (IHL), or for any non-accredited 
independent study courses.
    VA supports the proposed legislation that would expand VA's 
approval authority to pay Post-9/11 GI Bill benefits for enrollment in 
accredited independent study certificate programs at educational 
institutions that are not IHLs. More specifically, VA supports non-IHL 
independent study programs that are accredited by an accreditor 
recognized by the Secretary of Education (which would help ensure the 
integrity of the accreditor) and, if career and technical, that lead to 
industry-recognized credentials and certificates for employment. VA 
understands and appreciates the importance of career and technical 
education courses and the growth in the utilization of online and other 
21st Century training modalities in the delivery of instruction for 
both degree and non-degree programs. As such, expanding the approval 
authority for certain independent study programs would be in the best 
interests of VA education beneficiaries.
    We note that because this bill would amend 38 U.S.C. Chapter 36, 
the expansion of benefits would not be limited to Post-9/11 GI Bill 
benefits. Benefit costs are estimated to be $49.2 million in the first 
year, $266 million over five years, and $599.4 million over ten years. 
There would be no additional FTE or GOE associated with enactment of 
this proposed legislation.
 s. 3032--veterans' compensation cost-of-living adjustment act of 2016
    S. 3032, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
of 2016,'' would require the Secretary of Veterans Affairs to increase, 
effective December 1, 2016, the rates of disability compensation for 
service-disabled Veterans and the rates of dependency and indemnity 
compensation (DIC) for survivors of Veterans. This bill would increase 
these rates by the same percentage as the percentage by which Social 
Security benefits are increased effective December 1, 2016. Consistent 
with VA's processing of these benefit payments under current law, the 
bill would prescribe an increase in each benefit dollar amount without 
rounding down to the next whole dollar amount. The bill would also 
require VA to publish the resulting increased rates in the Federal 
Register.
    VA supports this Cost-of-Living Adjustment (COLA) bill because it 
would express, in a tangible way, this Nation's gratitude for the 
sacrifices made by our service-disabled Veterans and their surviving 
spouses and children and would ensure that the value of their well-
deserved benefits will keep pace with increases in consumer prices. 
Although not included in S. 3032, VA would also support inclusion of 
the round-down provision in effect before December 1, 2013, which 
provided that ``each dollar amount, if not a whole dollar amount, be 
rounded down to the next lower dollar amount.'' This round-down 
methodology would provide the desired benefit increases, and ensure 
VA's fiscal responsibility. The 2017 President's Budget includes a 
legislative proposal to reinstate the round-down provision for five 
years, which would result in benefit savings of $21.5 million in 2017, 
$63.5 million in 2018, and $599.3 million over five years. Although the 
proposal would reinstate the round-down for five years, the cumulative 
effect of rounding-down COLAs for five years would total $2.0 billion 
in savings over ten years
    Benefits costs that would result from the COLA increase are 
estimated to be $490.8 million during the first year, $3.0 billion for 
five years, and $6.6 billion over ten years. The 2017 President's 
budget assumes annual COLA increases for disability compensation and 
DIC in its baseline estimate. There would be no increases to costs 
above the current baseline budget associated with the COLA.
    The current COLA estimate from the 2017 President's Budget, 
effective December 1, 2016, is 0.8 percent. The impact of the COLA was 
calculated by applying the 0.8 percent increase in payments to the 
projected caseloads in the fiscal year (FY) 2016 President's budget. 
The total cost was then compared to the estimated cost without COLA 
increases to calculate the impact of the COLA.
    There would be no FTE or GOE costs associated with enactment of 
this proposed legislation.
       s. 3055--department of veterans affairs dental insurance 
                      reauthorization act of 2016
    S. 3055 would make the VA Dental Insurance Program (VADIP) 
permanent, which was initially implemented as a pilot program on 
November 15, 2013, through Section 510 of the Caregivers and Veterans 
Omnibus Health Services Act of 2010 (Public Law 111-163). The VADIP 
program offers enrolled Veterans and beneficiaries of VA's Civilian 
Health and Medical Program (CHAMPVA) the opportunity to purchase dental 
insurance at a reduced cost. Each participant pays a fixed monthly 
premium for coverage, in addition to any copayments required by his or 
her plan. Through the pilot, over 75,000 Veterans and CHAMPVA 
beneficiaries purchased plans as of December 31, 2014. In the 4th 
quarter of CY 2014, VA conducted a survey of Veterans who have 
purchased and utilized the insurance plans, and over 92 percent said 
they would renew and recommend the program to other Veterans, 
indicating strong overall satisfaction with the program. Providing 
Veterans, their families, and beneficiaries an opportunity to purchase 
dental insurance that contains coverage and quality defined by the VA 
Office of Dentistry at discounted rates is one step in improving the 
overall health of the Veteran population.
    VA supports S. 3055.
         s. 3076--charles duncan buried with honor act of 2016
    This bill would amend 38 U.S.C. Sec. 2306(f) which currently 
authorizes the VA Secretary to furnish a casket or urn, of such quality 
as the Secretary considers appropriate for a dignified burial, for 
burial in a national cemetery of a deceased Veteran in any case in 
which the Secretary is unable to identify the Veterans' next-of-kin, if 
any; and determines that sufficient resources for the furnishing of a 
casket or urn for the burial of the Veteran in a national cemetery are 
not otherwise available. By regulation, VA administers this benefit 
through a reimbursement program.
    S. 3076 would change the current authority by expanding the 
availability of the benefit to Veterans buried in a State or tribal 
organization cemetery. VA fully supports the bill. We suggest one minor 
amendment to the language in subsection (1); to add ``veterans'' before 
``cemetery of a State or Indian tribe.''
    The authority to furnish caskets and urns was included in Public 
Law 112-260, the Dignified Burial and Other Veterans' Benefits 
Improvement Act of 2012. This vehicle was used to highlight the issue 
of Veterans without next-of-kin and without sufficient resources for 
burial, and the need for expanded benefits for this disadvantaged 
group. In addition to the new authority to furnish a casket or urn for 
Veterans without next-of-kin and without sufficient resources for 
burial who are buried in VA national cemeteries, the public law 
expanded the plot allowance and transportation allowance and directed 
specific procedural requirements for national cemetery officials to 
confirm remains were unclaimed and the final disposition of those 
remains.
    After publishing its final regulation on the casket and urn 
reimbursement program, on May 13, 2015, VA began accepting requests for 
reimbursement for caskets or urns purchased for the interment of 
deceased Veterans who died on or after January 10, 2014, without next 
of kin and sufficient resources for burial. Currently, any individual 
or entity may request reimbursement if they purchase a casket or urn to 
inter in a VA national cemetery an eligible Veteran who died on or 
after January 10, 2014, without next of kin and without sufficient 
resources to purchase a burial receptacle. VA will reimburse the actual 
cost of such a casket or urn, not to exceed an annually established 
rate based on the average cost of caskets and urns in any given CY. For 
claims received in CY 2016, the maximum reimbursement rates are 
$2,421.00 for caskets and $244 for urns. The maximum reimbursement 
amounts are adjusted for inflation on an annual basis.
    Regarding the amendment's change to provide the benefit for 
Veterans interred in a State or tribal organization Veterans cemetery, 
VA submitted a legislative proposal concept to make such a change in 
its FY 2017 budget submission, indicating the Department's willingness 
to implement this expansion to its current authorities. Through a 
grants program to establish, expand, and improve State and tribal 
organization Veteran cemeteries, NCA maintains a valuable partnership 
with States and tribal organizations to provide a final resting place 
to those who may not have access to a VA national cemetery burial 
option. Extending the casket and urn reimbursement benefit for the 
burial of Veterans without next-of-kin and without sufficient resources 
for burial who are in State or tribal Veterans cemeteries would support 
VA's efforts to ensure the unclaimed remains of Veterans receive a 
dignified burial. VA grant-funded State and tribal Veterans cemeteries 
conducted nearly 36,000 burials of Veterans and their families in FY 
2015. These cemeteries provide the same services and benefits to 
Veterans and their eligible family members and are required to comply 
with the same national shrine appearance standards as national 
cemeteries.
    There would be no benefit costs or savings associated with 
enactment of the provision to expand the benefit to State and tribal 
organization cemeteries.
                       s. 2210--veteran peer act
    S. 2210 would require the Secretary to phase in and conduct a 
program whereby peer specialists would be included in patient aligned 
care teams at VA medical centers (VAMC), to promote the use and 
integration of mental health services in a primary care setting. Not 
later than 180 days after the date of enactment, this program would 
have to be established at not fewer than ten VAMCs. By not later than 
two years (from this same date), it would have to be in place at not 
fewer than 25 VAMCs. Under the bill, the Secretary would be directed to 
consider specified factors when selecting sites for this program, but, 
not fewer than five would have to be established at VA designated 
Polytrauma Centers, and not fewer than ten would need to be established 
at VAMCs not so designated. S. 2210 would also require that all peer 
specialist programs established under this mandate: (1) ensure that the 
needs of female veterans are considered and addressed; and (2) include 
female peer specialists. Finally, this measure would establish initial, 
periodic, and final Congressional reporting requirements, as detailed 
in the bill.
    VA supports S. 2210 subject to the availability of additional 
funding, noting a few technical changes are needed for clarity. This 
legislation, if enacted, would complement VA's ongoing pilot program 
(commenced in 2014) whereby peer support through peer specialists has 
been extended beyond traditional mental health sites of care to include 
Veterans receiving mental health care in primary care settings. Under 
the pilot program, trained peer specialists work with VA primary care 
teams to, in general terms, help improve the health and well-being of 
other Veterans being treated in VA primary care settings. To date, 
seven medical centers have volunteered for the pilot, composing the 
first cohort of sites to deploy peers to primary care. Two more cohorts 
are being recruited for implementation in July 2016, and January 2017. 
Peers provide services for ten hours per week, and that time may be 
divided among two peers. As with VA's long established mental health 
peer support model, the pilot program recognizes the therapeutic value 
of having peer specialists share their own past recovery experiences 
with Veterans receiving mental health care in the primary care setting, 
particularly those who are experiencing challenges similar to what the 
peer specialist experienced.
    As mentioned, female peer specialists would have to be included in 
the program mandated by S. 2210. This is not necessary, however, as 
women peer specialists are already well represented, with 18 percent of 
the national peer specialist workforce being women. While at first 
glance 18 percent may seem a low rate, please bear in mind that this 
figure is higher than the percentage of Veterans seeking services 
through VA who are women. We do recognize, however, that the current 
number of women Veteran peer specialists in the pilot is unevenly 
distributed across the country, with some medical centers having 
greater difficulty than others in attracting qualified applicants.
    Also, it is unclear if the peers will address substance use 
disorders under the umbrella of their mental health duties. Given the 
comorbidity of these issues, the need for integration of substance use 
disorder identification and care, the need for overdose prevention and 
linkage as needed to Medication Assisted Treatment for opioid use 
disorder, and the need to increase the numbers of veterans achieving 
long term recovery, we recommend that this be clarified and if possible 
included.
         s. 603--rural veterans travel enhancement act of 2015
    S. 603, the Rural Veterans Travel Enhancement Act of 2015, would 
make amendments to VA's legal authorities governing transportation 
benefits.
    Section 2 would make permanent VA's authority under 38 U.S.C. 
Sec. 111A(a) to transport any person to or from a VA facility or other 
place in connection with vocational rehabilitation, counseling required 
pursuant to Chapter 34 or 35 of Title 38 U.S.C., or for the purpose of 
examination, treatment, or care.
    Section 3 would amend 38 U.S.C. Sec. 111 to authorize beneficiary 
travel benefits for travel to and from Vet Centers for readjustment 
counseling and related mental health services under 38 U.S.C. 
Sec. 1712A. As a technical matter, we note that counseling under 38 
U.S.C. Sec. 1712A is also available to certain Servicemembers and 
family members.
    Finally, Section 4 would extend the authorization of appropriations 
for the Grants for Transportation of Veterans in Highly Rural Areas 
program through 2020.
    VA supports Sections 2 and 4 of S. 603, assuming resources are 
provided to continue the operation of these programs. These provisions 
of the legislation would provide extended transportation authority for 
Veterans, particularly rural Veterans.
    VA does not support Section 3 of the bill. The historic nature of 
the Readjustment Counseling Service and the concept of ready access 
with minimal administrative and bureaucratic processing, together with 
the separate location of Vet Centers and the lack of infrastructure to 
support consideration payment of BT, are all factors VA considered in 
choosing not to support this bill.
    VA is, however, currently conducting a pilot program, as required 
in Section 104 of Public Law 112-154, to assess the feasibility and 
advisability of paying beneficiary travel under 38 U.S.C. Sec. 111 for 
travel from a residence located in an area that is designated by the 
Secretary as highly rural to the nearest Vet Center and from such Vet 
Center to such residence. Based on experience with this pilot, VA does 
not agree that Veterans traveling to Vet Centers should be reimbursed 
using the Beneficiary Travel (BT) Program.
    The pilot has demonstrated that a significant amount of 
coordination is necessary between the Vet Centers and corresponding VA 
medical centers. Because Vet Center visits are not entered into the 
Veteran's electronic medical record, increased paper documentation and 
communication with the VA medical center is required. Risk of improper 
payments would increase with the complexity of this process, as 
traditional methods of paying BT could not be used.
    Feedback from Veterans indicates that they find Vet Centers are 
more therapeutic and less bureaucratic than VA medical centers, and 
Veterans are afforded anonymity and the ability to speak freely without 
fear of repercussion. Participants cautioned that privacy was an issue, 
especially for police officers, fire fighters, and National Guardsmen, 
and expressed concerns that the information included in their file may 
negatively affect their employment. Some participants said they would 
be comfortable having VA medical center administrative staff see that a 
Veteran was a Vet Center client, but all participants agreed that they 
do not want the staff to have access to visit details, such as notes or 
specific diagnoses. This information is required in order to process 
most BT claims.
    Over time, as travel benefits have improved, VA health care 
facilities have noted a significant increase in the number of Veterans 
claiming travel, as well as visits by those Veterans. We anticipate 
that, if enacted, Vet Centers would see similar changes that could 
affect provision of services at those facilities or require additional 
staffing resources to handle the increase of visits. These Vet Center 
staff would have increased administrative burdens, including 
documentation of visits and determinations of whether treatment related 
to service-connected condition(s), which are not currently required.
    VA estimates the cost of this bill would be over $11 million in FY 
2017, nearly $12 million in FY 2018, $61 million over five years, and 
$136 million over ten years.
         s. 2279--veterans health care staffing improvement act
    Section 2 of S. 2279 would require the VA Secretary, in 
coordination with the Secretary of Defense, to carry out a program to 
increase efficiency in the recruitment and hiring by VA of health care 
workers that are undergoing separation from the Armed Forces. Under 
Section 2, the Department of Defense (DOD) would have to provide VA a 
list of members of the Armed Forces, including the reserve components, 
who served in a health care capacity in the Armed Forces, are 
undergoing or have undergone separation from the Armed Forces, and will 
be discharged or have been discharged under honorable conditions.
    Section 2 will support VA's ability to recruit qualified and 
trained health care professionals from the Armed Forces.
    VA anticipates that the costs for implementing Section 2 for FY 
2017 would likely amount to $4.9 million, and for a five-year period, 
from FY 2017 to FY 2021, the costs for implementing Section 2 would 
likely amount to $27.3 million.
    Section 3 of S. 2279 would require VA to create uniform 
credentialing standards for positions specified in 38 U.S.C. 
Sec. 7421(b). VA does not support this section as it already has 
uniform credentialing standards for its health care providers. VA 
prescribes these standards and the process for obtaining and retaining 
them through VA and VHA policy, including VHA Handbook 1100.19, 
Credentialing and Privileging, and VHA Directive 2012.030, 
Credentialing of Health Care Professionals. All credentialing occurs in 
VHA's electronic credentialing software platform, VetPro, and 
credentialing files can be easily shared and transferred throughout VA. 
At this time, VA does not have a cost estimate for this section.
    Section 4 of S. 2279 would require VA to provide full practice 
authority to advanced practice registered nurses (APRN), physician 
assistants (PA), and other licensed health care professionals. The 
Rulemaking for APRNs is currently open for public comment until 
July 25, 2016, and we have received many public comments on this 
regulation. VA will consider and respond to the issues raised by these 
comments in the final rulemaking
    At this time, VA does not have a cost estimate for this section.
     s. 244--independent comprehensive review of va assessment of 
                        traumatic brain injuries
    S. 244 would require VA, within a reasonable period of time, to 
enter into an agreement with the Institute of Medicine (IOM) or another 
organization, if VA is unable to enter into an agreement with IOM, to 
conduct a comprehensive review of examinations provided by VA to 
individuals who submit claims to the Secretary for compensation under 
Chapter 11 of Title 38, U.S.C., for Traumatic Brain Injury (TBI). The 
comprehensive review would be required to include a determination of 
the adequacy of the tools and protocols used by VA to provide 
examinations for compensation claims for TBI and a determination of the 
credentials necessary for health care providers and specialists to 
perform such portions of such examinations that relate to assessment of 
cognitive functions. The IOM would be required to convene a group of 
experts in clinical neuropsychology and other related disciplines. VA 
would be required to submit a report to Congress within 540 days of 
entering into an agreement with IOM detailing the findings of the IOM 
with respect to the comprehensive review it would conduct and 
recommendations of the IOM for legislative or administrative action 
that could improve the adjudication of these claims.
    While VA appreciates the objective of this bill, we do not believe 
it is necessary. We are committed to ensuring that all Veterans receive 
comprehensive, quality compensation and pension (C&P) examinations by 
qualified professional health care providers in a timely manner. Mental 
health professionals must make a clinical determination when conducting 
a C&P examination as to whether any psychometric testing is to be done; 
if the examiner determines that testing should be utilized, it is up to 
the examiner to determine what test to administer, based on the 
specifics of the Veteran's case. VA subject matter experts have 
thoroughly reviewed the policies regarding TBI examinations and, based 
on best clinical practices and protocols, do not believe that TBI C&P 
examinations are insufficient. VA's existing regulations reflect the 
special nature of complicated TBI claims and the unique criteria and 
process used to evaluate TBI. Under these rules, VA employs a holistic 
approach using cognitive, emotional/behavioral, and physical criteria 
to evaluate TBI. Notably, S. 244 would direct the IOM to analyze VA's 
criteria for evaluating cognitive function, with no mention of 
emotional, behavioral, and physical symptoms. VA would characterize 
such a limited analysis as a step backwards. In an effort to provide 
continuous process improvement to evaluating disability under the VA 
Schedule for Rating Disability, VA employs legal, medical, and 
administrative experts who routinely review the sufficiency of 
examination and rating criteria and recommend changes necessary to 
maintain accuracy, fairness, and efficiency in the claims resolution 
process. Establishing an external reviewing body would essentially 
duplicate VA's existing process.
    VA currently has authority to work with IOM or others, and if we 
determine that such input is necessary, we will not hesitate to do so.
             s. 2791--atomic veterans healthcare parity act
    This bill would amend Title 38, U.S.C. to provide for the treatment 
of Veterans who participated in the cleanup of Enewetak Atoll, as 
radiation exposed Veterans for purposes of the presumption of service-
connection of certain disabilities by the Secretary of Veterans 
Affairs.
    DOD conducted atomic bomb testing on Enewetak Atoll in the Pacific 
Marshall Islands during the 1950s. Senate bill 2791 would provide that 
Veterans who participated in the cleanup effort on Enewetak Atoll from 
January 1, 1977, through December 31, 1980, engaged in a ``radiation-
risk activity'' and will be classified as radiation-exposed Veterans 
for purposes of establishing a presumption of service connection for 
certain enumerated radiation-related diseases.
    When considering the creation of benefits presumptions, VA relies 
on science-based models that can be used to establish association 
between an in-service event and a post-service disability. VA has 
thoroughly reviewed the best available analysis of Enewetak cleanup 
exposure data, the 1981 Defense Nuclear Agency (DNA) Report, The 
Radiological Cleanup of Enewetak Atoll, and other available evidence. 
That evidence establishes that radiation doses among servicemembers 
participating in the cleanup were well below recommended thresholds for 
both acute and latent health effects, such as cancers. Since the best 
available evidence found radiation exposure among those individuals 
involved with the cleanup well below acceptable thresholds, there is no 
factual basis that would warrant a determination that this group of 
Veterans engaged in a radiation-risk activity sufficient to justify a 
presumption of service connection.
    VA continues to evaluate any individual Veteran involved with the 
Enewetak Atoll cleanup on a direct facts-found basis under the ionizing 
radiation dose-evaluation regulations at 38 Coode of Federal 
Regulations (CFR) Sec. 3.311. While the VA appreciates the Committee's 
attention and efforts to address this very important matter, the VA is 
unable to support S. 2791 as the proposed policy is inconsistent with 
known Enewetak Atoll exposure data and associated scientific analysis.
    The costs that would be associated with enactment of this bill are 
to be determined.
                     s. 3023--the arla harrell act
    S. 3023 would (1) provide for reconsideration of claims for 
disability compensation from Veterans who allege mustard gas or 
lewisite exposure during World War II (WWII) that were previously 
denied by VA; (2) create a presumption of full-body exposure to mustard 
gas or lewisite if VA or the Secretary of Defense makes a determination 
regarding such exposure; (3) preclude use of information in the DOD and 
VA Chemical Biological Data base or any list of known testing sites as 
the sole reason for finding that such veteran did not have full-body 
exposure; (4) require development by DOD and VA of a policy for 
processing future claims; (5) require a report by DOD regarding 
mustard-gas or lewisite experiments conducted by DOD during WWII, 
including each testing location, dates of experiments and number of 
members of the Armed Forces who were exposed; and (6) require VA to 
investigate and assess actions taken to notify exposed Veterans and 
investigate and assess the mustard-gas and lewisite claims from WWII 
Veterans that are filed and the percentage of these claims that are 
denied by VA.
    Section 2(a)(3) of the bill would provide that, in reconsidering 
claims for VA disability compensation based on exposure to mustard gas 
or lewisite, if VA or DOD ``makes a determination regarding whether'' a 
Veteran experienced full-body exposure to those substances, VA or DOD 
``shall presume'' that the Veteran experienced such exposure. Section 
2(a)(3)(B), would prohibit VA from denying a claim based ``solely'' on 
the presence or absence of information in the DOD and VA Chemical 
Biological Warfare Data base, which was compiled based upon information 
available to DOD, or other lists maintained by the Departments.
    The VA appreciates the Committee's attention to this very important 
issue. Providing Veterans with the care they need when they need it 
remains VA's top priority. We owe it to Veterans to ensure our 
decisions are fair, clear, and consistent across the board. Due to a 
number of concerns, we are unable to support S. 3023. The direction 
that VA ignore certain evidence, which may already be in the Veteran's 
claims file, would not only be unfair to other Veterans, but would 
conflict with other applicable provisions of law. Under 38 U.S.C. 
Sec. 1154(a), in determining whether a condition is related to service, 
VA must give ``due consideration'' to the ``places, types, and 
circumstances of'' a Veteran's service ``as shown by such [V]eteran's 
service record, [and] the official history of each organization in 
which such [V]eteran served.'' In addition, 38 U.S.C. Sec. 5107(b) 
requires VA to ``consider all information and law and medical evidence 
of record in a case before the Secretary with respect to benefits under 
laws administered by the Secretary.'' Finally, under 38 U.S.C. 
Sec. 1154(b), in the case of a Veteran who engaged in combat with the 
enemy, VA must accept lay or other evidence of service regarding 
service incurrence of a disease or injury, notwithstanding the absence 
of an official record of such incurrence. However, the Veteran must 
first establish that he or she engaged in combat with the enemy, which 
usually involves consideration of service department records, and the 
lay or other evidence must be ``consistent with the circumstances, 
conditions, or hardships of such service.''
    The proposed presumption of exposure to mustard gas and lewisite, 
which would not be supported by service department records or other 
objective evidence, would be unprecedented if enacted. It appears that 
the presumption would be invoked solely on the basis of a Veteran's 
statement that such exposure occurred and generally would be 
irrebuttable. Existing presumptions of an in-service exposure or event 
apply to discrete groups of Veterans whose service records reflect 
unique circumstances of service. Examples include Vietnam and Korean 
Veterans who are presumed exposed to Agent Orange during certain time 
periods, Veterans whose records indicate participation in WWII and cold 
war nuclear weapon detonations who are presumed exposed to ionizing 
radiation, and combat Veterans of all eras who are presumed exposed to 
the sort of traumatic stressor that can cause Post Traumatic Stress 
Disorder. Each of these sets of Veterans will have service department 
evidence of an in-service event or circumstance that may have triggered 
post-service disability.
    Under the standard proposed in the bill, any WWII Veteran who has 
claimed participation in a mustard gas or lewisite test would be 
entitled to a presumption of full body exposure. This includes Veterans 
who may be confusing exposure to mustard gas or lewisite, with more 
routine agents such as tear gas, or even to placebo agents. All WWII 
claimants would essentially be presumed exposed to mustard gas--even 
Veterans who participated in no chemical testing.
    Section 2(b) of the bill proposes a joint VA/DOD policy for 
processing future disability compensation claims based on exposure to 
mustard gas or lewisite. VA notes that mustard gas and lewisite claim 
policies and procedures are already in place and have and continue to 
lead to fair and equitable outcomes. VA promulgated a regulation in 
1994 to address full-body mustard gas and lewisite claims (see 38 CFR. 
Sec. 3.316) and recently updated procedural guidance directing VA 
claims processors to consider all relevant evidence, including both 
service department data and information from outside sources.
    We share the Committees concern for these Veterans and we will 
continue to do everything we can, within the scope of the law, to 
provide care for those who have been identified by DOD as having had 
full body exposure to Mustard Gas and have been diagnosed with 
conditions due to that exposure. Changing the rules for one set of 
individuals is simply unfair for the thousands of other Veterans 
seeking care at VA. We value our Veterans lives equally and want to 
ensure that each and every Veteran seeking care is treated fairly under 
the law.
    Costs that would be associated with enactment of this proposed 
legislation are to be determined.
 s. 3081--working to integrate networks guaranteeing member access now 
                           act (wingman act)
    Section 2 of this bill would amend Chapter 59 of Title 38, U.S.C. 
by adding new Section 5906 to direct the Secretary to, within 180 days, 
provide ``accredited,'' permanent congressional staffers designated by 
a Member of Congress with remote, read-only access to Veterans Benefits 
Administration's (VBA) electronic records of Veterans who reside in the 
area represented by the Member, regardless of whether the Veteran whose 
record is accessed has consented to the disclosure of information. The 
bill also clearly states that the provision of access to the 
congressional staffer is not for purposes of representing Veterans in 
the preparation, presentation, and prosecution of claims for Veterans' 
benefits.
    VA understands the interest of Members in Congress in having 
current casework information for their Veteran constituents. However, 
VA strongly opposes this bill because it would provide congressional 
employees with unprecedented access to the records of Veterans and 
other VA claimants, raising significant privacy concerns, and because 
it improperly conflates the concept of access to claims records with 
the distinct mission and function of VA's Accreditation Program in 
ensuring that Veterans have access to competent and qualified claims 
representation.
    Regarding the nature of the access provided, the bill would provide 
congressional staff who assist constituents of a Member of Congress 
with greater access to VA records than is provided to a VA employee or 
contractor. Under the Privacy Act, Federal employees generally may 
access private records only when necessary to perform their duties. 
This bill would impose no similar restriction on access by 
congressional staff. From a privacy and information security 
standpoint, granting congressional staff unrestricted access to the 
medical records of Veterans and other VA claimants is not in the best 
interest of Veterans and their families. VA patients and claimants 
entrust VA with their personal, medical, and other information, and 
they do not generally expect that such information could be viewed by 
Congress without their explicit consent. To the extent that 
congressional staffers require access to an electronic claims record 
for which the Member possesses an appropriate release from the 
individual, access may be provided in the form of a disc or under 
supervision at a VA facility because those types of access are within 
the current capabilities of VA systems.
    Regarding how the bill conflates the concepts of access to claims 
records and representation of claimants, accreditation by VA as 
attorneys, claims agents, and Veterans Service Organization (VSO) 
representatives is not done for purposes of providing access to VBA's 
electronic records system. Rather, as stated at 38 CFR Sec. 14.626, 
``the purpose of [VA's accreditation and oversight] of representatives, 
agents, attorneys, and other individuals is to ensure that claimants 
for [VA] benefits have responsible, qualified representation in the 
preparation, presentation, and prosecution of claims for veterans' 
benefits.'' In contrast, as specifically stated in draft Sec. 5906(d), 
this bill is unrelated to that purpose. The laws governing 
accreditation do not address the issue of access to claimants' records, 
which are governed separately by other laws. Instead, the provisions in 
Chapter 59 address the authority for regulation and oversight of 
representation before VA, including the ethical standards of 
professional conduct for representatives, and whether fees charged in a 
particular case may be considered reasonable. VA's Accreditation 
Program serves the important function of ensuring that Veterans have 
information on and access to qualified and competent representatives 
who can assist with their claims for benefits and who are subject to 
appropriate VA regulation and oversight in that role. Making 
congressional employees' access to claimant records a function of VA's 
accreditation program would unnecessarily complicate the operation of 
that program. Referring to congressional staff as ``accredited'' can 
only create confusion about whether staffers are accredited by VA for 
purposes of claims representation and what their role is in the claims 
process.
    Access to claims records is authorized under Chapter 57 of Title 
38, U.S.C., as well as other privacy and information laws. 
Specifically, 38 U.S.C. Sec. 5701(b)(1) authorizes VA to disclose 
records to a ``duly authorized agent or representative of a claimant.'' 
There are numerous provisions in Chapter 57 that provide for release of 
VA records and that have nothing to do with representation and or the 
status of being a VA-accredited representative. Because the bill 
pertains to congressional access to Veterans' records, placing this new 
authorization in Chapter 59 would be an additional source of confusion.
    Additionally, there are serious technological obstacles to 
implementing this bill. The bill would impose on VA a substantial 
burden to accommodate the contemplated access. Our system provides 
access to one representative per Veteran or claim and for only the 
records of a Veteran who has specifically authorized access. VA would 
need to re-design its system architecture to allow more than one 
representative per Veteran or claim. Absent such system changes, in 
order to provide the type of electronic access to congressional staff 
contemplated by the bill, VA would have to displace the electronic 
access of current representatives--VSO representatives, private 
attorneys, and claims agents--causing substantial administrative 
burdens on VA and hardships on those representing Veterans and the 
Veterans they represent, while also interfering with the relationship 
between Veterans and their representatives.
    Finally, Members of Congress and their employees already have 
access to claims status information through VA's regional offices and 
central office when specifically authorized by a Veteran constituent or 
when they have proper authority to conduct oversight. Each VA regional 
office has a Congressional Liaison, who may be contacted for claims 
information assistance, and VA's Office of Government Relations serves 
as a central point of contact for inquiries originating from Capitol 
Hill. If enacted, this bill would delay both the development of 
information technology components critical to VA's electronic claim 
process transformation, and the resolution of pending claims for 
benefits.
    Due to the short time-frame and the magnitude of the system changes 
needed, we are unable to provide an accurate cost-estimate at this 
time, although costs associated with changes to VA information systems 
would likely be substantial. VA is always ready to discuss with the 
Committee other ways VA can improve a Member of Congress' ability to 
effectively work with VA to resolve casework issues on behalf of their 
constituents.
s. 3035--maximizing efficiency and improving access to providers at the 
               department of veterans affairs act of 2016
    Section 2 of S. 3035 would require VA, within 120 days of the date 
of the enactment of the bill, to carry out a pilot program to increase 
the use of medical scribes to maximize the efficiency of physicians at 
VA medical facilities. The pilot program would be carried out for a 
period of 18 months and would be located at not fewer than five VA 
medical facilities that VA has determined have a high volume of 
patients or that are located in rural areas at which the Secretary has 
determined there is a shortage of physicians and each physician has a 
high caseload. VA would be required to enter into contracts with one or 
more appropriate non-governmental entities, defined as an entity that 
trains and employs professional medical scribes who specialize in 
medical data collection and entry, to carry out the pilot program. VA 
would be required to collect various data on the pilot program to 
determine the effectiveness of the program. VA would be required within 
180 days after the commencement of the pilot program, and not less 
frequently than once every 180 days thereafter, to submit to Congress a 
report on the pilot program.
    VA does not support this bill. Currently, VHA has an Enterprise 
Wide Front End Speech Recognition contract that includes unlimited 
licenses for clinical end users for the Nuance Dragon Medical 360 
Network Edition (DMNE) Version 2.3, which is the current version. DMNE 
provides advanced, secure, speech recognition solutions that allow 
clinicians to document the complete patient story using voice while 
allowing healthcare organizations to deploy and administer medical 
speech recognition across the enterprise. VHA is in the process of 
administering a request for proposals that includes the use of scribes 
(contracted or hired) and transcription, as well as a health advocate. 
An evaluation plan of all methods of provider documentation support has 
been developed as well. The pilot should commence by end of this FY.
    VA estimates this bill would cost $464,427 in FY 2017, and $475,899 
in FY 2018.
    draft bill--readjustment counseling services for members of the 
                  selected reserve of the armed forces
    The draft bill would authorize VA, in consultation with the 
Secretary of Defense, to provide VA readjustment counseling services to 
any member of the Selected Reserve of the Armed Forces who has a 
behavioral health condition or psychological trauma, to assist the 
individual in readjusting to civilian life. These services may include 
a comprehensive individual assessment of the member's psychological, 
social, and other characteristics to ascertain whether he or she has 
difficulties associated with readjusting to civilian life. Such a 
member would not be required to obtain a referral before receiving 
these services. If enacted, these amendments would become effective one 
year after the date of the Act's enactment.
    VA does not support this bill. The Readjustment Counseling Service 
(RCS) was created in 1979 to provide the specific and unique function 
of assisting individuals to life after combat related military service. 
This bill would authorize VA to expand RCS services related to 
assisting the individual in readjusting to civilian life to all members 
of the Selected Reserve of the Armed Forces who have behavioral health 
conditions or psychological trauma, regardless of connection to combat 
related service. VA currently has authority to provide readjustment 
counseling services to members of the Selected Reserve who meet other 
qualifying criteria; namely: (1) having served on active military duty 
in any combat theater or an area at a time during which hostilities 
occurred in that area; (2) having experienced military sexual trauma 
while serving on active military duty, active duty for training, or 
inactive duty training; (3) having provided direct emergency medical or 
mental health care or mortuary services to the casualties of combat 
operations or hostilities; (4) having engaged in combat with an enemy 
of the United States or against an opposing military force in a theater 
of combat operations or an area at a time during which hostilities 
occurred in that area by remotely controlling an unmanned aerial 
vehicle; or (5) having received readjustment counseling before 
January 2, 2013. We are concerned that this bill would expand the scope 
of RCS and would be inconsistent with the intended design of RCS.
draft bill--to clarify the scope of procedural rights of members of the 
 uniformed services with respect to their employment and reemployment 
rights, to improve the enforcement of such employment and reemployment 
                    rights, and for other purposes.
    The draft legislation on employment rights for the uniformed 
services would amend Chapter 43 of Title 38 to clarify the scope of 
employment and reemployment rights of members of the uniformed services 
and to amend the enforcement of employment and reemployment rights of 
members of uniformed services with respect to a State or private 
employer. VA respectfully defers to the Department of Justice and the 
Department of Labor for views on this draft legislation.
discussion draft--to authorize the american battle monuments commission 
 to acquire, operate, and maintain the lafayette escadrill memorial in 
                      marnes-la-coquette, france.
    The discussion draft would authorize the American Battle Monuments 
Commission to enter into an agreement to acquire, operate, and maintain 
the Lafayette Escadrille Memorial in Marne-la-Coquette, France. Because 
this bill concerns responsibilities under the purview of the American 
Battle Monuments Commission, VA defers to the views of that agency on 
the discussion draft.

    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. We would be pleased to respond 
to questions you or other Members may have.
                                 ______
                                 
      Additional Views of the U.S. Department of Veterans Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson. Well, thank you very much for your 
testimony.
    I will start off with the questions. We will go with a 
round of 5 minutes for questions for each Member.
    Let us go back to the WINGMAN Act and your last statement. 
Would you walk us through how the information may be obtained 
by caseworkers now and how long it generally takes to get that 
information.
    Mr. McLenachen. Mr. Chairman, I do not have information on 
how long it takes. I can tell you that each of our regional 
offices has a Congressional liaison, that their specific job is 
to work with local Congressional caseworkers to provide that 
information as quickly as possible, and we are definitely 
willing to work with the Committee and other Members of 
Congress to speed that process up.
    What happens now is VA receives a release from the 
claimant, generally through the Congressional staff, that 
authorizes us to disclose information to the caseworker; we try 
to do that as quickly and as efficiently as we can, as well as 
to provide other information that the caseworker may need 
regarding what do these records mean.
    I will tell you that although we have concerns about, on 
behalf of veterans, privacy, we are working hard right now to 
do something that may help in this area, and that is exposing 
the e-folder in our Veterans Benefits Management System, or 
VBMS, to veterans and also to third parties that they may 
authorize for us to disclose that information to. So, that is a 
goal that we are actively working on now, where that 
information would be available electronically to veterans and 
the individuals that they authorize to have access.
    Chairman Isakson. Does not every inquiry on a benefit or 
appeal on a disability claim or any other benefit from the VA 
require a privacy release from the veteran?
    Mr. McLenachen. Yes, unless it is the veteran themselves 
asking for it. They have a right to it under the----
    Chairman Isakson. I understand that. But in terms of this 
deals with Congressional staff----
    Mr. McLenachen. Right.
    Chairman Isakson [continuing]. And every one of them, the 
first thing we are instructed to do, or we instruct our staff 
to do, is to get a privacy release before anything else 
happens. That is true nationwide, is it not?
    Mr. McLenachen. That is true with an exception of yourself, 
I believe, on behalf of the Committee asking for information. I 
believe the Committee has that authority to ask us for 
information.
    Chairman Isakson. And you said your objection to this bill 
was what?
    Mr. McLenachen. Well, this bill would essentially authorize 
all Congressional personnel to have access to our systems, 
regardless of the consent or authorization of the claimant. So, 
we think the veteran's privacy right is paramount to everything 
and they should have the ability to determine who they are 
going to--who VA should disclose their records to.
    Chairman Isakson. So, you want to maintain the privacy 
release signed by the veteran. But once you get the privacy 
release, how difficult is it for staff to get the information 
they need to assist the veteran?
    Mr. McLenachen. As long as we have that authorization, it 
should not be difficult.
    Chairman Isakson. Are you aware that Senator Rounds and 
Senator Manchin will be conducting a roundtable, if you will, 
for lack of a better term, here at the Committee during the 
break over the next 2 weeks to talk about this very issue?
    Mr. McLenachen. I am not aware of that.
    Chairman Isakson. A number of offices, and I have received 
as Chairman a number of complaints, if you will, for the lack 
of speed in responding to Congressional inquiries from the VA. 
I think part of the genesis of this particular legislation is 
some of the frustration with the response time it takes for 
many caseworkers to get veterans' information. So, I hope you 
will participate with whomever the Secretary decides to come 
and testify at that particular event.
    Mr. McLenachen. I would be happy to. I would like to say, 
Mr. Chairman, I am not downplaying the delay, and specifically 
in responding to veterans' own requests for Privacy Act 
information, their own records. We are working hard to address 
that particular problem. It does exist and we are working hard 
to address it. Veterans should be able to go online and see 
their own record.
    Chairman Isakson. One other question. You said that you 
were opposed to Senator Cotton's proposal with regard to burial 
of indigent veterans?
    Mr. McLenachen. No. We strongly support it.
    Chairman Isakson. You strongly support it?
    Mr. McLenachen. Yes, sir.
    Chairman Isakson. I am sorry. I misheard that.
    Senator Blumenthal.

                   HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much, Mr. Chairman, and 
thanks for having this hearing on a number of separate bills. 
If I count correctly, we have 18 bills on our agenda and they 
are extremely important to advance the interests of our 
veterans.
    One of them is the Veteran PEER Act, which complements the 
VA's ongoing efforts that I have strongly supported. The 
measure would expand the use of peer support specialists beyond 
traditional mental health sites of care. The VA has indicated 
support for the measure, ``subject to the availability of 
additional funding.'' Dr. McCarthy, can you tell us what the VA 
currently spends on the peer support program.
    Dr. McCarthy. Well, let me start by saying we currently 
have a peer support program in mental health and we have a 
pilot going on for encouraging individuals that are receiving 
mental health care right in primary care. So, we have seven 
sites that are up now, six more that will be starting in July, 
and nine more in January, and potentially four additional, 
where we would have peer support to encourage the veterans in 
the primary care clinics to receive mental health services that 
are embedded.
    As for the current costs, I am not sure I have those 
figures handy at this point for what we are spending right now 
on that particular pilot, but that would bring us to a total of 
26 sites that we currently have ongoing, and the bill is----
    Senator Blumenthal. The bill would bring to 26.
    Dr. McCarthy. No. We already have twenty----
    Senator Blumenthal. OK. Tell me----
    Dr. McCarthy. We have 13----
    Senator Blumenthal. Since we are short on time, let me just 
ask very directly.
    Dr. McCarthy. Sure.
    Senator Blumenthal. How much more spending would it cost to 
implement the Veteran PEER Act?
    Dr. McCarthy. So, the total for 3 years is projected to be 
$2.8 million.
    Senator Blumenthal. Two-point-eight million with an ``M.''
    Dr. McCarthy. Million with an ``M.''
    Senator Blumenthal. OK. Let me ask you, Mr. McLenachen, I 
was proud to introduce the FRAUD Act (Fiduciary Responsibility 
and Accountability for Unpaid Debts) with my colleagues, 
Senators Brown and Moran, to address the misuse--I think it is 
rampant--of VA benefits. That misuse is not by the veterans, it 
is by fiduciaries that are appointed to safeguard the finances 
of our veterans. Those fiduciaries all too often commit fraud. 
The misuse of these benefits is rampant.
    In your testimony, you state that during the calendar year 
2015, the VA reissued more than $2 million in benefits to 
veterans who have experienced the misuse of funds at the hands 
of fiduciaries, and that $2 million covers only the ones you 
know about and who have been processed, so there may be many, 
many more, as I understand it, that $2 million covers only ten 
veterans.
    This legislation is fruitful to ensure that the VA can 
reissue benefits in all cases of fiduciary misuse, which I 
think we need to do more to protect our most vulnerable 
veterans. They can be at the mercy of family, caregivers, all 
kinds of potential abuse.
    Would you please explain the process that is used to 
appoint a fiduciary for a veteran receiving these benefits, and 
how do you evaluate whether a fiduciary is going to be equipped 
in terms of expertise, but also be trustworthy, to administer 
those benefits.
    Mr. McLenachen. I would be happy to. Back in about 2004, 
Congress amended the law to require VA to use a specific 
investigation method when we appoint a fiduciary, with the 
standard being that we have to make a best interest 
determination on behalf of the beneficiary. Actually, the law 
requires us to do a number of things, such as a background 
check, a credit check, check character references, and so the 
statute itself establishes that standard for us.
    In our policy, we have determined that the first thing that 
we will look at for appointing a fiduciary is a family member. 
We are transitioning the program from one where, in the past, 
veterans, a lot of their benefits were used to pay fees to 
professional fiduciaries. We are shifting the program toward 
more family and friend caregiver-type oriented program and we 
have been very successful at that. The program is growing 
extremely fast.
    But our really important role that we play is oversight to 
detect misuse, and although I regret that there is any misuse 
in our program, the fact that we are doing sufficient oversight 
to detect misuse and provide reissuance of benefits according 
to the authority that we have now in one way is a sign that we 
are doing good oversight.
    Yes, I hope that we can do more to diminish that by 
appointing appropriate people to provide these services for 
these veterans and survivors, but it does happen. I 
respectfully disagree with you that it is rampant in our 
program. You are right, we do not know what is happening that 
we have not found, but we make every effort to find the misuse 
that is occurring. We do audits. We do follow-up field 
examinations. We do on-site visits of fiduciaries. This bill, 
in particular, will expand our authority for doing oversight 
because it would allow us to have access to financial records 
that we currently do not have.
    So that, in addition to the provision to reissue benefits, 
would strengthen our oversight. It is very important 
legislation.
    Senator Blumenthal. Thank you. Thank you for your response. 
My time has expired, but I hope to follow up in written 
questions. Thank you.
    Mr. McLenachen. Thank you.
    Chairman Isakson. Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair. Thank you all for 
being here.
    I guess before I get started on questions about two bills, 
I do think that the Department's position on a bill that is 
sponsored by my senior Senator, the Department of Veterans 
Affairs Dental Insurance Reauthorization Act, you support?
    [Witness nodding.]
    Senator Tillis. Good. Thank you, on Senator Burr's behalf.
    I want to go back first to the Veterans Health Care 
Staffing Improvement Act. I think that there is a qualified 
support there. And before I ask you all to go through the areas 
that you have as concerns, there are a few pieces of the bill 
that I feel like we need to work on. One of them relates to--I 
know that the Department is making a decision, or has made a 
policy decision to extend or make some staffing decisions with 
respect to nurse anesthetists, for example.
    One thing that I think we have to be mindful of is that in 
States that have clear scope of practice laws, I hope that the 
Department is looking at instances where you have a bona fide 
shortage of the most qualified people before you would move 
that route, because I think that could create a slippery slope 
to where it is more of a lower-cost alternative rather than a 
most-qualified alternative. So, I recognize there are places in 
the country where you have the deficiencies and you may have to 
do them, but could you give me a reaction to that?
    Dr. McCarthy. Absolutely. As you noted, we have the final 
rule out for comment, and when we reached 10,000 comments, 
well, it was like nothing we had ever received before. We are 
now at 48,000 comments; the comment period extends until July 
28.
    I think the Certified Registered Nurse Anesthetist part of 
it is the one that has brought a lot of controversy. In VA, 
nurse anesthetists work closely with anesthesiologists and our 
model of care is team-based care. Teams define a lot of what we 
do. If you look across our system, we do have access challenges 
in primary care, in mental health, specialty care, and so 
forth, but we have not identified significant shortages of 
anesthesiologists, for instance. So, at this point, the 
proposed rulemaking is all inclusive with the idea that we 
would not necessarily implement all the changes in the 
rulemaking until it is clear what is needed. So, we would have 
flexibility.
    Senator Tillis. Well, thank you, because, again, it just 
speaks to a capability and training that if it is available, we 
want it in the hospital setting to make sure the veterans are 
getting the best possible care. That is taking nothing away 
from the nurse anesthetists. It is just making certain that 
this does not just change a model that is based more on 
business factors than medical outcomes. So, I appreciate that.
    Can you tell me other aspects, areas of concern, that you 
have? I do not think you necessarily had a concern with that 
aspect of it, but other areas where you are having problems 
with the Staffing Improvement Act.
    Dr. McCarthy. There were a couple of concerns. One was the 
desire to have a separate credentialing program. We do have a 
national program we call VetPro, which is actually quite 
functional and allows credentialing to be across our system. 
So, we do not need to really change that.
    We are excited about what we are doing with DOD in helping 
people come into our system now, all the possibilities for how 
we can partner and have folks supported with training options, 
and make the transition into VA easier. It is a win-win for 
those veterans who are being discharged and for us.
    So, the main concern, really, for us is to let the 
rulemaking comments happen. That is the main section that we 
are concerned about.
    Senator Tillis. All right. In my limited time, I want to 
get to the other one, which has to do with the Atomic Veterans 
Health Care Parity Act, and in some ways--there is no way we 
are going to get this done in 48 seconds, but I have been in 
the battles and, obviously, I think I have established good 
relationships within the VA. I am trying to do everything I can 
to support you all in efforts that I think are right minded.
    But, I almost feel like we are at a point where we were 
with the Camp Lejeune toxic substances, where people were 
saying there is not quite enough data for us to give the 
benefit of the doubt to the veteran. I am wondering whether or 
not the full complement of medical research, people that are 
looking at this, share the same position that the VA does right 
now, which is there is no presumption that their exposure--I am 
not a doctor, not a lawyer, but if we put these people on an 
island in T-shirts in close proximity to a mushroom cloud which 
is the aftermath of an atomic bomb, common sense says there may 
have been some exposure there that could have caused a 
condition.
    I am not going to ask you to respond to it because I am out 
of time, but I would like to maybe find a time to meet, as we 
did--and we got to a pretty good place with the Camp Lejeune 
toxic substances--to show me how that data would lead you to 
that position.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis.
    For a clarification for my purposes, with regard to the 
nurse anesthetists, you had a record response in terms of 
public input when you published that.
    Dr. McCarthy. Mm-hmm.
    Chairman Isakson. Now, my understanding is that you have 
determined that you have enough licensed and trained 
anesthesiologists to meet the demands of the Veterans 
Administration, so you are not going to be implementing at the 
present time a nurse anesthetist program to replace any 
anesthesiologists anywhere, is that correct?
    Dr. McCarthy. That is where we are right now, sir. Dr. 
Shulkin has talked about the fact that it took 6 years for us 
to bring it to the final rule at this point and a future Under 
Secretary, he would not want them to have to go through another 
6 years of waiting to bring that particular rule. He feels like 
having the rule published would be useful to us should we need 
to implement it in the future. But, it is really going to be 
facility-specific, what are the needs of that individual 
facility and the veterans that come there in terms of who are 
the right people to be prescribing or treating the veterans 
with anesthesia.
    Chairman Isakson. Given that the rule would allow at a 
future date a Secretary to determine to use some nurse 
anesthetists, what would be the requirement to let this 
Committee know about that before they make that decision? Is 
there anything in the rulemaking that determines that?
    Dr. McCarthy. I do not know that that is in the rulemaking, 
but in the spirit of cooperation, I think it makes a lot of 
sense for people to talk about that together.
    Chairman Isakson. My point is, I think the Committee should 
be made aware in advance of the rule being amended by the 
Secretary, and I wish you would share that with Dr. Shulkin.
    Dr. McCarthy. I will.
    Chairman Isakson. I appreciate that.
    Dr. McCarthy. Thank you.
    Chairman Isakson. Senator Murray.
    Senator Murray. Thank you very much.
    Dr. McCarthy, Vet Centers are one of the most successful 
programs VA runs, with some really high satisfaction scores. I 
strongly believe that this is really an important service that 
would help greatly our Guard and Reserve members when they 
return home from deployments, and as we do so, we want to 
protect the Vet Center system and make sure it can meet the 
demand.
    In Lacey, WA, in my home State, we created a new satellite 
office of our Tacoma Vet Center to meet the needs of the 
veterans in the area. It is already at full capacity and needs 
more staff and expanded hours, which I hope the Department will 
address.
    But, I wanted to ask you, if we expand eligibility for Vet 
Centers to members of the Guard and Reserve, how much 
additional resources will the VA need and will you make that in 
your request for your next budget?
    Dr. McCarthy. OK. Let me just address the specific 
legislation about rehab counseling services. It talks about 
members of the Guard and Reserve who are not otherwise 
eligible, so we are not talking about combat veterans or 
veterans who may have experienced military sexual trauma (MST) 
or been involved with emergency medical care or mortuary 
services. That is the highlight of this particular proposed 
legislation that we are a little bit concerned about.
    We do not want to destroy the special nature or culture of 
the Vet Centers. We do want to expand the role more. We have a 
staff that have been built up around trauma, counseling, and so 
forth, where this expands the roles of the Vet Centers to cover 
more than just trauma counseling, which is our concern. It is 
not that we do not want to do it, but it would be a major 
mission shift for those in the Vet Centers. About 80 percent of 
the staff are themselves people who have been trauma counselors 
for quite a while.
    We feel like the Guard and Reserves, they have eligibility 
for care for MST and for those who have combat services and 
even those who have been discharged dishonorably can come to 
the Vet Centers, as you know. We are really proud of the Vet 
Centers. They do have some capacity to help us with our access 
for mental health and we are really looking to partner with 
them to do more. But we really do not want to change the 
culture and the mission.
    There is a special clientele that go to the Vet Centers, 
often people that do not want to have, for instance, a trail of 
medical records about the care that they are receiving; people 
that might be police, National Guard, active duty, Reservists. 
And there is a culture of combat veterans and veterans with 
MST. So, changing it to allow those that are not part of that 
group in particular is the part of that bill that we have 
concerns about.
    Senator Murray. I also wanted to ask you, as you know, 
veterans living in our rural communities often experience 
barriers to accessing the health care that they need. The 
Veterans Travel Enhancement Act would permanently authorize the 
Veterans Transportation Service (VTS) to improve veterans' 
ability to access care and expand the definition of VA 
facilities to include Vet Centers. The Veterans Transportation 
Service has been very popular in my homestate of Washington and 
I understand it is also very cost effective for the VA. If this 
legislation is enacted, how much will you be able to expand VTS 
services?
    Dr. McCarthy. I want to first of all thank our VSO 
partners, who themselves have quite a transportation network.
    Senator Murray. Yes, they do.
    Dr. McCarthy. I would not want us to not thank them.
    Second, we are really excited about making that permanent. 
For us, the VTS made over 400,000 trips averaging 54 miles. It 
has been really quite significant for us. There has been a 
decrease in cost compared to beneficiary travel of 4 percent. 
That resulted in $1.7 million savings anticipated for fiscal 
year 2017.
    There is some concern about expanding to the Vet Centers. 
There is a pilot program going on that has allowed for 
transportation for rural veterans to Vet Centers and the 
reaction to it has been somewhat negative and not what we 
expected. The concerns are twofold. First of all, from the 
point of view of the veterans, again, when I talked about the 
culture, the people that like the anonymity of coming to the 
Vet Centers, to process claims related to travel requires 
listing diagnosis and treatment and so forth, which is 
something that they do not want to be revealed in particular. 
So, that is one administrative function.
    Then, there is the other side of the coin, the Vet Centers. 
I mean, they are set up for quick access, easy availability. 
They do not have a lot of overhead people that would be 
involved in all the fiduciary responsibilities, so it has been 
a concern for them, as well.
    We are really supportive of the bill, but we do question 
the Vet Centers being included, although we understand the 
needs for help with veterans being transported to the rural Vet 
Centers, in particular.
    Senator Murray. I am out of time. Thank you very much, Mr. 
Chairman.
    Chairman Isakson. Thank you, Senator Murray.
    Senator Heller.

           HON. DEAN HELLER, U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you, and to our 
panelists, also, thank you for being here.
    I just had a couple of questions. I want to thank the 
Chairman for including my legislation, S. 3035 with Senator 
Tester. I certainly do appreciate his support on this. The 
title on the bill is Maximizing Efficiency and Improving Access 
to Providers at the Department of Veterans Affairs Act of 2016. 
It is a long title, Mr. Chairman. It was not my first choice, 
but I will take it.
    I think the bill is somewhat unique. It conducts a pilot 
program using medical scribes at the VA so that doctors can 
spend more time with their veteran patients. I am pleased that 
I have got the support of the VFW, the Disabled American 
Veterans organization, and The American Legion. Unfortunately, 
we do not have the VA on board yet. In fact, I am looking at 
some of the testimony. Doctor, you said the VA does not support 
this bill. Then you go on to say that the VHA is in the process 
of administering a request for proposals that includes the use 
of scribes. So, one, you say you are not for it, but then you 
say within the same paragraph that you have a proposal. Could 
you explain to me what your proposal is for the use of scribes 
and what the VA is envisioning here.
    Dr. McCarthy. First of all, thank you. I think most 
clinicians who work with electronic medical records worry about 
the time taken away from patients in documenting and how much 
typing goes on versus scribes and so forth. So, we understand 
what is behind this.
    Right now, VA has an enterprise-wide contract so that all 
front-end providers can use what is called a speech recognition 
contract, where it is Nuance Dragon Medical 360 Network 
Edition Version 2.3.
    Senator Heller. Another long title.
    Dr. McCarthy. I know. I am sorry about the long name, too--
--
    Senator Heller. That is OK.
    Dr. McCarthy. But, you know, I used this a long time ago, 
which was probably version negative one or something, and when 
you do the Dragon dictate, you actually have to teach the 
device that is recording your voice and translating it into 
what is typed. You have to train it to your own personal voice 
or accent or whatever. But, this is available nationwide 
currently.
    Our Request for Proposal (RFP), which is what you asked 
about, includes for scribes, transcription, and a health 
advocate at the same time that might be able to help us with 
some of the public health screening kind of measures that we do 
at the same time. It is a kind of tweak on what this bill 
proposes, so that is why.
    We have a couple of pilots going on right now, but we also 
have that national contract and we are encouraging the use, as 
well.
    Senator Heller. Doctor, I spent some time in Las Vegas and 
Reno this March and hosted two military and veterans 
roundtables. I heard from these veterans both in Northern 
Nevada and Southern Nevada, and probably one of the biggest 
complaints I got was they are concerned with how little time 
they actually got to spend with their doctor. So, obviously 
what you are trying to propose and what we are trying to 
propose, hopefully, we can somewhat come together on this and 
understand that these patients, these veterans, need more eye-
to-eye time with their doctors.
    I guess the question I have right now is, do you have any 
statistics that show how much time a doctor does spend with 
their patients at a VA facility?
    Dr. McCarthy. We have statistics about expectations and we 
include a typical primary care visit would be 30 minutes. I 
sympathize with what the veterans are saying. Do not treat the 
computer, treat me.
    Senator Heller. Yes.
    Dr. McCarthy. I fully understand that. We have worked to 
get our rooms set up so that you do not have to turn your back 
on the patient to enter things into the computer.
    A lot of our screening happens in the initial primary care 
visit, but in that 20- to 30-minute visit, there is a lot that 
goes on. I can get you statistics about average amount of time 
spent if that would be helpful to you.
    Senator Heller. Well, let me ask you this question. When 
you measure patient satisfaction, do you consider the time with 
the doctor as part of that satisfaction?
    Dr. McCarthy. There are measures that ask things like: did 
you feel like your need got met? Did you feel like the doctor 
understood what you were saying as what you brought to the 
appointment and so forth----
    Senator Heller. It is open-ended, also----
    Dr. McCarthy. Yes.
    Senator Heller [continuing]. For any comments that they may 
have?
    Dr. McCarthy. Yes, sir.
    Senator Heller. Do you have any statistics also that show 
how much time these doctors spend with these electronic health 
records?
    Dr. McCarthy. I do not, but I can look for them. I would be 
happy to take that for the record.
 Response to Request Arising During the Hearing by Hon. Dean Heller to 
                the U.S. Department of Veterans Affairs
    Response. VA does not currently collect this type of data as it is 
not easy to obtain. Simply asking physicians often leads to inaccurate 
estimates and there is no easy way to track this electronically. The 
research on this has general involved direct observation, ``time-
motion'' studies which are expensive to conduct.

    Senator Heller. OK. My time has run out.
    Dr. McCarthy. OK.
    Senator Heller. Chairman, thank you very much.
    Chairman Isakson. Senator Cassidy.

         HON. BILL CASSIDY, U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. Thank you, Mr. Chair.
    Dr. McCarthy, I am interested in the WINGMAN Act, which I 
gather you all oppose, but when I read the nature of your 
opposition, I am not quite sure why you oppose. For those who--
in short, when my folks are working to try and facilitate 
something with the VA, they sometimes wait weeks and months to 
get the record from the VA. My chief, the person who is my guru 
on how to make work all things, she just kind of says, ``Bill, 
sometimes we cannot get anything from the VA and there is 
nothing I can do except drive down there.''
    Now, here, I look at your testimony as to why you oppose 
allowing our staff read-only access to the records contingent 
upon the veteran signing a release that that may occur, which 
is referenced in the bill; I think you raised privacy concerns. 
Let me be explicit. What we reference, which is 552(a)(B) of 
Title V, explicitly says there has to be an informed consent by 
the patient to allow this access. So, I guess that is one 
thing. The privacy concern does not seem to work with me.
    Second, we would expect that they would have the same 
training in use of these records as the VA folks. I understand 
that there is an online course that VA employees take to kind 
of do this sort of review, which is what we presume would be 
for the Congressional staff. Is there something besides this 
online course which makes someone working for the VA specially 
qualified, and if so, why could not the Congressional staff 
have access to the same training?
    Dr. McCarthy. I am going to pass that to my partner in VBA 
to answer that question.
    Mr. McLenachen. Yes, Senator. I will take the question. 
Thank you.
    Actually, Senator, our reading of the bill is apparently 
not the same as yours. We read the bill to mean that 
Congressional staff would actually have unprecedented access--
--
    Senator Cassidy. Now, you define unprecedented, which is 
somewhat pejorative, so what do you base upon--it is 
unprecedented, right, in the sense that before, we have had to 
wait for somebody to send it to us----
    Mr. McLenachen. Sure.
    Senator Cassidy [continuing]. But it is----
    Mr. McLenachen. Let me explain. They would have access 
greater than the VA employees. VA employees currently have 
access to records only if they have a need in working a 
particular veteran's claim. The bill would allow----
    Senator Cassidy. That would be the case--let me interrupt, 
please--because the person would only have access if the 
veteran himself or herself signed a release. So, they would 
only have access for people in their district who had 
explicitly said, ``I need help with my benefits and I am not 
getting it,'' sort of thing.
    Mr. McLenachen. Actually, our reading of the bill indicates 
that the access would be regardless of the individual's 
consent.
    Senator Cassidy. No, that is wrong, and that is where I 
refer to--I can give it to you if you wish--552(a)(B) of Title 
V, and I will read from here, ``except pursuant to a written 
request or with a prior written consent of the individual to 
whom the record pertains,'' et cetera. So, I think I win on 
that one----
    Mr. McLenachen. Well----
    Senator Cassidy [continuing]. But go ahead.
    Mr. McLenachen. I will certainly go back and take a look at 
it, but our position is authorization from the veteran has to 
be there. If the legislation provides for that, then yes, there 
may be some change to our views on the bill.
    That is not the only issue in the bill. The bill creates 
some confusion about VA's accreditation program. VA accredits 
representatives for the purpose of providing representation on 
claims, not for purpose of access to our systems.
    As I said before, and I apologize, it may have been before 
you came in, but we feel the solution to this problem--and I do 
not disagree with you that we are too slow in providing 
veterans' records even to veterans themselves. So, to address 
that, we are going to make veterans' records available to them 
through e-Benefits, as well as to other individuals that the 
veteran authorizes to have access. I think that is the solution 
to this problem.
    Senator Cassidy. I guess I am not following. If the veteran 
authorizes Johnny Isakson's staff person who is working on 
their veteran's benefit claim to have access to the record and 
it is--you can trust me, I am right on this one, because we 
explicitly said it had to be approved--I am not sure that is 
different from what you just said. Oh, we are going to release 
the records to whomever the veteran tells us to release the 
records to. Did I miss something there? It seems substantially 
the same.
    Mr. McLenachen. The bill concerns electronic access, and we 
currently do not provide----
    Senator Cassidy. Oh. So, now we have to go back to waiting 
for you all to generate it. That is incredibly frustrating, let 
me tell you that.
    Now, you are drawing a distinction between our aides 
accessing this record to look up, OK, they say you have a 
hepatitis claim and you say you were exposed and they say not, 
and you are saying that that is somehow with claims. I do not 
quite follow why allowing someone to do a PDF search for the 
word ``hepatitis''--I am not following the distinction you are 
making, which is not to say there is not a distinction. I just 
do not follow it.
    Mr. McLenachen. I think you will hear some concerns from 
the next panel, as well. You know, simply providing access to a 
record does not really interpret what that record means. I 
would hope that some engagement between our Congressional 
liaison and your staffs is helpful, as well as engagement with 
representatives such as the VSO representatives for a 
particular claimant. We would be very happy to work with the 
Committee and any other member of Congress to figure out how we 
can get that information to you more quickly.
    Senator Cassidy. I know I am out of time, so I will just 
finish by saying this, I have not yet heard an objection that 
actually sounds like it is firm. We have the privacy addressed. 
That is clearly addressed in this section. I will submit this 
for the record, Mr. Chairman.
    [The information from Senator Cassidy follows:]

               5 U.S.C.--United States Code, 2010 Edition

             Title 5. Government Organization and Employees

                     Part I. The Agencies Generally

                  Chapter 5. Administrative Procedure

                Subchapter II. Administrative Procedure

SEC. 552A. RECORDS MAINTAINED ON INDIVIDUALS

    (b) Conditions of Disclosure.--No agency shall disclose any record 
which is contained in a system of records by any means of communication 
to any person, or to another agency, except pursuant to a written 
request by, or with the prior written consent of, the individual to 
whom the record pertains, unless disclosure of the record would be--
          (1) to those officers and employees of the agency which 
        maintains the record who have a need for the record in the 
        performance of their duties;
          (2) required under section 552 of this title;
          (3) for a routine use as defined in subsection (a)(7) of this 
        section and described under subsection (e)(4)(D) of this 
        section;
          (4) to the Bureau of the Census for purposes of planning or 
        carrying out a census or survey or related activity pursuant to 
        the provisions of title 13;
          (5) to a recipient who has provided the agency with advance 
        adequate written assurance that the record will be used solely 
        as a statistical research or reporting record, and the record 
        is to be transferred in a form that is not individually 
        identifiable;
          (6) to the National Archives and Records Administration as a 
        record which has sufficient historical or other value to 
        warrant its continued preservation by the United States 
        Government, or for evaluation by the Archivist of the United 
        States or the designee of the Archivist to determine whether 
        the record has such value;
          (7) to another agency or to an instrumentality of any 
        governmental jurisdiction within or under the control of the 
        United States for a civil or criminal law enforcement activity 
        if the activity is authorized by law, and if the head of the 
        agency or instrumentality has made a written request to the 
        agency which maintains the record specifying the particular 
        portion desired and the law enforcement activity for which the 
        record is sought;
          (8) to a person pursuant to a showing of compelling 
        circumstances affecting the health or safety of an individual 
        if upon such disclosure notification is transmitted to the last 
        known address of such individual;
          (9) to either House of Congress, or, to the extent of matter 
        within its jurisdiction, any committee or subcommittee thereof, 
        any joint committee of Congress or subcommittee of any such 
        joint committee;
          (10) to the Comptroller General, or any of his authorized 
        representatives, in the course of the performance of the duties 
        of the Government Accountability Office;
          (11) pursuant to the order of a court of competent 
        jurisdiction; or
          (12) to a consumer reporting agency in accordance with 
        section 3711(e) of title 31.

    Senator Cassidy. The other just seems to be kind of a 
nebulous sort of, well, we do not want them in our record, even 
though it is read-only, ``because.'' I do not know if you can--
and I am out of time--respond maybe for the record as to why it 
is more than ``because.''
    Mr. McLenachen. I would be happy to.

    [See the Chairman's remarks below addressing this issue.]

    Senator Cassidy. That is all I get right now. I yield back.
    Chairman Isakson. Let me acknowledge how important your 
comments are. Before you arrived here, I raised exactly the 
same issues with the VA and reminded them that we are going to 
have a scheduled roundtable here with representatives from each 
Member's office back home and the VA to talk about the 
intercommunication between the VA and us in terms of case work 
matters with the Veterans Administration.
    And I, like you, am a WINGMAN supporter. I would like to 
see us work through the difficulties that the agency has to 
make sure we improve access to information so we can improve 
the speed with which we get back to our veterans who have 
claims. So, your time was well spent and I thank you for your 
input.
    Senator Sullivan.

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and I appreciate 
the witnesses coming today.
    I wanted to talk a little bit about a draft bill that I 
have been working on with the VA. It actually stemmed from a 
visit that Under Secretary Shulkin and I had in Alaska where we 
were out in several different communities. One of the big take-
aways I believe he had from that trip was some of the big 
challenges that, not just Alaska, but rural States who have big 
veteran populations who do not have enough providers to 
actually help with regard to a lot of the challenges that the 
VA has.
    As you all probably know, there was a recent Association of 
American Medical Colleges survey that said close to 45 percent 
of doctors who do their residencies at certain medical schools 
end up staying there. Well, if you have a State like mine where 
you do not have a medical school, you kind of start with a 
challenge.
    So, we have been working closely with the VA for months 
now--it was actually really in many ways Dr. Shulkin's idea 
last year--to have a pilot program for the VA to work with 
tribal organizations, particularly in States with heavy veteran 
populations but are very rural States. So, not just Alaska, but 
Montana, Wyoming, other places like that.
    I know that--I guess that we were just outside of the 
timeframe to get your guys' official view on that. You said you 
needed 3 weeks. I think we got it to you 2 weeks and 3 days 
ago. So, if we did not make it under the deadline, I get that, 
though it would be nice to be able to get the response. I am 
almost certain that the VA is supportive, since in many ways it 
was Dr. Shulkin's idea, which we have been working with you and 
some of the other organizations interested in this for months 
now.
    So, Dr. McCarthy, would you mind just giving a view on 
that, whether it is official or not. I think we are very close 
and I would like to get your view. Then we are going to work 
hard to get others from other States, other Members on this 
Committee to be cosponsors of that, but we want to make sure 
the VA was good to go with it first.
    Dr. McCarthy. We would really like to get to yes. There are 
a few items that we want to work with you about. I totally 
agree with you about the training and where people stay. You 
are exactly right, and I do think that this would be really 
important.
    We are also, as part of the Choice Act, trying to expand 
residency programs significantly----
    Senator Sullivan. Yes. Right.
    Dr. McCarthy [continuing]. So, this is a good fit for us. 
There are some other regulations that we have to get through. I 
do not want to speak for all of them----
    Senator Sullivan. OK.
    Dr. McCarthy [continuing]. But I would be happy to talk to 
you more about it.
    Senator Sullivan. OK. Well, let us remember, though, we are 
also looking at statute, so obviously a law would trump a 
regulation.
    Dr. McCarthy. Yes.
    Senator Sullivan. I do not think, ``we do not want to 
violate any regulations,'' but we also want to make sure that 
we understand the hierarchy here. This is a pretty important 
issue and I know even Secretary McDonald has met with different 
Alaska groups----
    Dr. McCarthy. Right.
    Senator Sullivan [continuing]. And has been supportive of 
it. So, already, I know that we have top cover----
    Dr. McCarthy. Right.
    Senator Sullivan [continuing]. Support from Under Secretary 
Shulkin, Secretary McDonald. For me, it is just really 
important to move this, and if we can get your commitment to 
move this, I think the Chairman is aware of what we are trying 
to do on this.
    Let me ask--and you touched on it--let me ask a related 
question. There were 1,500 new graduate medical education spots 
given to the VA through the Choice Act, and I think only 372 of 
those spots have been filled to date. So, what is the issue 
there? Why have so few--relative to the number that Congress 
authorized--been filled; and is there anything we should be 
doing on that? Or, what should you be doing to make sure you 
take full advantage of the Choice Act provisions which you 
referenced and that, again, I think, dovetail nicely with the 
bill that we are working on with you guys?
    Dr. McCarthy. The Choice Act gives us a 5-year limitation 
and we really believe that building the relationships and 
building residency programs is going to take more than 5 years. 
So, there is a significant amount of lead time.
    I was involved in building residency programs in the site 
where I used to be a chief of staff and it is not something 
that is done overnight. I am a psychiatrist by training. I was 
working to partner on psychiatry residency programs. You have 
to set up, you know, relationships with child psychiatry 
programs and so forth, because we do not have that in VA. You 
have to get people that are willing to partner with you and so 
forth. So, it is not something that can happen overnight; those 
programs have to build their capacity and so forth. So, it 
takes a while to build.
    I do think that expanding the Choice recommendations to 10 
years would help us a lot, but that said, there are a lot of 
efforts underway right now to try to partner as much as we can.
    I, personally, have a heart for doing that, especially in 
the rural areas, particularly for what you said about when 
people train in an area, they stay. There are a number of, for 
instance, osteopathic medical schools that have set up 
residency programs in rural areas and that is exactly what is 
happening. More of them are staying in the area, which is, you 
know, not something that happened overnight; it does take a lot 
of time.
    So, when you set up one residency program, you know, family 
practice or mental health or whatever, there are other parts of 
the residency that you need to get going at the same time. So, 
it takes building relationships with community partners, which 
is very important work to do. There is a lot of good will out 
there. Some of the community partners are not of the--
interested necessarily in building their own residency program, 
so there is convincing going on back and forth, and that is 
where we are right now.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    Senator Tester.

           HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you.
    I would like to follow on. In the bill that we are trying 
to get through the Senate right now, I think there is a 
component to extend it to 10 years from 5, and I also think 
there is a component in it, if my memory serves me correctly, 
there are CMS caps right now and it will take those caps off, 
which will also help in a big, big way. So, once we get that 
done, then we are really going to get you if they are not 
filled up.
    Look, we appreciate the testimony. Sorry I was late, but I 
had two other committee meetings, Senator Tillis, just to let 
you know.
    In September 2014, I wrote a letter to Secretary McDonald. 
It was brought to my attention that the Montana Board of 
Psychologists had reprimanded a VA psychologist for practicing 
outside the scope of his qualifications when performing a 
compensation and pension exam for a Montana veteran with 
traumatic brain injury (TBI). I was and I still remain 
concerned about the implications of these exams not being 
carried out properly. What ultimately led to the VA conducting 
a national review of medical exams of veterans who have filed 
disability claims related to TBI?
    Mr. McLenachen. Senator, I will take that question. A while 
back, our facility in Minneapolis, on their own initiative, 
took a look to see if they were following VA policy about the 
specialists that are required to do the initial TBI exam. There 
are four specialists that VA requires to do those initial TBI 
exams, not the follow-on exams. What they learned was that, in 
fact, there were about 300 veterans who did not receive that 
type of exam.
    Senator Tester. OK.
    Mr. McLenachen. Based on that information, the Deputy 
Secretary asked us to do a nationwide review.
    Senator Tester. Mm-hmm.
    Mr. McLenachen. We did that. We recently discovered as a 
result of that review that there are about 24,000 veterans that 
did not receive an initial TBI exam by one of those 
specialists. About 70 percent of those veterans--actually, 
about 17,000 of those veterans--are already service-connected 
for TBI.
    Senator Tester. OK.
    Mr. McLenachen. Nonetheless, looking back at the policy 
that we had issued over the years, starting in about 2007, we 
concluded that the guidance was sufficiently unclear and 
perhaps confusing, that to be fair to all veterans, we needed 
to go back and offer them all an opportunity for a new exam.
    Senator Tester. So, would it be fair to say that the VA 
protocol was inadequate?
    Mr. McLenachen. It would be fair to say that if it created 
confusion, yes----
    Senator Tester. OK.
    Mr. McLenachen [continuing]. It would be fair to say that.
    Senator Tester. So, what are we doing? I mean, what, moving 
forward?
    Mr. McLenachen. Well, that guidance has been clarified. VHA 
has gone out and checked with each of its facilities that do 
these type of exams and confirmed that that guidance is being 
followed.
    Senator Tester. OK.
    Mr. McLenachen. One noteworthy point is that the 
overwhelming majority of these exams were done by a VBA 
contractor----
    Senator Tester. Yeah.
    Mr. McLenachen [continuing]. And the contract was amended 
in 2014 to specifically require that these type of exams be 
done.
    Senator Tester. OK.
    Mr. McLenachen. So----
    Senator Tester. So, let me ask you this, because there is a 
bill called S. 244 that we are taking up today that an 
independent assessment of these protocols would be done by a 
medical expert. Do you think this would be helpful?
    Mr. McLenachen. Senator, I think it is our view that it is 
unnecessary, given what I just explained about the specialists 
that are required to do these exams. In addition, and it is my 
understanding--I am not a physician--but the bill would 
require, or ask the Institute of Medicine to focus on cognitive 
issues, where we use a more holistic approach----
    Senator Tester. Yeah----
    Mr. McLenachen [continuing]. That is broader than that.
    Senator Tester. Even though it is my bill, I actually kind 
of like that. The question is, what do I do next time it 
happens----
    Mr. McLenachen. Well----
    Senator Tester [continuing]. When the exam is done 
improperly?
    Mr. McLenachen. I think----
    Senator Tester. Then----
    Mr. McLenachen. Our commitment to you should be that this--
we have solved this problem and it should not happen again.
    Senator Tester. And if it happens again, does somebody's 
head roll?
    Mr. McLenachen. Well, if somebody was not following the 
policy that we have in place, there should be accountability.
    Senator Tester. OK. All right. OK.
    Well, I have got time for one more question. The Veterans 
Transportation Service program has been successful in 
connecting veterans to care. I think it is efficient from a 
taxpayer standpoint and I think it is good for a veteran. The 
VA has previously said that reauthorizing this program would 
save taxpayer dollars, maybe as much as $200 million over 5 
years--that is a fair amount of money in my book--because it is 
cheaper to hire drivers than to contract with an ambulance 
service. Would you agree with that?
    Dr. McCarthy. Yes, sir. We are very excited about the 
opportunity to extend this bill, but I am not sure the 
estimates that I have been given are of the level that you have 
talked about.
    Senator Tester. You do not think it saves that much?
    Dr. McCarthy. The most recent number I have been given is 
$1.7 million in fiscal year 2017.
    Senator Tester. OK. So, let me ask you this. Would it help 
with the veterans that might be missing exams now that would 
not miss them if you had this service?
    Dr. McCarthy. My understanding is this is more about care.
    Senator Tester. Is it not about--OK, yes, transportation to 
care, right?
    Dr. McCarthy. Yes. Yes, sir.
    Senator Tester. I guess the point was not made very well by 
me. If a veteran has transportation, it would seem to me that 
they are much more likely to meet an appointment for care----
    Dr. McCarthy. Right.
    Senator Tester [continuing]. Than if they did not.
    Dr. McCarthy. Right.
    Senator Tester. So, would this help reduce that number?
    Dr. McCarthy. One would expect that to be the case. When I 
heard exam, I was thinking VBA. I am sorry----
    Senator Tester. Yes, that is right. So, can you tell me 
what percentage of--I am sure it varies by region--what 
percentage of appointments are not met by the veteran?
    Dr. McCarthy. That does vary. I would not want to make a 
number. I would be happy to get back with you----
    Senator Tester. It would be really good to know from my 
perspective, and it is my bill, that if, in fact, the 
percentage is higher than it ought to be and if they are being 
missed because of transportation reasons.
 Response to Request Arising During the Hearing by Hon. John Tester to 
                the U.S. Department of Veterans Affairs


               Veteran Missed Appointments by Fiscal Year
------------------------------------------------------------------------
                                                    # Appts
                FY                    Total #       Veteran    % Veteran
                                   Appointments*     Missed      Missed
------------------------------------------------------------------------
2013.............................   60,632,327    6,582,090      10.86%
2014.............................   63,461,668    7,293,636      11.49%
2015.............................   66,495,855    7,560,539      11.37%
2016*............................   51,875,904    5,823,699      11.23%
------------------------------------------------------------------------
 * Total Appointments = Checked Out + No Show Combined
** 2016 is FYTD through 07/07/2016

    Note: ``Checked out'' appointments means that the scheduled 
appointment occurred as planned and that the required check-out 
elements of provider, procedure, and diagnosis were all entered into 
the record. This makes the appointment complete with a status of 
checked out.

    Dr. McCarthy. I am familiar more with by specialty----
    Senator Tester. I am sorry. I took way too much time now. 
Sorry, Mr. Chairman.
    Chairman Isakson. No apology necessary, Senator Tester. 
Thank you for coming.
    For the edification of the Members that are present as well 
as the audience, we have one other Senator who had asked to be 
recognized, Senator Merkley, who was supposed to be on the way, 
but he is not here yet----
    Senator Tester. He is right there.
    Chairman Isakson. Oh, I am sorry. Well, the Chairman's 
eyesight is getting bad, Senator Merkley.
    We will let the first panel be excused. Thank you for your 
time.
    I am going to give Senator Merkley up to 5 minutes to make 
his presentation, then we will go immediately to the second 
panel. There is a classified briefing at 4 p.m. for members of 
the Senate, so if you have only me left in the room, that would 
be the reason why.
    Senator Merkley, you are recognized for up to 5 minutes. As 
is the tradition of the Committee, there will be no exchange of 
questions at this time. We welcome hearing about your 
legislation.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Mr. Chairman. It is 
an honor to be able to introduce S. 2279, the Veterans Health 
Care Staffing Improvement Act. I want to thank my colleague, 
Senator Rounds, for co-leading this bill and to thank the 
Members of this Committee who are sponsoring it, including 
Senator Rounds, Senator Tillis, Senator Murray, Senator Brown, 
Senator Tester, as well as cosponsors who do not sit on this 
Committee.
    Our servicemen and women are the very best demonstration of 
our Nation's greatness, folks who have stepped up, taken the 
oath, and put on the uniform so the rest of us can live in a 
country that is safer and more secure. While we often offer 
warm words of thanks, we should be looking for ways to do more, 
and that is what our bill aims to do.
    Every day, hundreds of thousands of dedicated public 
servants at the VA help us honor that commitment. In VA 
hospitals across the country, many doctors and nurses work hard 
to deliver world class care. But we all recognize that we have 
more to do, we have further to go to improve VA hospitals, to 
reduce long wait times, to ensure that all of our veterans, 
every single one, gets the care they need, the care they 
deserve. And this bill, the Veterans Health Care Staffing 
Improvement Act, will help us meet that goal.
    This legislation makes common sense changes in staffing 
policies to improve veterans' care and working conditions at VA 
health care facilities. It would increase the ability of the VA 
to recruit veterans who served as health care providers while 
they are in the military. We call this the Docs-to-Doctors 
program. It makes common sense. We hear again and again from 
returning veterans that they want to have a new mission. They 
want to be able to continue helping their fellow Americans and 
their fellow soldiers. What better way than allowing veterans 
with a medical background to continue serving in the VA system, 
to streamline the red tape so these doctors and other health 
care providers can transition seamlessly into the VA system. 
That is a win-win.
    This legislation also creates uniform credentialing rules 
for medical professionals so VA doctors and other licensed 
health care providers do not have to wait weeks or months to 
recredential if they want to move hospitals or split their time 
and work at multiple VA facilities.
    It provides full practice authority to Advance Practice 
Registered Nurses (APRNs), nurses with post-graduate education, 
and physician assistants in the VA health system. This will 
help to make more primary care providers available, and 
certainly this is important in rural areas.
    That is why this bill is needed now more than ever, to 
ensure our veterans can get the care they need and staff can 
practice to the full extent of their education and training. 
Writing these measures into law will make the VA more 
effective, more efficient. It will make it easier for the VA to 
achieve the staffing levels they need and to ensure the VA can 
better carry out its mission and to put veterans first.
    Caring for our veterans is an area where Democrats and 
Republicans have worked together and should always be working 
together, and this bill represents that.
    This bill is endorsed by many veterans organizations and 37 
different nursing groups. The veterans groups include the 
Veterans of Foreign Wars, the Vietnam Veterans of America, the 
Iraq and Afghanistan Veterans of America, the National Guard 
Association, the Reserve Officers Association, The American 
Legion Department of Oregon.
    I am delighted to be able to come and testify on behalf of 
this bill. We have a huge problem affecting our entire health 
care system, which is so many of our practitioners are Baby 
Boomers and they are retiring. And so many of us are Baby 
Boomers and need more medical care. And, therefore, we have an 
increase in demand and a decrease in supply, and we see that 
affecting our VA system as it competes with the rest of the 
health care system.
    So, we have all of these soldiers coming home with 
experience, with the desire to have a significant mission, with 
the skills to be able to help in our VA health care system. Let 
us streamline that path, and that is what this bill does, and I 
would appreciate the support of the entire committee.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Merkley. We appreciate 
your interest and your testimony.
                                ------                                

Response to Posthearing Questions Submitted by Hon. Mazie K. Hirono to 
  David McLenachen, Deputy Under Secretary for Disability Assistance, 
 Veterans' Benefits Administration, U.S. Department of Veterans Affairs
    Question 1.  Mr. McLenachen, in your written testimony, you express 
concerns about the WINGMAN Act, which would provide congressional 
staffers ``with greater access to VA records than is provided to VA 
employees or contractors'' (p. 28). Can you elaborate on how expanded 
access to these records for congressional staffers, as outlined under 
the WINGMAN Act, would provide them with greater access than is 
currently provided to VA employees and contractors?
    Response. As stated in the Department of Veterans Affairs' (VA) 
written testimony, this bill would provide Congressional employees with 
unprecedented access to the records of Veterans and other VA claimants, 
raising significant privacy concerns. The bill also improperly 
conflates the concept of access to claims records with the distinct 
mission and function of VA's Accreditation Program in ensuring that 
Veterans have access to competent and qualified claims representation.
    Regarding the nature of the access provided, the bill would allow 
Congressional staff, who assist constituents of a Member of Congress, 
with greater access to VA records than is provided to a VA employee or 
contractor. Under the Privacy Act, Federal employees generally may 
access private records only when necessary to perform their duties. 
This bill would impose no similar restriction on access by 
Congressional staff. From a privacy and information security 
standpoint, granting Congressional staff unrestricted access to the 
medical records of Veterans and other VA claimants is not in the best 
interest of Veterans and their families. VA patients and claimants 
entrust VA with their personal, medical, and other information, and 
they do not generally expect that such information could be viewed by 
Congress without their explicit consent. To the extent that 
Congressional staffers require access to an electronic claims record 
for which the Member of Congress possesses an appropriate release from 
the individual, access may be provided in the form of a disc or under 
supervision at a VA facility because those types of access are within 
the current capabilities of VA systems.

    Question 2.  Mr. McLenachen, we know that nearly one in three 
veterans live in rural areas, and that rural veterans have been 
underserved due to a lack of access to health care, which can be caused 
by greater travel barriers and other factors. The permanent 
reauthorization of the Veterans Transportation Service (VTS) program, 
through the Rural Veterans Travel Enhancement Act of 2015, would 
address this issue, and would provide veterans with reliable 
transportation to health care. Can you elaborate on why it's so 
important to permanently reauthorize this program?
    Response. The Veterans Transportation Service (VTS) has 
historically been a voluntary participation program for VA medical 
centers. The VTS Program is currently operating at 99 VA medical 
centers across the Nation. Currently, 53 VA medical centers do not 
participate in the VTS program. Participation has been less than 100 
percent largely due to uncertainty regarding future authorization for 
the program. Each year since its enactment in 2013, Congress has 
extended the expiration date for the program for an additional year, 
but the legal authority for the program is currently set to expire on 
December 31, 2016. Granting permanent authority for VTS to operate 
provides reassurance of continued program support, which cannot 
otherwise be assured. VTS can transport any Veteran; however, disabled, 
aged, frail, and critically ill Veterans face the largest 
transportation challenges in accessing care. VTS specializes in 
transporting Veterans with these challenges.

    Question 3.  Mr. McLenachen, in your written testimony, you mention 
that VA would support the reauthorization of the VTS program assuming 
that resources are provided to continue its operations. What kinds of 
resources are you referring to? Would this be an appropriation? If so, 
then how much are we talking about?
    Response. As with VA Medical Care in general, resources would need 
to be provided in the annual appropriation. VA would then allocate 
funds to cover the following costs of the VTS program, as follows:

    <bullet> Salaries for Mobility Managers, Transportation 
Coordinators (schedulers/dispatchers) and Drivers;
    <bullet> Funds for purchase of Americans with Disabilities Act 
compliant wheelchair vehicles, stretcher vans (ambulettes), and 
ambulances;
    <bullet> Fuel and maintenance;
    <bullet> Expansion of current Vet Ride System, which provides 
transport scheduling; metrics reporting; vehicle on-board mobile data 
computer with Veteran Health Identification Card swipe for safe patient 
tracking and monitoring; Veteran web-based trip request portal; a 
Third-Party Vendor portal for assigning, as appropriate, Beneficiary 
Travel Special Mode Transports to contractors when VTS cannot perform 
the transport; and a Special Mode Tracker feature for tracking all 
Special Mode Transports from the medical authorization through the 
claims reconciliation and payment process.

    The VTS Program has demonstrated significant cost avoidance in 
Beneficiary Travel Special Mode Transport contract provider costs and a 
significant reduction in Beneficiary Travel mileage reimbursement 
payments. Table 1 below indicates the costs required to implement and 
operate the VTS program at all 152 VA medical centers through fiscal 
year 2026. VA proposed an extension of the VTS Program in its FY 2017 
Budget (see Volume I, page Leg Sum-11, FY 2017 Budget Submission of the 
Department of Veterans Affairs).

  Table 1: Resources Required for VTS for all 152 VA medical centers 
                  reflecting Special Mode cost offset

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Isakson. Now it is time to recognize the second 
panel, if you will come forward and sit according to the 
nameplates as they are placed. [Pause.]
    Our second panel includes Roscoe Butler, Deputy Director of 
Health Care, National Veterans Affairs and Rehabilitation 
Division of The American Legion; Carlos Fuentes, Deputy 
Director, National Legislative Service, Veterans of Foreign 
Wars; Rick Weidman, Executive Director for Policy and 
Government Affairs, Vietnam Veterans of America; and Kevin 
Ziober, member of the Reserve Component.
    We welcome all of you and look forward to your testimony. 
You have got 5 minutes. We will start with Roscoe Butler.
    Senator Tillis. Mr. Chairman, if I just may--I am sorry to 
interrupt, but you all are one of the main reasons why I like 
coming to these meetings. I appreciate the VA, yet I do have to 
go off to this other meeting. So, with respect to bills that I 
am working on, I would appreciate your offices contacting mine 
so that we can work together.
    Thank you, Mr. Chair. Sorry for the interruption.
    Chairman Isakson. Well, thank you, Senator Tillis.
    I would advise everybody, we do have a secure briefing 
which begins in 4 minutes.
    Roscoe Butler, welcome.

  STATEMENT OF ROSCOE BUTLER, DEPUTY DIRECTOR OF HEALTH CARE, 
  NATIONAL VETERANS AFFAIRS AND REHABILITATION DIVISION, THE 
                        AMERICAN LEGION

    Mr. Butler. Thank you. On March 4, 1865, during President 
Lincoln's second Inaugural Address, the President addressed our 
Nation's veterans and called upon the Nation to care for him 
who shall have borne the battle, and for his widow and his 
orphan, which affirmed the government's obligation to care for 
those injured during the war and to provide for the family of 
those who perished on the battlefield. This became the 
Department of Veterans Affairs trademark motto. Across the 
Nation, from Maine to Washington State, veterans, their 
families, and Veterans Service Organizations have called out 
again for affirming the government's obligation to care for our 
Nation's heroes and their families.
    Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of the Committee, on behalf of the 
National Commander, Dale Barnett, and The American Legion, the 
country's largest patriotic wartime service organization for 
veterans, comprising over two million members and serving every 
man and woman who has worn the uniform for this country, we 
thank you for the opportunity to testify regarding The American 
Legion's positions on the pending draft bills.
    There are several bills on the agenda today and you have 
our full written remarks for the record. Therefore, I will 
focus only on a couple of key bills.
    Operation Iraqi Freedom, Enduring Freedom, and New Dawn 
veterans are returning home in alarming numbers with Traumatic 
Brain Injuries. TBI has become one of the signature injuries of 
the current war on terror. Recently, VA acknowledged that it 
may have under-evaluated nearly 25,000 veterans suffering from 
TBI. In a June 2016 press release, VA stated veterans whose 
initial examination for TBI was not conducted by one of four 
designated medical specialists and provides them with the 
opportunity to have their claims reprocessed. TBI is an 
inherently complex medical condition and requires the opinions 
of specialized medical professionals to determine the level of 
severity and disability.
    S. 244 would require an independent comprehensive review of 
the process by which VA assesses cognitive impairments that 
result from TBI for purposes of awarding disability 
compensation and for other purposes. The American Legion 
believes that it is imperative that Congress ensure that 
veterans suffering from the devastating and debilitating 
effects of TBI are properly evaluated for the conditions and 
any symptoms associated with the conditions for those reasons 
mentioned. The American Legion supports S. 244.
    In 2014, The American Legion System Worth Saving program 
issued a report on rural health care and in 2014 issued a 
report on women veterans' health care. Both reports identified 
significant challenges veterans face in obtaining health care 
in rural locations as well as health care challenges women 
veterans face.
    S. 2210, the PEER Act, calls on the Department of Veterans 
Affairs to establish peer specialists to be assigned in 
patient-aligned care teams at designated VA medical centers, to 
include female peer specialists. Peer specialists in the 
private sector have become an integral part of health care 
teams and are vital in promoting the recovery of patients.
    The American Legion believes this bill will improve health 
care for male and female veterans living in rural areas. The 
American Legion supports developing a national program to 
provide peer-to-peer rehabilitation services based on the 
recovery model tailored to meet the specialized need of current 
generation's combat affected veterans and their families. 
Therefore, The American Legion strongly believes the Secretary 
of Veterans Affairs should utilize returning servicemembers for 
positions as peer support specialists in the effort to provide 
treatment, support services, and readjustment counseling for 
those veterans requiring these services. Therefore, The 
American Legion supports S. 2210.
    I want to thank you, Chairman Isakson, Ranking Member 
Blumenthal, and Members of the Committee. I appreciate the 
opportunity to present The American Legion's views and look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Butler follows:]
Prepared Statement of Roscoe G. Butler, Deputy Director of Health Care, 
  National Veterans Affairs and Rehabilitation Division, The American 
                                 Legion
    Chairman Isakson, Ranking Member Blumenthal, and distinguished 
Members of the Committee: On behalf of National Commander Dale Barnett 
and The American Legion; the country's largest patriotic wartime 
service organization for veterans, comprising over 2 million members 
and serving every man and woman who has worn the uniform for this 
country; we thank you for the opportunity to testify regarding The 
American Legion's position on the pending and draft legislation.
                                 s. 244
A bill to require an independent comprehensive review of the process by 
        which the Department of Veterans Affairs assesses cognitive 
        impairments that result from Traumatic Brain Injury for 
        purposes of awarding disability compensation, and for other 
        purposes.
    Traumatic Brain Injury (TBI) has been identified as the ``signature 
injury'' of Operation Enduring Freedom (OEF), Operation Iraqi Freedom 
(OIF) and Operation New Dawn (OND). Servicemembers have experienced 
injuries related to their combat experiences that will likely 
negatively impact their earnings post-service. As a result, it is 
imperative that we ensure that veterans suffering from the devastating 
and debilitating effects of TBI are properly evaluated for the 
condition and any symptoms associated with the conditions.
    Recently, VA acknowledged that it may have under evaluated nearly 
25,000 veterans suffering from TBI. In a June 2016 press release, VA 
stated, ``Veterans whose initial examination for TBI was not conducted 
by one of four designated medical specialists and provides them with 
the opportunity to have their claims reprocessed.'' \1\ TBI is an 
inherently complex medical condition and requires the opinions of 
specialized medical professionals to determine the level of severity 
and disability.
---------------------------------------------------------------------------
    \1\ VA Office of Public and Intergovernmental Affairs: VA Secretary 
Provides Relief for Veterans with Traumatic Brain Injuries (June 1, 
2016)
---------------------------------------------------------------------------
    S. 244 directs VA to work with the Institute of Medicine (IOM) to 
conduct a comprehensive review of VA examinations to ensure that they 
are appropriately targeting symptoms and levels of disability by TBI 
sufferers. Additionally, it directs IOM to convene medical experts to 
determine the required credentials necessary to assess cognitive 
functions and provide recommendations to improve the adjudications of 
claims.
    The American Legion has over 3,000 accredited representatives 
responsible for the effective advocacy of veterans' benefits throughout 
the Nation. It is not uncommon to hear reports from these 
representatives of the under evaluation of claims associated with TBI; 
despite their determined efforts to have these claims adjudicated 
properly by a VA rater, they often are compelled to appeal these 
decisions and have veterans who suffer from the pain and trauma 
associated with TBI wait for years to finally have their claims 
properly adjudicated.
    The American Legion by resolution stated, ``That Congress and the 
Administration encourage acceleration in the development and initiation 
of needed research on conditions that significantly affect veterans, 
such as prostate cancer, addictive disorders, trauma and wound healing, 
Post-Traumatic Stress Disorder, Traumatic Brain Injury, rehabilitation, 
and others, jointly with the Department of Defense, the National 
Institutes of Health, other Federal agencies, academic institutions and 
the Department of Veterans Affairs.'' \2\
---------------------------------------------------------------------------
    \2\ American Legion Resolution No. 148 (August 2014): Request 
Congress Provide the Department of Veterans Affairs Adequate Funding 
for Medical and Prosthetic Research
---------------------------------------------------------------------------
    The American Legion supports S. 244.
         s. 603: rural veterans travel enhancement act of 2015
A bill to make permanent the authority of the Secretary of Veterans 
        Affairs to transport individuals to and from facilities of the 
        Department of Veterans Affairs in connection with 
        rehabilitation, counseling, examination, treatment, and care, 
        and for other purposes.
    One out of every three veterans treated by the Department of 
Veterans Affairs (VA) lives in rural communities and rural veterans 
have been underserved due to a lack of access to health care, which can 
be attributed to greater travel barriers and a lack of public 
transportation. S. 603 would make it easier for veterans who live in 
rural areas to be reimbursed for expenses occurred as a result of 
traveling long distances for their medical and mental health 
appointments. This bill would permanently reauthorize the Department of 
Veterans Affairs (VA) Veterans Transportation Program (VTS). The VTS 
program provides funding to local VA healthcare systems to hire 
transportation coordinators and purchase vehicles that staff can 
utilize to transport veterans to the care they need. The Rural Veterans 
Travel Enhancement Act of 2015 would also provide mileage reimbursement 
for combat veterans traveling to receive mental health care at Vet 
Centers, and would amend the Caregivers and Veterans Omnibus Health 
Services Act of 2010 to reauthorize through FY 2020 a grant program to 
provide innovative transportation options to veterans in highly rural 
areas.
    Based on VA's interpretation of titles 38 U.S.C. Sec. 111, 
Beneficiary Travel, and 38 U.S.C. Sec. 1712A, entitled ``Eligibility 
for readjustment counseling and related mental health services,'' VA 
has interpreted these laws to mean they do not allow payment of 
beneficiary travel benefits to veterans traveling to Vet Centers. 
Veterans traveling to Vet Centers should be eligible for beneficiary 
travel benefits on the same basis as other veterans.
    The American Legion urges the Secretary to seek adequate funding to 
accommodate the needs of the increasing demand for care, to include the 
need for a Veterans Transportation System (VTS), accompanied by an 
increase in the beneficiary travel rate.\3\
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 106 (August 2014): Veterans 
Transportation System & Benefits Travel
---------------------------------------------------------------------------
    The American Legion supports S. 603.
 s. 2210: veteran partners' efforts to enhance reintegration (peer) act
A bill to require the Secretary of Veterans Affairs to carry out a 
        program to establish peer specialists in patient aligned care 
        teams at medical centers of the Department of Veterans Affairs, 
        and for other purposes.
    A peer support specialist is a person with significant life 
altering experience who works to assist individuals with chemical 
dependency, mental disorder or domestic abuse and other life effecting 
issues. Due to their life experiences, such persons have expertise that 
professional training cannot replicate. This is not to be confused with 
peer educators who may not consider recovery a suitable goal for 
everyone and may focus instead on the principles of harm reduction. 
There are many tasks performed by peer support specialists that may 
include assisting their peers in articulating their goals for recovery, 
learning and practicing new skills, helping them monitor their 
progress, assisting them in their treatment, modeling effective coping 
techniques and self-help strategies based on the specialist's own 
recovery experience, and supporting them in advocating for themselves 
to obtain effective services.
    S. 2210 would expand VA's current use of peer specialists from 
mental health clinics to be utilized in primary care settings. The PEER 
Act would require the Department of Veterans Affairs (VA) to establish 
a pilot program of peer specialists to work as members of VA's patient-
aligned care teams (PACT), for the purpose of promoting the integration 
of mental health services in a VA primary care setting. This bill would 
authorize the establishment of this pilot program in 25 VA sites, to 
include the five VA's Polytrauma centers across the country. The bill 
would also require a series of reports, including a final report to 
recommend whether the program should be expanded beyond the pilot 
program sites.
    The American Legion urges the President of the United States and 
the U.S. Congress to call on the Secretary of Veterans Affairs to 
develop a national program to provide peer to peer rehabilitation 
services based on the recovery model tailored to meet the specialized 
needs of current generation combat-affected veterans and their 
families.\4\
---------------------------------------------------------------------------
    \4\ American Legion Resolution No. 284 (August 2014): Department of 
Veterans Affairs to Develop Outreach and Peer to Peer Programs for 
Rehabilitation
---------------------------------------------------------------------------
    The American Legion supports S. 2210.
         s. 2279 veterans health care staffing improvement act
    A bill to require the Secretary of Veterans Affairs to carry out a 
program to increase efficiency in the recruitment and hiring by the 
Department of Veterans Affairs of health care workers that are 
undergoing separation from the Armed Forces, to create uniform 
credentialing standards for certain health care professionals of the 
Department, and for other purposes.
    S. 2279 would make changes in staffing policies throughout the VA 
healthcare system to improve the recruitment of health care workers who 
are transitioning from military service. Throughout the country 
veterans are faced with waiting weeks or even months for a health care 
appointment. These barriers to receiving quality care can be attributed 
to a shortfall of tens of thousands of medical professionals to provide 
that care. This bill would decrease the bureaucratic red tape by making 
it easier for the VA to increase staffing throughout the VA healthcare 
system and ultimately reduce wait times for thousands of veterans. This 
bill also includes the ``Docs-to-Doctors'' program which allows 
servicemembers who have served in the medical field to transition 
directly into the VA which would allow veterans access to health care 
they need in a timely manner.
    The American Legion supports Sections 2 and 3 of S. 2279; however, 
at this time The American Legion does not have a position on Section 4, 
which is granting Nurses and Physicians Assistants full practice 
authority.
                                s. 2316
A bill to expand the requirements for reissuance of veterans benefits 
        in cases of misuse of benefits by certain fiduciaries to 
        include misuse by all fiduciaries, to improve oversight of 
        fiduciaries, and for other purposes.
    Without question, veterans requiring a fiduciary are some of our 
Nation's most vulnerable. Unable to manage their financial affairs, VA 
will appoint a fiduciary to ensure that payments for bills are provided 
from their VA benefits. Due to their vulnerable states, veterans are 
exposed to abuse by their fiduciary and may face daunting challenges to 
recover lost payments.
    The American Legion has previously testified regarding the need to 
reform the fiduciary program. Repeatedly, we have heard from our 
accredited representatives about veterans being financially harmed by 
their appointed fiduciary.
    In 2011, the Federal Bureau of Investigation (FBI) detailed a 
conviction of two individuals, to include one former VA employee, of 
defrauding veterans of nearly $900,000 between 1999-2008.\5\ Based upon 
allegations received by VA's Office of Inspector General (VAOIG) in 
May 2013, an investigation of the Eastern Area Fiduciary Hub was 
conducted; as stated in the May 2014 VAOIG report, there were 12 
incidents of fiduciaries misusing funds, costing veterans approximately 
$944,000 in benefits.\6\
---------------------------------------------------------------------------
    \5\ The Federal Bureau of Investigation: Veterans' Benefit 
Fiduciary and Former U.S. Department of Veterans Affairs Employee Plead 
Guilty to Embezzling Nearly $900,000 (August 10, 2011)
    \6\ VA OIG report (May 28, 2014): Review of Alleged Mismanagement 
at the Eastern Area Fiduciary Hub
---------------------------------------------------------------------------
    Unfortunately, it is often noticed after years of a fiduciary's 
abuse of a veteran's funds. This can amount to hundreds of thousands of 
dollars lost by the veteran. Currently, the only way that a veteran can 
pursue the lost benefits are through civil court proceedings.
    S. 2316 removes the requirement of these vulnerable veterans to 
have to pursue civil litigation to recover the lost benefits. It places 
the requirement on VA; considering that VA is responsible for assigning 
a fiduciary, it stands to reason that they should inherit the 
responsibility of recovering the lost benefits by unscrupulous 
fiduciaries. Through this bill, we can move to protecting beneficiaries 
from the unlawful taking of benefits by unscrupulous fiduciaries from 
our Nation's veterans.
    Recognizing that veterans requiring fiduciaries are often some of 
our Nation's most vulnerable veterans, The American Legion supports 
legislation requiring the Department of Veterans Affairs to provide 
oversight over their fiduciary program and that it protects veterans 
and their beneficiaries who are unable to manage their financial 
affairs.\7\
---------------------------------------------------------------------------
    \7\ American Legion Resolution No. 103 (September 2015): Fiduciary 
Responsibility
---------------------------------------------------------------------------
    The American Legion supports S. 2316.
             s. 2791--atomic veterans healthcare parity act
A bill to provide for the treatment of veterans who participated in the 
        cleanup of Enewetak Atoll as radiation exposed veterans for 
        purposes of the presumption of service-connection of certain 
        disabilities by the Secretary of Veterans Affairs.
    From 1977 to 1980, thousands of members of the United States Armed 
Forces participated in a radiation cleanup of United States nuclear 
test sites in the Marshall Islands. S. 2791 would provide for the 
treatment and service-connection presumption of certain disabilities 
related to those veterans who participated in the cleanup of the 
Enewetak Atoll and other areas that conducted nuclear testing. The 
Atomic Veterans Healthcare Parity Act would help veterans who were 
exposed through the cleanup at these atomic sites to access the 
benefits and treatment they earned.
    The American Legion highlighted the plight of these veterans, left 
behind and struggling to gain access to treatment and benefits due to 
the way the laws are written, in the March 2016 issue of The American 
Legion Magazine entitled, ``Toxic Paradise,'' as well as on our 
website.
    The American Legion urges ensuring medical examinations, 
compassionate treatment and just compensation for veterans exposed to 
environmental hazards ``through testing, transportation, storage, and 
disposal.'' \8\
---------------------------------------------------------------------------
    \8\ American Legion Resolution No. 125 (August 2014): Environmental 
Exposures
---------------------------------------------------------------------------
    The American Legion supports S. 2791.
                                s. 2958
A bill to establish a pilot program on partnership agreements to 
        construct new facilities for the Department of Veterans 
        Affairs.
    Veterans are frustrated and concerned with VA's construction 
processes and the continued delays and cost overruns and unsure whether 
VA's improvements will ensure VA major construction in the future will 
be within schedule and budget. S. 2958 would allow the VA to enter into 
public-private partnerships for the planning, design and construction 
of new buildings for the use by the Department of Veterans Affairs. 
This bill would allow improvements to be made to VA medical centers to 
better serve veterans by creating a pilot program that would allow the 
VA to create up to five partnerships to assist with their VA 
construction projects.
    The American Legion urges VA to consider all available options, 
both within the agency and externally, to include, but not limited to, 
the Army Corps of Engineers to ensure major construction programs are 
completed on time and within budget.\9\
---------------------------------------------------------------------------
    \9\ American Legion Resolution No. 24 (May 2015): Department of 
Veterans Affairs Construction Programs
---------------------------------------------------------------------------
    The American Legion supports S. 2958.
                                s. 3021
A bill to authorize the use of Post-9/11 Educational Assistance to 
        pursue independent study programs at certain educational 
        institutions that are not institutions of higher learning.
    This bill would provide student-veterans with expanded scope and 
usage of the Post-9/11 GI Bill education benefits to other forms of 
postsecondary institutions. This legislation adds needed options to 
student-veterans in the pursuit of their educational goals. The Post-9/
11 GI Bill passed by Congress in 2008 has been an effective upgrade for 
21st century veterans using their college education benefits. It was 
not, nor can it be, a law so static that it cannot continue evolving to 
best meet the needs of student-veterans in an ever-shifting landscape 
of higher education and career training.
    Last, The American Legion has been encouraged by the growing 
recognition within Congress of the need to make basic, but critical 
information about the return on investment in higher education 
available to student-veterans.
    The American Legion seeks and supports any legislative or 
administrative proposal that improves, but not limited to, the GI Bill, 
Department of Defense Tuition Assistance (TA), Higher Education Title 
IV funding (i.e., Pell Grants, Student Loans, etc.) and education 
benefits so servicemembers, veterans, and their families can maximize 
its usage.\10\
---------------------------------------------------------------------------
    \10\ American Legion Resolution No. 312 (August 2014): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Learning
---------------------------------------------------------------------------
    The American Legion supports S. 3021.
                     s. 3023--the arla harrell act
A bill to provide for the reconsideration of claims for disability 
        compensation for veterans who were the subjects of experiments 
        by the Department of Defense during World War II that were 
        conducted to assess the effects of mustard gas or lewisite on 
        people, and for other purposes.
    For 10 years, Arla Harrell has sought VA disability compensation 
for conditions he attributes to his military service. While stationed 
at Camp Crowder, Missouri, during the waning days of World War II, he 
reports being subjected to mustard gas exposure as part of a secret 
experimental program. The exposure led to a lifetime of respiratory 
ailments.
    Unfortunately, like many World War II veterans, his military 
records were burned in the National Personnel Records fire of 1973. To 
further complicate the matter, neither the Department of Defense (DOD) 
nor VA have been able to produce accurate records indicating the 
impacted veterans. According to an article published on May 27, 2016, 
in the St. Louis Post Dispatch, National Public Radio uncovered in 
November 2015 that 3,900 veterans were exposed to mustard gas 
experiments, a list six times greater than VA previously 
acknowledged.\11\
---------------------------------------------------------------------------
    \11\ St. Louis Post Dispatch (May 27, 2016): ``World War II vet's 
mustard gas claim again denied, but VA boss pledges look at new 
evidence''
---------------------------------------------------------------------------
    38 CFR Sec. 3.316 identifies a host of medical conditions, to 
include respiratory conditions that are presumptively related to 
mustard gas exposure. The issue is not what conditions to service 
connect presumptively; S. 3023 will allow VA to presumptively service 
connect veterans for exposure to mustard gas based upon participating 
in mustard gas testing.
    The American Legion has long supported service connecting veterans 
presumptively due to environmental exposures. The American Legion 
supports ``the liberalization of the rules relating to the evaluation 
of studies involving exposure to any environmental hazard and that all 
necessary action be taken by the Federal Government, both 
administratively and legislatively as appropriate, to ensure that 
veterans are properly compensated for diseases and other disabilities 
scientifically associated with a particular exposure'' \12\
---------------------------------------------------------------------------
    \12\ American Legion Resolution No. 125 (August 2016): 
Environmental Exposures
---------------------------------------------------------------------------
    The American Legion supports S. 3023.
 s. 3032--veterans' compensation cost-of-living adjustment act of 2016
A bill to provide for an increase, effective December 1, 2016, in the 
        rates of compensation for veterans with service-connected 
        disabilities and the rates of dependency and indemnity 
        compensation for the survivors of certain disabled veterans, 
        and for other purposes.
    This bill will provide a Cost of Living Allowance (COLA) effective 
December 1, 2016. Disability compensation and pension benefits awarded 
by the Department of Veterans Affairs (VA) are designed to compensate 
veterans for medical conditions due to service or who earn below an 
income threshold. With annual increases to costs of living, it is only 
appropriate that veterans' benefits increase commensurate with those 
increases.
    For nearly 100 years, The American Legion has advocated on behalf 
of our Nation's veterans, to include the awarding of disability 
benefits associated with chronic medical conditions that manifest 
related to selfless service to this Nation. Annually, veterans and 
their family members are subjects in the debate regarding the annual 
cost of living adjustment (COLA) for these disability benefits. For 
these veterans and their family members, COLA is not simply an acronym 
or a minor adjustment in benefits; instead, it is a tangible benefit 
that meets the needs of the increasing costs of living in a nation that 
they bravely defended.
    The American Legion would like to commend the members on this bill. 
Previous bills introduced have had ``round-down'' provisions, where 
veterans' benefits were rounded-down to the next whole dollar. This is 
a frustrating practice that has an insidious effect over years of 
receiving benefits.
    The American Legion supports legislation to provide a periodic 
cost-of-living adjustment increase and to increase the monthly rates of 
disability compensation.\13\
---------------------------------------------------------------------------
    \13\ American Legion Resolution No. 18 (August 2014): Department of 
Veterans Affairs Disability Compensation
---------------------------------------------------------------------------
    The American Legion supports S. 3032.
s. 3035--maximizing efficiency and improving access to providers at the 
               department of veterans affairs act of 2016
A bill to require the Secretary of Veterans Affairs to carry out a 
        pilot program to increase the use of medical scribes to 
        maximize the efficiency of physicians at medical facilities of 
        the Department of Veterans Affairs.
    Veterans are experiencing long wait times for VA health care for a 
variety of reasons, but in part due to high patient load and not enough 
doctors to serve the population. This shortage is a nationwide problem.
    A medical scribe is a paraprofessional who specializes in charting 
physician-patient encounters in real time, such as during medical 
examinations. Depending on which area of practice the scribe works in, 
the position may also be called clinical scribe, ER scribe or ED scribe 
(in the emergency department), or just scribe (when the context is 
implicit). A scribe is trained in health information management and the 
use of health information technology to support it. A scribe can work 
on-site (at a hospital or clinic) or remotely from a Health Insurance 
Portability and Accountability Act (HIPAA) secure facility. Medical 
scribes who work at an offsite location are known as virtual medical 
scribes and normally work in clinical settings.
    A medical scribe's primary duties are to follow a physician through 
his or her work day and chart patient encounters in real-time using a 
medical office's electronic health record (EHR) and existing templates. 
Medical scribes also generate referral letters for physicians, manage 
and sort medical documents within the EHR system, and assist with e-
prescribing. Medical scribes can be thought of as data care managers, 
enabling physicians, medical assistants, and nurses to focus on patient 
in-take and care during clinic hours. Medical scribes, by handling data 
management tasks for physicians in real-time, free the physician to 
increase patient contact time, give more thought to complex cases, 
better manage patient flow through the department, and increase 
productivity to see more patients.
    S. 3035 would require VA to carry out an 18 month pilot program in 
no less than five high-volume VA medical centers for the contract 
hiring of medical scribes to assist VA physicians with workload. This 
bill will ensure doctors have more time to see patients rather than 
entering in medical data and will serve as a recruitment tool for 
doctors who want a package comparable to the private sector.
    The American Legion supports any legislation and programs within 
the VA that will enhance, promote, restore or preserve benefits for 
veterans and their dependents, including timely access to quality VA 
health care.\14\
---------------------------------------------------------------------------
    \14\ American Legion Resolution No. 23 (May 2016):Support for 
Veteran Quality of Life
---------------------------------------------------------------------------
    The American Legion supports S. 3035.
       s. 3055--department of veterans affairs dental insurance 
                      reauthorization act of 2016
A bill to provide a dental insurance plan to veterans and survivors and 
        dependents of veterans.
    S. 3055 would reauthorize the current veteran dental insurance 
pilot program that was included in the Caregiver and Veterans Omnibus 
Health Services Act of 2010. This bill would ensure that eligible 
veterans, survivors and dependents of veterans continue to access 
quality dental insurance at a low cost.
    Under current VA's dental authority, only certain enrolled veterans 
are eligible for outpatient dental care from the VA. If this bill was 
enacted into law, veterans not eligible for VA benefits would be also 
able to enroll in the VA Dental Insurance Program (VADIP). Each veteran 
enrolled in the plan shall pay the entire premium for coverage under 
the dental insurance plan, in addition to the full cost of any 
copayment.
    The American Legion urges Congress and the VA to enact legislation 
and programs within the VA that will enhance benefits for veterans and 
their dependents.\15\
---------------------------------------------------------------------------
    \15\ American Legion Resolution No. 23 (May 2016): Support for 
Veteran Quality of Life 
---------------------------------------------------------------------------
    The American Legion supports S. 3055.
         s. 3076--charles duncan buried with honor act of 2016
A bill to authorize the Secretary of Veterans Affairs to furnish 
        caskets and urns for burial in cemeteries of States and Indian 
        tribes of veterans without sufficient resources to provide for 
        caskets or urns.
    The draft bill would amend Title 38 United States Code (U.S.C) 
Section 2306 entitled Headstones, markers, and burial receptacles 
subsection (f). Under current law, Title 38 U.S.C. Sec. 2306(f), the 
Secretary may furnish a casket or urn, of such quality as the Secretary 
considers appropriate for a dignified burial, for burial in a national 
cemetery of a deceased veteran in any case in which the Secretary is 
unable to identify the veteran's next of kin, if any; and determines 
that sufficient resources for the furnishing of a casket or urn for the 
burial of the veteran in a national cemetery are not otherwise 
available. The bill would allow for such burial in cemeteries of States 
and Native American Indian tribes of veterans without sufficient 
resources to provide for caskets or urns.
    The American Legion urges Congress and the Department of Veterans 
Affairs (VA) to enact legislation and programs within the VA that will 
enhance, promote, restore or preserve benefits for veterans and their 
dependents with final resting places in national shrines and with 
lasting tributes that commemorates their service.\16\
---------------------------------------------------------------------------
    \16\ American Legion Resolution No. 23: (May 2016): Support for 
Veteran Quality of Life 
---------------------------------------------------------------------------
    The American Legion supports S. 3076.
 s. 3081--working to integrate networks guaranteeing member access now 
                         act (``wingman act'')
To amend title 38, United States Code, to provide certain employees of 
        Members of Congress and certain employees of State or local 
        governmental agencies with access to case-tracking information 
        of the Department of Veterans Affairs.
    The WINGMAN Act would grant access to the Department of Veterans 
Affairs (VA) Veterans Benefits Management System (VBMS) for the purpose 
of assisting constituents. According to the bill, Members could select 
an employee, and at a cost to the employee or member, would receive the 
necessary training to gain accreditation to legally review veterans' 
records within VBMS. The American Legion has over 3,000 accredited 
representatives located throughout the Nation. These professionals 
receive regular professional training to ensure they have the most 
current understanding of the impact of changes in statutes, 
regulations, and case law. It is simply not a matter of receiving 
initial training and meeting the requirement of being accredited; like 
many professions, it requires on-going, thorough training. 
Additionally, veterans are repeatedly advised of their opportunity to 
elect to have a Veterans Service Organization (VSO) represent them in 
their quest to receive VA disability benefits without a cost to the 
veteran. The American Legion does not have a resolution to support the 
enactment of this bill; however, we urge Congress to consider the long-
term ramifications of supporting legislation that only requires their 
own employees to have the minimal level of understanding in veterans' 
law assisting their constituents. To ensure their constituents receive 
the assistance they deserve, we highly recommend that a VSO advocate on 
their veterans' behalf.
    The American Legion Opposes the S. 3081.
                               draft bill
A bill to clarify the scope of procedural rights of members of the 
        uniformed services with respect to their employment and 
        reemployment rights, to improve the enforcement of such 
        employment and reemployment rights, and for other purposes.
    With the number of Uniformed Services Employment and Reemployment 
Rights Act of 1994 (USERRA) cases across the country, The American 
Legion is deeply concerned with the protection of the servicemember and 
the prevention of the servicemember not being reemployed by their 
previous employer after deployment(s). USERRA cases have become more 
complex than in the past and frequently involve multiple issues. This 
is due to longer and more frequent deployments of National Guard and 
Reserve members. As currently drafted, USERRA fails to adequately 
support military personnel upon their return to civilian employment as 
numerous employers have violated the rules laid out in Title 38 of the 
United States Code.
    This bill would improve USERRA by clarifying the scope of USERRA 
rights and expand the enforcement authority of the Department of 
Justice (DOJ). This legislation adds essential authority to DOJ that 
provides the kind of protection for servicemembers' employment--which 
includes compensatory and punitive damages--which servicemembers have 
earned through their honorable service for the United States of 
America.
    The American Legion seeks and supports any legislative or 
administrative proposal that will mandate the use of automated 
recruitment, hiring and retention system that safeguard against hiring 
malpractice in the application and the hiring process.\17\ The American 
Legion supports legislation to amend Title 38, U.S.C., to prohibit 
discrimination and acts of reprisals by employers against veterans that 
seek treatment for their service-connected disabilities.\18\
---------------------------------------------------------------------------
    \17\ American Legion Resolution No. 301 (August 2014): Enforcing 
Veterans' Preference Hiring Practices in Federal Civil Service
    \18\ American Legion Resolution No. 341 (August 2014): Resolution 
No. 341: Support Legislation to Amend Title 38 United States Code, to 
Prohibit Discrimination and Acts of Reprisal by Employers against 
Veterans that Seek Treatment for Their Service-Connected Disabilities
---------------------------------------------------------------------------
    The American Legion supports the Draft Bill.
                               draft bill
A bill to expand eligibility for readjustment counseling to certain 
        members of the Selected Reserve of the Armed Forces.
    Readjustment counseling is made up of a wide range of psychosocial 
services offered to eligible veterans and their families in the effort 
to make a successful transition from military to civilian life. The 
draft bill would amend Title 38 United States Code Section 1712A 
entitled Eligibility for readjustment counseling and related mental 
health services by adding new subparagraphs under the current law that 
includes: (D)(i) The Secretary, in consultation with the Secretary of 
Defense, may furnish to any member of the Selected Reserve of the Armed 
Forces who has a behavioral health condition or psychological trauma, 
counseling under subparagraph (A)(i),which may include a comprehensive 
individual assessment under subparagraph (B)(i) and (ii) A member of 
the Selected Reserve of the Armed Forces described in clause (i) shall 
not be required to obtain a referral before being furnished counseling 
or an assessment under this subparagraph.''
    The American Legion urges Congress and the Department of Veterans 
Affairs (VA) to enact legislation and programs within the VA that will 
enhance, promote, restore or preserve benefits for veterans and their 
dependents, including, but not limited to, the following: timely access 
to quality VA health care.\19\
---------------------------------------------------------------------------
    \19\ American Legion Resolution No. 23 (May 2016): Support for 
Veterans Quality of Life
---------------------------------------------------------------------------
    The American Legion supports the Draft Bill.
                               draft bill
A bill to authorize payment by the Department of Veterans Affairs for 
        the costs associated with service by medical residents and 
        interns at facilities operated by Indian tribes and tribal 
        organizations, to require the Secretary of Veterans Affairs to 
        carry out a pilot program to expand medical residencies and 
        internships at such facilities, and for other purposes.
    This bill would require the Secretary of Veterans Affairs to 
implement a pilot program to establish graduate medical education (GME) 
residency training programs at covered facilities. According to Title 
25 U.S. Code Subchapter II--Indian Self-Determination and Education 
Assistance 450b Section 4 of the Indian Self-Determination and 
Education Assistance Act--VA defines a covered facility to mean a 
department facility, or a facility operated by an Indian tribe or a 
tribal organization.
    The American Legion supports any legislation or policies that will 
enhance, promote, restore, or preserve benefits for veterans and their 
dependents.\20\
---------------------------------------------------------------------------
    \20\ American Legion Resolution No. 23 (May 2016): Support for 
Veterans Quality of Life
---------------------------------------------------------------------------
    The American Legion supports the Draft Bill.
                            discussion draft
To authorize the American Battle Monuments Commission to acquire, 
        operate, and maintain the Lafayette Escadrille memorial in 
        Marnes-la-Coquette, France
    The Lafayette Escadrille Memorial is dedicated to the memory of the 
American pilots who volunteered to assist the Allied Army in 1914. The 
central platform is crowned with a triumphal arch and flanked with 
porticos leading to the underground crypt. The ``art deco'' style 
highlights the pilots' sacrifice and the Franco-American friendship.
    There are statues of Lafayette and Washington facing one another 
and, on the ground, a mosaic of the famous Sioux warrior's head, the 
squadron's ensign. The crypt holds the ashes of 66 American pilots. It 
is decorated with 13 stained glass windows depicting the great aerial 
combats of the war. The monument was inaugurated on American 
Independence Day, July 4, 1928.
    The discussion draft would authorize the American Battle Monuments 
Commission (ABMC), which was established by the Congress in 1923, as 
the guardian of America's overseas commemorative cemeteries and 
memorials and honors the service, achievements and sacrifices of the 
United States Armed Forces by overseeing the operations of the memorial 
which has been erected to honor those who gave the ultimate sacrifice 
for their country.
    The American Legion urges Congress to appropriate adequate funding 
and human resources to the American Battle Monuments Commission in 
order to properly maintain and preserve the final resting place of 
America's war dead located on foreign soil.\21\
---------------------------------------------------------------------------
    \21\ American Legion Resolution No. 50 (August 2014): Support for 
the American Battle Monuments Commission
---------------------------------------------------------------------------
    The American Legion supports the Discussion Draft.
                               conclusion
    As always, The American Legion thanks this Committee for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization. For additional information regarding this 
testimony, please contact Mr. Warren J. Goldstein at The American 
Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c7b6b6360687f786965624c60696b65636222637e6b22">[email&#160;protected]</a>

    Chairman Isakson. Roscoe, you are always thorough and we 
appreciate your input on the Committee's work all the time. 
Thank you for coming today.
    Mr. Fuentes.

    STATEMENT OF CARLOS FUENTES, DEPUTY DIRECTOR, NATIONAL 
         LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS

    Mr. Fuentes. Mr. Chairman, Ranking Member Blumenthal, and 
Members of the Committee, on behalf of the men and women of the 
VFW and our Auxiliaries, I would like to thank you for the 
opportunity to present our views on legislation pending before 
the Committee.
    The VFW supports most of the bills being considered today, 
but I will limit my remarks to those we urge the Committee to 
amend.
    The VFW supports the Maximizing Efficiency and Improving 
Access to Providers Act. However, we urge the Committee to 
require contractors hired as medical scribes to help VA 
providers locate medical documents in a veteran's electronic 
health care record, such as labs and private sector health 
records. This would ensure VA providers spend less time 
navigating electronic health care records and more time 
treating veterans.
    The VFW supports the VA Dental Insurance Reauthorization 
Act of 2016 but urges the Committee to consider expanding VA 
dental care eligibility instead of passing on the costs of 
dental coverage onto the veterans. Oral health has a direct 
impact on overall health. Additionally, several health care 
conditions prevalent among veterans, such as diabetes, have 
been found to directly impact oral health. Until January 2014, 
veterans enrolled in VA health care have little to no options 
for receiving dental care. While the VA dental insurance 
program provides dental care options to 100,000 veterans and 
their eligible families, VFW members consider this program as 
better than nothing. The VFW believes veterans have earned the 
best, not better than nothing.
    Additionally, veterans who participate in the dental 
insurance program do not have their dental records integrated 
into their VA electronic health care records. Thus, VA 
providers are unable to determine if these veterans have dental 
conditions that may impact their overall health. That is why 
the VFW supports expanding eligibility for VA dental care to 
all veterans who are enrolled in--who are eligible for VA 
health care.
    While the VFW agrees with the need to improve the ability 
of Congressional staff to assist veterans with their claims, we 
cannot support the WINGMAN Act at this time. We have several 
concerns that would need to be addressed before we could 
support this bill, and like VA, our reading of the bill did not 
require Congressional staff to have signed releases before 
having access to the records. We agree with VA and Senator 
Cassidy that that is necessary.
    When a power of attorney is held by an individual or 
organization, that entity must be notified of Congressional 
involvement. Congressional staff must pass VA certification 
tests and level-sensitive restrictions that apply to VA 
employees and service officers must also apply to Congressional 
staff, including consequences for staff found to have abused 
their authority.
    The VFW acknowledges the need for improved access to mental 
health care for Guard and Reserve servicemembers, but we cannot 
support the expansion of Vet Center eligibility to non-combat 
veterans. The rate of suicide among our servicemembers is 
equally as troubling as the rate of suicide among veterans. 
While DOD's suicide prevention programs have successfully 
reduced the rate of suicides among our active duty force, it 
has not been able to replicate those efforts in its Reserve 
components. To address this need, the VFW urges Congress and 
DOD to devote more efforts and resources to combat the rate of 
suicide among Guardsmen and Reservists. Additionally, DOD must 
leverage shared agreements with VA to ensure Guardsmen and 
Reservists who live in rural and remote areas have access to 
the mental health care they need.
    Mr. Chairman, this concludes my remarks. I am happy to 
answer any questions you or the Members of the Committee may 
have.
    [The prepared statement of Mr. Fuentes follows:]
    Prepared Statement of Carlos Fuentes, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on today's pending 
legislation.
                                 s. 244
A bill to require an independent comprehensive review of the process by 
        which the Department of Veterans Affairs assesses cognitive 
        impairments that result from Traumatic Brain Injury for 
        purposes of awarding disability compensation.
    The VFW supports this legislation and its efforts to address 
incorrect assessments of cognitive impairments suffered by veterans 
with Traumatic Brain Injury (TBI).
    With the current shallow understanding of TBI, it is of utmost 
importance we properly handle and treat the portions we do comprehend. 
If underqualified Department of Veterans Affairs (VA) doctors have 
possibly misdiagnosed thousands of veterans who may have cognitive 
impairments from TBI, then that issue must be addressed and those 
veterans need to be given the opportunity to receive treatment and 
disability compensation. VA must be sure it is delivering the highest 
quality of care to veterans. By bringing in an outside source such as 
the Institute of Medicine, there will be opportunity for unbiased 
assessment of protocols for VA psychologists carrying out physiological 
exams related to TBI.
         s. 603, rural veterans travel enhancement act of 2015
    The VFW strongly supports this legislation, which would authorize 
VA to continue a number of successful transportation programs to help 
veterans travel to their VA health care appointments. The lack of 
reliable transportation is a significant barrier to access for veterans 
throughout the country, especially in rural areas. The VFW strongly 
supports efforts to eliminate such barriers.
    Section 2 would permanently extend VA's authority to administer the 
Veterans Transportation Service (VTS). This program was commissioned by 
the Veterans Health Administration's Office of Rural Health in 2010, 
and greatly improved access to care for rural and severely disabled 
veterans by allowing VA facilities to establish and coordinate networks 
of local transportation providers, including community, commercial and 
government transportation services.
    VTS suffered a major setback in 2012 when it was temporarily 
suspended following a determination by the VA Office of General Counsel 
that VA lacked the statutory authority to hire paid drivers to 
transport veterans. Congress has passed one-year authorizations of the 
VTS program since January 2013, but a long term fix is still needed. 
The VFW supports permanently expanding this successful program.
    Section 3 would authorize VA to reimburse veterans for travel to 
Vet Centers. With the significant shortage of culturally competent and 
evidence-based mental health care available to veterans, we must do 
what is needed to ensure veterans have access to programs tailored to 
their unique needs. The combat-specific readjustment services offered 
at Vet Centers makes them a great source for mental health care for 
veterans struggling to readjust back to civilian life after their 
experiences during war. Unfortunately, accessing such readjustment 
centers may be difficult for certain veterans who cannot afford the 
transportation to and from Vet Centers. This bill would rightfully 
remove that barrier by expanding eligibility for VA beneficiary travel 
benefits.
    Section 4 would reauthorize grants which enable Veterans Service 
Organizations to transport veterans who live in highly rural areas to 
their VA and community care appointments. VFW posts and departments in 
California, Texas, Maine and North Dakota use these grants to help 
thousands of veterans access the health care and services they need. 
The VFW supports reauthorizing such grants to allow these successful 
programs to continue.
                       s. 2210, veterans peer act
    The VFW supports this legislation, which would require VA to 
integrate peer support specialists into Primary Care Patient Align Care 
Teams (PACT).
    Peer support specialists provide a valuable service to veterans 
coping with mental health conditions. Such veterans often look for 
guidance from fellow veterans who have successfully completed treatment 
and have learned to cope with conditions they are experiencing. While 
current law requires each VA medical center to hire a minimum of two 
peer support specialists, it does not require VA medical facilities to 
incorporate them into the clinical settings. As a result, many peer 
support specialists are not used to their full potential. Many peer 
support specialists currently lead successful mental health care 
programs and services. The VFW supports efforts to expand such best 
practices.
    The VFW is glad to see this legislation would require each medical 
center that participates in the pilot program to consider the gender-
specific needs of women veterans when carrying out the pilot program. 
In our survey of women veterans, survey participants identified the 
lack of gender-specific services as the greatest need in VA health care 
facilities. Survey participants also indicated their desire to select a 
provider of the same gender, specifically for veterans who have mental 
health conditions that may be a result of military sexual trauma. The 
VFW supports efforts to hire women peer support specialists to ensure 
women veterans have the opportunity to seek guidance from women 
veterans who have learned to cope with military sexual trauma related 
mental health conditions.
         s. 2279, veterans health care staffing improvement act
    This legislation would improve the transition of health care 
providers between the Department of Defense (DOD) and VA, streamline 
the process for transferring health care professionals between VA 
facilities and expand the practice authority for certain health care 
providers. The VFW supports sections 2 and 3 and takes no position on 
section 4.
    Section 2 would streamline the VA hiring process for transitioning 
servicemembers who practice medicine in the Military Health System. 
Servicemembers with years of clinical experience with the Military 
Health System have the skills and cultural competency needed to treat 
service-connected injuries as VA health care providers. The VFW 
believes veterans who choose to continue serving their country and 
their fellow veterans must have access to expedited hiring authorities 
that enable them to seamlessly transition from military service to the 
civil service. This legislation would rightfully ensure applications 
for VA health care employment from transitioning servicemembers are 
given priority.
    Section 3 would eliminate the requirement for VA health care 
professionals to undergo credentialing every time such employees 
transfer to a new VA medical facility. During our site visits of VA 
medical facilities throughout the country, the VFW has heard from VA 
physicians that VA credentialing requirements delay their ability to 
begin treating veterans when they transfer between VA medical 
facilities. The VFW does not see a reason for VA physicians to endure 
the VA credentialing process every time they transition to a new VA 
medical facility. We support efforts to streamline this process to 
ensure VA is able to seamlessly transfer its health care professionals 
to areas of greatest need.
    Section 4 would grant independent practice authority for advanced 
practice registered nurses and physician assistants employed by the 
Department. VA recently published a proposed rule to grant its advance 
practice nurses full practice authority. The VFW does not take a 
position on scope of practice issues. The VFW defers to VA in 
determining the most efficient and effective scope of practice of its 
providers. However, we will hold VA accountable for providing timely 
access to high quality health care, regardless if such care is provided 
by an advance practice registered nurse or a physician.
                                s. 2316
A bill to expand the requirements for reissuance of veterans benefits 
        in cases of misuse of benefits by certain fiduciaries.
    This legislation would ensure a veteran who is defrauded by his or 
her fiduciary can be fully reimbursed, regardless of VA negligence or 
the amount the fiduciary manages. Today, veterans can only be made 
whole if VA does not respond to the notification of fraud within 60 
days. For all other beneficiaries who have been defrauded, they can 
only be reimbursed the amount VA can collect back through fines placed 
on the fiduciary. This legislation would ensure that every veteran who 
has been defrauded can be made whole.
    This legislation would also require all fiduciaries to provide 
authorization for the Secretary to obtain the financial records of all 
accounts held by a fiduciary. This measure will provide VA with 
enhanced access to bank accounts held by fiduciaries for beneficiaries 
in its oversite function of safeguarding veterans' benefits.
    The VFW supports this legislation.
             s. 2791, atomic veterans healthcare parity act
    When servicemembers answer the call of duty without hesitation, it 
is our duty to take care of the repercussions of their military 
service. The VFW supports this legislation, which would expand VA 
disability compensation to veterans who were exposed to nuclear 
radiation from 1977 to 1980 during the atomic cleanup of Enewetak 
Atoll. The VFW sees this as one more example of military toxic exposure 
causing adverse health conditions which has been ignored for far too 
long.
                                s. 2958
A bill to establish a pilot program on partnership agreements to 
        construct new facilities for the Department of Veterans 
        Affairs.
    This legislation would authorize a pilot program for VA to enter 
into five public-private partnerships (P3) for the funding and 
construction of major construction projects. This bill will allow 
``entities'' to apply for and enter into a contract with VA. These 
entities would be made up of a board of directors that will submit an 
application to the Secretary that will describe the name and experience 
of the project manager; the proposed contributions and how funding will 
be secured; a description of the management plan and monitoring process 
that will be used; and finally the total cost and timeline for 
completion.
    The VFW has called on Congress to allow VA to enter into P3s for 
several years and fully believes that these partnerships are the future 
for VA major construction projects. That is why we fully support this 
legislation.
                                s. 3021
A bill to authorize the use of Post-9/11 Educational Assistance to 
        pursue independent study programs at certain educational 
        institutions that are not institutions of higher learning.
    Post-secondary education comes in various forms and is vital to the 
successful transition from military to civilian life. The VFW supports 
this legislation to expand the Post-9/11 Education Assistance Program. 
Current legislation does not allow veterans to use their education 
benefits to earn accredited certificates through independent study 
programs at institutions that are not deemed those of higher learning. 
Yet, there are institutions that offer these accredited programs for 
areas such as career and technical education. Allowing veterans to use 
their education benefits to earn such certificates would incentivize 
veterans to purse secondary education and open more windows of 
opportunity for their futures.
                     s. 3023, the arla harrell act
    During WWII, 60,000 servicemembers were human subjects of the 
military's chemical defense research program----some 4,000 of those 
servicemembers were exposed to high levels of mustard agents. Until the 
early 1990s, these veterans where forbidden to speak of the 
experiments, even though the program was declassified in 1975.
    Because of the classified nature of these exposures and the 
reliance on incomplete and conflicting data, the ability to accurately 
determine the level of exposure to mustard gas and Lewisite each 
veteran endured is difficult at best. Because of these facts, the VFW 
believes those veterans who have previously applied for benefits 
related to exposure to mustard gas and Lewisite and were denied because 
the evidence of ``full body'' exposure could not be proven, should be 
given the benefit of the doubt and have their claims adjudicated with 
the presumption of full body exposure.
    The VFW supports requiring VA to reconsider previously denied 
claims for mustard gas and Lewisite exposure with the presumption that 
the exposure was full body, unless available evidence proves otherwise.
 s. 3032, veterans' compensation cost-of-living adjustment act of 2016
    The VFW strongly supports this legislation, which would increase VA 
compensation for veterans and survivors, and adjust other benefits 
beginning December 1, 2016.
    Disabled veterans, along with their surviving spouses and children, 
depend on their disability and dependency and indemnity compensation to 
bridge the gap of lost earnings and savings caused by service-connected 
injuries and illnesses. Each year, veterans wait anxiously to find out 
if they will receive a cost-of-living adjustment (COLA). There is no 
automatic trigger that increases these forms of compensation for 
veterans and their dependents. Annually, veterans wait for a separate 
Act of Congress to provide the same adjustment that is automatically 
granted to Social Security beneficiaries.
    The VFW thanks the Committee for providing veterans the opportunity 
to receive their full COLA increase, by not including a ``round down,'' 
which is nothing more than a money-saving gimmick that asked veterans 
and their survivors to bear the burden of budget austerity measures.
s. 3035, maximizing efficiency and improving access to providers at the 
               department of veterans affairs act of 2016
    The VFW supports this legislation, which would require VA to carry 
out a pilot program to evaluate the efficacy of using medical scribes.
    A recent VA study evaluating common challenges faced by clinicians 
in their day-to-day environments, conducted by VA's Emerging Health 
Technology Service, concluded that burdensome non-clinician-centered 
electronic health care systems have a significant impact on morale and 
retention of VA physicians and the veteran's experience due to reduced 
facetime with providers. This legislation would reduce the time 
physicians spend on the keyboard and maximize face to face time with 
their patients.
    This legislation requires VA to contract with a nongovernmental 
entity that specializes in the collection of medical data and data 
entry into electronic health care records. The VFW urges the Committee 
to require the contractors to undergo training on VA's Computerized 
Patient Record System or the Enterprise Health Management Platform, 
including training on how to research required medical documents, such 
as labs and non-department health care records which have been scanned 
into a veteran's electronic health care record. The ``Day in the Life'' 
assessment determined that searching and navigating disparate data 
systems consumes vast amounts of time that VA clinicians can spend 
interacting with their patients. The VFW believes medical scribes could 
assist VA providers in locating necessary medical records and spend 
less time navigating electronic health care records and more time 
treating veterans.
       s. 3055, department of veterans affairs dental insurance 
                      reauthorization act of 2016
    This legislation would reauthorize the VA Dental Insurance Program 
(VADIP) for five years. While the VFW believes dental must be included 
in the health care benefits package for all veterans enrolled in VA 
health care, we support expanding the current program to ensure current 
beneficiaries do not have a gap in dental coverage.
    Dental care is a vital aspect of general health care. According to 
the Mayo Clinic and a myriad of peer-reviewed medical studies, oral 
health has a direct impact on severe diseases and conditions, such as 
heart disease and adverse birth conditions. Conversely, several health 
conditions which are prevalent among veterans, such as diabetes and 
Alzheimer's disease, have been found to directly impact oral health. 
Until the VADIP was implemented in January 2014, veterans enrolled in 
VA health care had little to no options for receiving dental coverage.
    Additionally, there is a large disparity between VA and DOD dental 
coverage, which can have a significant impact on the health care and 
quality of life for veterans. While in uniform, veterans were required 
to maintain a high level of dental readiness, to the extent that they 
would be placed on a non-deployable status if they failed to receive a 
dental evaluation every year. However, only veterans who were 100 
percent service-connected disabled, certain homeless veterans, and 
those who had a service-connected dental condition were eligible for VA 
dental care.
    While the VADIP provides dental care options for 100,000 veterans 
and their eligible families, VFW members consider this program as 
``better than nothing.'' The VFW believes veterans have earned and 
deserve the best, not ``better than nothing.'' According to VFW members 
who have used or currently use this program, it provides lower coverage 
for higher costs than most dental plans, including dental plans 
available through TRICARE and the Affordable Care Act health care 
exchanges. Like many of my peers, I decided to terminate my VADIP 
coverage as soon as I became eligible for the VFW's dental coverage. I 
now pay lower monthly premiums and cost shares and have better dental 
coverage than when I participated in the Delta Dental's Comprehensive 
VADIP plan, which is the highest plan Delta Dental offers under the 
VADIP contract.
    However, similarly to the 100,000 veterans and eligible family 
members who participate in the VADIP, my dental records are not 
integrated into my VA electronic health care record. Thus, VA health 
care providers are unable to determine whether veterans who participate 
in the VADIP have dental conditions that may impact their overall 
health care conditions. Such disparate care could have a negative 
impact on the health care and quality of life of the veterans who 
participate in the VADIP program. That is why the VFW fully supports 
expanding eligibility for VA dental care to all veterans who are 
eligible for VA health care. Doing so would ensure veterans have access 
to needed dental care without having to bear the full cost of such 
care.
    The VFW understands the need for some form of dental coverage while 
Congress and VA work to expand VA dental care, thus we support 
expanding the current program for an additional five years to allow VA 
to rebid the contract and hopefully negotiate better coverage options 
than the current contract.
         s. 3076, charles duncan buried with honor act of 2016
    The VFW support this legislation, which would ensure deceased 
veterans without a next of kin who are buried in a state or tribal 
cemetery receive the same benefits as those buried in a national 
cemetery.
    The National Cemetery Administration's (NCA) strategic goal is for 
96 percent of all veterans to have interment options within 75 miles of 
their home. This includes viable burial options at cemeteries that have 
been built, expanded, or improved through NCA cemetery grants.
    When the demand exists, NCA proposes the construction of new 
national cemeteries. However, NCA also uses agreements and grants with 
states, United States territories and federally recognized tribal 
organizations to establish, expand, or improve veterans' cemeteries in 
areas where NCA has no plans to build or maintain a national cemetery. 
Cemeteries assisted by an NCA grant are required to be exclusively 
reserved for veterans and eligible family members and maintained by the 
same standards as an NCA managed national cemetery----meaning that 
veterans interred in NCA assisted state, territorial, or tribal 
cemeteries must be afforded the same honors as those interred in a 
national cemetery.
    However, VA can only furnish a casket or urn for veterans without a 
next of kin and without the means to purchase a casket or urn who are 
buried in a national cemetery. This bill would rightfully extend the 
right to a dignified burial to veterans who are buried or inurned in a 
tribal or state cemetery.
                          s. 3081, wingman act
    The VFW does not support this legislation at this time. While we 
agree there should be a more efficient way for congressional 
constituent services staff to assist veterans, there are current 
controls in place to limit access to veterans' records, and those 
controls must be preserved under any expansion of access.
    The VFW would insist that a release must still be signed before any 
access to records can be granted. There must be a limitation on access 
to only veterans who are constituents of the Member of Congress. When a 
Power of Attorney (POA) is held by an individual or organization, that 
POA must be notified of the request. Any ``accredited'' congressional 
employee must be viewed as an ``agent'' regardless of that employee's 
status with a State Bar Association. This will ensure the employee's 
certification includes passing a certification test. Currently, VA 
provides background checks at no cost to Veterans Service 
Organizations. If this will also be the case with accredited employees, 
funding must be provided. If the intent is for congressional offices to 
reimburse VA for the cost of such background checks, it must be 
explicitly defined in legislation.
    Under current law, there are level-sensitive restrictions on most 
VA employees, preventing them from viewing certain files without 
expressed consent. These restrictions must extend to these accredited 
employees as well. Last, VA must have a tracking system to ensure these 
employees are only assisting their congressional constituents. 
Additionally, there must be a consequence for congressional staff found 
to have abused any aspect of their authority.
                            discussion draft
To clarify the scope of procedural rights of members of the uniformed 
        services with respect to their employment and reemployment 
        rights, to improve the enforcement of such employment and 
        reemployment rights, and for other purposes.
    When servicemembers receive orders to deploy or for active duty 
responsibilities, they should not be burdened with the stress factor of 
not knowing if they will still be employed when they return home. 
Unfortunately, some employers have found ways to avoid current law 
protecting veterans from repercussions from job providers due to 
completion of orders. The VFW supports this legislation to protect 
employment rights of servicemembers by closing legal loopholes some 
employers have chosen to exploit. More specifically, this would allow 
servicemembers who signed forced arbitration agreements with their 
employers to not forgo their work contract, but still be able to void 
any forced arbitration written in. Also, if investigating attorneys 
general find wrongdoings by employers trying to evade the Uniformed 
Services Employment and Reemployment Act of 1994, this legislation lays 
out the groundwork for appropriate damages and compensation of 
servicemembers. Employers should not be able to require servicemembers 
to forgo their rights as a condition of employment. Those affected by 
this injustice should have the option to void this portion of these 
contracts, as well as receive compensation for punitive damages.
                               draft bill
To expand eligibility for readjustment counseling to certain members of 
        the Selected Reserve of the Armed Forces.
    This legislation would expand eligibility for Vet Centers to 
members of the Selected Reserve who have not deployed in support of 
combat operations. While the VFW acknowledges the need for more mental 
health care and services for our Guard and Reserve servicemembers, we 
cannot support expanding Vet Center eligibility to non-combat veterans.
    Vet Centers have a sacred mission to assist combat veterans in 
coping with their experiences at war. These veterans face readjustment 
issues and concerns that are not faced by their non-combat veteran 
peers, and necessitates the confidential and high quality services 
provided at Vet Centers--especially servicemembers who are still in 
uniform and fear seeking mental health care could impact their careers. 
That is why the VFW has supported efforts to expand eligibility to 
servicemembers, including Guardsmen and Reservists, who have deployed 
to combat zones.
    The VFW agrees that suicide rates in our Armed Forces are equally 
as troubling as veteran suicides. While the DOD's suicide prevention 
programs have successfully reduced the rate of suicides among our 
active duty forces, it has not be able to replicate such efforts with 
its reserve components. Recent data from the Defense Suicide Prevention 
Office shows an increase in the number of suicides among Guardsmen and 
Reservists in the past year. This is due in large part to the fact that 
Guard and Reserve units often operate in rural and remote areas, 
without access to military treatment facilities. To address this need, 
the VFW urges Congress and DOD to devote more effort and resources to 
combat the rate of suicides among DOD's reserve components. To assist 
DOD in reducing the rate of suicide among Guardsmen and Reservists, the 
VFW would support authorizing DOD to enter into sharing agreements with 
VA to provide mental health care to Guard and Reserve servicemembers 
who live too far from a military treatment facility, but near a VA 
medical facility with excess mental health care capacity. To be clear, 
such agreements must not limit or erode the mental health care and 
services VA provides eligible veterans.
                           draft legislation
To authorize payment by the Department of Veterans Affairs for the 
        costs associated with services by medical residents and interns 
        at facilities operated by Indian tribes and tribal 
        organization.
    The VFW supports this legislation, which would expand partnership 
opportunities with medical facilities administered by tribal 
organizations.
    For more than 75 years, VA has partnered with medical schools 
around the country to train and teach America's health care workforce. 
This legislation would require VA to establish a pilot program to 
evaluate the feasibility of developing similar relationships with 
tribal health care facilities to incentivize health care professionals 
to practice medicine in tribal areas. The VFW believes this legislation 
would expand access to high quality care to our Native American 
veterans.
                            discussion draft
To authorize the American Battle Monuments Commission to acquire, 
        operate and maintain the Lafayette Escadrille Memorial in 
        Marne-la-Coquette, France.
    The Lafayette Escadrille Memorial was built to honor U.S. pilots 
who flew combat missions with the French military prior to U.S. entry 
into WWI. As a result of the reduction in funds available through the 
Lafayette Escadrille Memorial Foundation, the memorial has fallen into 
a state of disrepair. To supplement the depleted foundation, the 
American Battle Monuments Commission (ABMC) provided $2.1 million to 
the project. However, a long-term care plan for this important monument 
is still uncertain. To ensure the memorial receives the care and 
recognition it deserves, the VFW supports placing it under the care of 
the ABMC.

    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions you or the Committee members may have.

    Chairman Isakson. Thank you, Mr. Fuentes. We appreciate 
your testimony.
    Mr. Rick Weidman, Executive Director for Policy and 
Government Affairs, VVA.

 STATEMENT OF RICK WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
        GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Thank you, Mr. Chairman. I appreciate the 
opportunity for VBA to share some of our views today.
    S. 244, Senator Tester's bill, we would strongly endorse 
that. One of the problems that VA has always had is consistency 
across the board and working to do quality assurance of every 
VA hospital. It is no different in this case than anything 
else. One of the things we would point out, however, that has 
never been mentioned by VA, is nobody ever tested previous 
generations of veterans no matter what other symptoms they 
might have. Vietnam veterans were subject to the same kinds of 
explosions as those of the more recent wars.
    The Rural Veterans Travel Enhancement Act, we are very 
strongly for. The Veterans' Partners Efforts to Enhance 
Reintegration Act, Senator Blumenthal's bill and others, we are 
strongly in favor of a patient having the peer review--excuse 
me--having the peer specialists but think it should not end 
there. There should be a ladder for young veterans to move up 
into any medical profession without regard to cost, even if 
they do not have available the 21st Century G.I. Bill, on a 
condition that they give back at least year for year in 
tuition. We are going to have to do many imaginative things in 
the next 10 years. Otherwise, we are not going to have the 
clinical resources we need to operate the system properly.
    In regard to the Atomic Veterans Health Care Parity Act, I 
would respectfully strongly disagree with the VA on this. I 
would point out that the VA has been wrong about every single 
darn toxic exposure in my adult lifetime. They are always 
wrong. They always say there is no problem. They always say, do 
not worry about it, and almost invariably, they are proven 
wrong. So, this bill is very much needed and we need to look at 
the whole area of VA of toxic exposures and what is happening 
with staff there and with policy about how they are carrying it 
out, because it is not right, what they are doing.
    Senator Fischer's bill, we have always been--VVA has been 
strongly in favor of giving as much private capital into the 
game as possible, particularly when it comes to capital 
construction, and think we should look not only to Senator 
Fischer's bill, but look to do the same when it comes to 
housing and permanent housing as well as transition housing for 
homeless veterans.
    S. 3021, we will take the Senator at his word that this is 
a great outfit, but it needs monitoring, and particularly if 
people want to do the same thing elsewhere.
    The Arla Harrell Act by Senator McCaskill, this is yet 
another place where we need to look hard and, frankly, do not 
trust VA's judgment when it comes to whether or not these 
veterans have been affected adversely, either, and it is 
something that oversight really needs to look closely at, Mr. 
Chairman. I am not sure what we do about that bill, or about 
that problem systemically, but I know it systemically needs to 
be adjusted, because the one thing that will be a constant from 
now until long after we are gone is toxic exposures of our 
military forces of one kind or another and we need to start to 
figure out how to do a better job and not just the answer of 
``no'' and ``no problem.''
    The Veterans Compensation Cost of Living Act--frankly, we 
think the Consumer Price Index (CPI) is busted, and anybody who 
looks at what the CPI says about advance increases for the cost 
of living and then looks at their own household budget does not 
have any respect for it because it does not square with the 
reality that people see in front of them. So, while that is 
bigger than this Committee, to have compensation cost of living 
indexed to the CPI is always going to fall short on the part of 
our veterans.
    The dental insurance, we are in favor of it, since Congress 
has thus far been reluctant to move in that direction and VA 
just says no. But, frankly, VVA agrees with the VFW on this 
issue. We are long past the time when we consider dental health 
a frill and it is essential to health and moving forward.
    I do not have time to comment on the other bills, but the 
Integrate Networks Guaranteeing Member Access, we have 
significant problems with and we will be happy to discuss it 
with Senator Cassidy and his staff.
    Mr. Chairman, thank you for the opportunity to speak here 
today.
    [The prepared statement of Mr. Weidman follows:]
 Prepared Statement of Richard Weidman, Executive Director, Policy and 
            Government Affairs, Vietnam Veterans of America
    Good afternoon Chairman Isakson, Ranking Member Blumenthal, and 
other distinguished Members of the Senate Veterans' Affairs Committee. 
On behalf of the members of Vietnam Veterans of America [VVA] and our 
families, we very much appreciate the opportunity to express our views 
regarding legislation pending before this very vital committee.

    S. 244, introduced by Senator Tester, would require an independent 
and comprehensive review of the process by which the Department of 
Veterans Affairs assesses cognitive impairments that result from 
Traumatic Brain Injury for purposes of awarding disability 
compensation.
    It is our understanding that troops who have returned from 
deployments to Iraq and/or Afghanistan and who have sought disability 
compensation from the VA receive varying clinical assessments for the 
same injury, assessments which, obviously, affect the award of 
disability compensation from the VA. This bill would--at least it 
should--set the stage for determining if what VA clinicians are doing 
is consistent, and equitable, across the board and, if not, what the VA 
must do to rectify this situation.
    VVA strongly supports enactment of S. 244.

    S. 603, the Rural Veterans Travel Enhancement Act, introduced by 
Senators Tester and Murray, would make permanent the authority of the 
Secretary of Veterans Affairs to transport individuals to and from VA 
in conjunction with rehabilitation, counseling, examination, treatment, 
and care.
    There is nothing not to like about S. 603; in fact, what it calls 
for should continue to be standard operating procedure for every VA 
healthcare facility. Therefore, VVA supports enactment of S. 603.

    S. 2210, the Veteran Partners' Efforts to Enhance Reintegration 
Act, introduced by Senator Blumenthal for himself and Senators Baldwin 
and Markey, would require the VA Secretary to carry out a program to 
establish peer specialists in the Patient Aligned Care Teams at VA 
medical centers. The bill stipulates that female peer specialists must 
be included in this program.
    The purpose of the PEER Act, which is essentially a pilot program, 
is ``to promote the use and integration of mental health services in a 
primary care setting.'' Because we believe that enactment and 
implementation of this bill can lead to a significant advancement in 
melding mental with physical health services, VVA fully supports the 
passage of the PEER Act.

    S. 2279, the Veterans Health Care Staffing Improvement Act, a 
bipartisan bill introduced by Senator Merkley along with Senators 
Brown, Rounds, Shaheen, Tester, Warner, Wyden, and Tillis, would 
require the SecVA to initiate and carry out a program to increase 
efficiency in the recruitment and hiring by the VA of health care 
workers in the process of exiting from the Armed Forces; and would 
create uniform credentialing standards for certain health care 
professionals in the department.
    It certainly is no secret that the VA is in dire need of additional 
medical professionals to handle an increasing demand for the healthcare 
services it provides eligible veterans. The unfilled vacancies for 
these clinicians in VAMCs and CBOCS across the country is a prime 
reason that VA personnel cut corners by finagling appointments with 
both primary care clinicians and specialists.
    VVA has long believed that the VA must do more--a lot more--to 
attract and retain health care workers leaving active duty to ``sign 
on'' with the VA.
    While we have long urged VA to do a much better job of recruiting 
and hiring physicians, as well as all of the allied health care 
professionals.

    S. 2316, introduced by Senator Blumenthal for himself and Senators 
Moran and Brown, would ``expand the requirements for reissuance of 
veterans' benefits in cases of misuse of benefits by certain 
fiduciaries to include misuse by all fiduciaries, [and] to improve 
oversight of fiduciaries.''
    Fiduciaries have what we consider to be a sacred obligation to 
assist honestly and transparently the veterans whose financial 
interests they take responsibility for. Unfortunately, there are some 
who are entrusted with this charge who are neither honest nor 
transparent, who in essence betray the veterans whom they represent.
    Because S. 2316 will give the VA Secretary the legal authority to 
reimburse veterans who have been ripped off by their fiduciary, as well 
as additional oversight powers to help ensure the honesty and integrity 
of fiduciaries, VVA enthusiastically supports enactment of this bill.

    S. 2791, the Atomic Veterans Healthcare Parity Act, introduced by 
Senators Franken and Tillis, would provide for the treatment of 
radiation-exposed veterans who participated in the cleanup of Eniwetok 
Atoll for purposes of the presumption of service-connection for certain 
disabilities.
    Far too many veterans who have been exposed to radiation and other 
toxic substances in the performance of their duties while in uniform 
have been denied healthcare benefits and disability compensation by the 
VA. Why? Because they cannot show a nexus between their exposure(s) and 
particular health conditions that erupt years after exposure.
    VVA supports enactment of this bill. Although S. 2791 is focused on 
a relatively small group of veterans who participated in the cleanup of 
Eniwetok Atoll between January 1, 1977, and December 31, 1980, we 
remind the honorable Members of this Committee that other veterans are 
suffering from a variety of maladies that can be associated with their 
exposure to toxic substances while in uniform; and that the progeny of 
many of these veterans have health conditions that may be caused by a 
parent's exposure to certain toxins; and that they, too, need 
additional protections under the law to access healthcare and 
disability compensation. Hence, we make a plea to those who serve on 
this most important committee to insist that S. 901, the Toxic Exposure 
Research Act, be voted upon by the whole Senate.

    S. 2958, introduced by Senator Fischer, would establish a pilot 
program on partnership agreements to construct new facilities for the 
Department of Veterans Affairs.
    Although we do not object to this pilot program, we question why it 
is limited to ``not more than five partnership agreements.''
    So, if this distinguished committee sees the wisdom of voting for 
the enactment of S. 2958, VVA would support this bill.

    S. 3021, introduced by Senators Inhofe and Lankford, would 
authorize the use of Post-9/11 Educational Assistance for independent 
study programs at certain institutions that are not institutions of 
higher learning.
    VVA has little doubt that the sponsors have in mind a particular 
institution in the state that they represent that will benefit from the 
enactment of this bill. Still, if a veteran can improve his/her chances 
to achieve their American Dream, and if any ``educational institution'' 
that stands to benefit should this bill become law is legitimate and 
not one of the predatory institutions--most of which are colleges whose 
bottom line is profit and not the education of the students they 
ostensibly serve--then we may be able to endorse the enactment of 
S. 3021 in the future.

    S. 3023, the Arla Harrell Act, introduced by Senator McCaskill, 
would provide for the reconsideration of claims for disability 
compensation for veterans who were the subjects of experiments by the 
Department of Defense during the Second World War that were conducted 
to assess the effects of mustard gas or Lewisite on humans.
    There are not many of the 60,000 or so veterans left who 
participated in these experiments. Still, because they are deserving of 
a measure of justice long denied them, VVA strongly supports passage of 
this bill, and thanks Senator McCaskill for taking the lead on 
ameliorating this historic wrong.

    S. 3032, the Veterans' Compensation Cost-of-Living Adjustment Act 
of 2016, introduced by Chairman Isakson, Ranking Member Blumenthal, and 
most of the Members of this Committee, would provide for an increase, 
effective December 1, 2016, in the rates of compensation for veterans 
with service-connected disabilities and the rates of dependency and 
indemnity compensation for the survivors of certain disabled veterans.
    VVA of course joins in the chorus of support for passage of this 
bill. We would like to see, however, that the compensation adjustment 
for service-connected disabilities not be an annual affair but rather 
be added to black-letter law in perpetuity.

    S. 3035, Maximizing Efficiency and Improving Access to Providers at 
the Department of Veterans Affairs Act, introduced by Senators Heller 
and Tester, would require the Secretary of Veterans Affairs to carry 
out a pilot program to increase the use of medical scribes to maximize 
the efficiency of physicians at VA medical facilities.
    Instead of clinicians having to type up their notes, conclusions, 
and recommendations for each patient they see, this pilot program would 
test the efficacy of the use of ``medical scribes'' to assist them in 
this ``onerous'' task. Surely, a pilot might be worthy, particularly 
for those clinicians who are not particularly adept at writing and 
those surgeons who, obviously, cannot write up their conclusions in the 
middle of an operation. Yet even if a pilot program illustrated the 
value, however limited or extensive, of the use of such scribes, how 
many would have to be hired and trained across the VA healthcare system 
to be truly effective?
    Hence, VVA supports the concept but we have significant doubts that 
any future Congress will provide significant enough additional 
resources to ever realize the potential impact of this concept.

    S. 3055, the Department of Veterans Affairs Dental Insurance 
Reauthorization Act of 2016, introduced by Senators Burr and Tester, 
would provide a dental insurance plan for veterans and their survivors 
and dependents.
    Although full implementation of such a plan effectively puts the VA 
in the position of becoming an insurance agency, VVA supports the 
passage of S. 3055 because, for many veterans, it may be the insurer of 
last resort. VVA would further argue that dental health care is not a 
``frill,'' but rather an integral part of overall health. If a person's 
dental health is a mess, it should come as no surprise that that 
veteran's overall health is not good.
    Given the reluctance of the Executive branch and the Congress to 
include dental health (with the notable exception of 100% service-
connected disabled veterans and certain veterans who are homeless), 
providing this opportunity to purchase dental insurance through the VA 
is a good alternative.
    Speaking of insurance, the option for those who are 50% or more 
service-connected disabled to buy additional life insurance should be 
extended to the same higher level of insurance as that accorded to 100% 
disabled veterans. This problem of finding affordable life insurance is 
really a significant problem for those who have PTSD as part of their 
service-connected disability rating.

    S. 3076, the Charles Duncan Buried with Honor Act, introduced by 
Senator Cotton, would authorize the SecVA to furnish caskets and urns 
for burial in cemeteries of states and Indian tribes for veterans 
without sufficient resources to provide for caskets or urns.
    Just as the VA provides caskets or urns for the remains of veterans 
to be laid to rest in national cemeteries, this bill would extend this 
service to veterans to be buried in state and Indian cemeteries. As 
such, VVA strongly endorses enactment of this bill.

    S. 3081, the Working to Integrate Networks Guaranteeing Member 
Access Now Act, introduced by Senator Cassidy, would provide certain 
employees of Members of Congress with access to case-tracking 
information of the Department of Veterans Affairs.
    VVA does not advocate for this bill. Will this effectively speed up 
the adjudication of claims? We have our doubts. The VA is obligated to 
provide any Member of Congress who asks with the status of a veteran's 
claim for compensation. To give ``certain employees'' direct access to 
such information, however, opens up the unfortunate possibility that, 
by citing potential outlier cases, just puts the department in a bad 
light and does little to improve the efficiency of the adjudication 
process.

    S.       , introduced by Senator Blumenthal, would clarify the 
scope of procedural rights of members of the uniformed services with 
respect to their employment and reemployment rights, and would improve 
enforcement of these rights.
    Members of the National Guard and the Reserves now comprise just 
about half of the Nation's active duty Armed Forces on any given day. 
Since 9/11, more than 900,000 members of the Reserve components have 
been mobilized in the Global War on Terrorism. Despite the protections 
afforded them under the Uniformed Services Employment and Reemployment 
Rights Act (USERRA), there have been far too many instances in which a 
Reservist or Guardsman returns from a deployment to find that the job 
s/he has left to serve our Nation is no longer there for him/her.
    This is wrong. This is something USERRA has sought to provide 
protection for these Reservists and members of the National Guard. 
Because the Blumenthal bill would strengthen enforcement of USERRA, 
because it would provide additional protections for those who have 
served our Nation in uniform, often at great personal and professional 
cost, VVA supports swift passage of this bill.
    VVA would also urge that USERRA protection be in place from time/
date of the first public knowledge of a deployment of a unit, instead 
of the date the orders are cut for an individual. Some employers are 
currently doing layoffs of workers at the first notice of a unit being 
deployed, which skirts the current law, and leaves these Reservists and 
National Guard members with no protection whatsoever.

    S.       , introduced by Senator Tester, would expand eligibility 
for readjustment counseling to certain members of the Selected Reserve.
    It is only right that those who serve in uniform and who are 
afflicted with ``a behavioral health condition or psychological 
trauma'' ought to be able to avail themselves of the readjustment 
counseling available in the VA's Vet Centers. Hence, VVA applauds and 
supports the swift enactment of this bill.

    S.       , introduced by Senator Sullivan, would authorize payment 
by the Department of Veterans Affairs for the costs associated with 
service by medical residents and interns at facilities operated by 
Indian tribes and tribal organizations, and would require the Secretary 
to carry out a pilot program to expand medical residencies and 
internships at such facilities.
    It should come as no surprise to anyone that the VA is in need of 
qualified, competent medical professionals. Because this bill has the 
potential of increasing the pool of these clinicians to serve veterans 
enrolled for VA health care, VVA supports enactment of this bill.

    A Discussion Draft, companion legislation to H.R. 5420 introduced 
by HVAC Chairman Miller, would authorize the American Battle Monuments 
Commission to acquire, operate, and maintain the Lafayette Escadrille 
Memorial in Marne-la-Coquette, France.
    Monuments and memorials to our men and women in uniform speak to 
their service and their sacrifices and, in many cases, to their last 
true measure of devotion. If the commission sees a need to take 
responsibility for this memorial, subject ``to the consent of the 
Government of France,'' VVA stands with the commission, and with the 
enactment of this bill.

    Vietnam Veterans of America appreciates the opportunity to present 
our views on this pending legislation before this Committee and will be 
pleased to respond to any question you may have. And we want to thank 
you for the work you do for the Nation's veterans.

    Chairman Isakson. Thank you, Mr. Weidman, very much.
    Kevin Ziober, member of the Reserve Component. Kevin, you 
are welcomed.

                  STATEMENT OF KEVIN ZIOBER, 
                MEMBER OF THE RESERVE COMPONENT

    Mr. Ziober. Mr. Chairman, Ranking Member Blumenthal, thank 
you for this opportunity to testify in support of S. 3042, the 
Justice for Servicemembers Act, and to share my personal views 
and experiences on the importance of strong Uniformed Services 
Employment and Reemployment Rights Act (USERRA) law.
    I applaud Senator Blumenthal for introducing this much 
needed legislation that would clarify that servicemembers and 
veterans cannot waive their substantive or procedural rights 
under USERRA, consistent with the original intent of Congress 
when it enacted USERRA in 1994.
    As a private citizen, a combat veteran and Reservist, I 
stand with the 32 Veterans Service Organizations in the 
military coalition who support this legislation. Without 
USERRA's strong substantive and procedural protections, it 
would be impossible for millions of Americans to serve in the 
Guard and Reserve to help protect our homeland and advance 
America's interests abroad.
    As the Committee is aware, USERRA guarantees servicemembers 
the right to return from their civilian jobs after serving in 
the military and prohibits employment discrimination based on 
military service or status. USERRA makes it possible for 
Reservists like me to serve our Nation in the Armed Forces.
    Several years ago, I lost a job that I loved because I 
chose to serve my country. But sadly, my story is not unique. 
Each year, thousands of Reservists lose their jobs or miss out 
on benefits because employers are not aware of USERRA or they 
find our military service to be inconvenient.
    In July 2010, I was hired by a Federal contractor called 
BLB Resources. From 2010 to 2012, as a manager, I helped BLB 
expand its operations and workforce from 18 employees to over 
90. In November 2012, I received active duty orders to deploy 
to Afghanistan for 12 months. As soon as I learned of the 
upcoming deployment, I gave BLB notice. On my last day of work, 
BLB hosted a lunchtime party to honor my military service. 
Forty coworkers gave me a standing ovation. I was presented 
with a large cake with an American flag and the inscription, 
``Best Wishes Kevin,'' and my colleagues decorated my office 
with camouflage netting along with cards and gifts that were 
stacked on my desk.
    Around 4:45 on that same afternoon, I was called into the 
Human Resources Department, where I was promptly fired and told 
that my position would not be available upon my return from 
active duty. I was shocked to learn that I was being terminated 
from my job on the eve of my deployment to a combat zone. It 
created an unimaginable amount of concern and anxiety about how 
I would earn a living once my military orders had ended.
    Upon returning home from Afghanistan in 2014, I was further 
surprised by what happened when I tried to enforce my rights. 
After I filed a USERRA claim in Federal Court, BLB asked the 
court to compel me to arbitrate my USERRA case and the court 
agreed. This was shocking, because I knew that when Congress 
passed USERRA, it explicitly stated that veterans and 
servicemembers cannot waive any of their rights, that they are 
entitled to enforce their rights in Federal Court, and that 
they cannot be required to arbitrate their claim.
    Fortunately, my story did not end there. I found legal 
advocates who agreed to take my case to the U.S. Court of 
Appeals and, if necessary, to the U.S. Supreme Court. But the 
Nation's highest court should not need to decide whether 
servicemembers can waive their procedural rights under USERRA. 
By passing the Justice for Servicemembers Act now, Congress can 
clarify that all USERRA rights are protected against waiver and 
ensure once and for all that no servicemember is forced to 
choose his USERRA rights and a job that puts food on the table.
    Today, servicemembers face uncertainty when they enforce 
their USERRA rights. In 2005, the Bush administration issued a 
final rule stating that servicemembers cannot be forced to 
arbitrate their USERRA claims. Some courts have faithfully 
followed the intent of Congress on this issue while others have 
not. Due to this split within the courts, it is much harder for 
servicemembers to leave their civilian jobs with confidence 
when they are called to duty because they do not know what to 
expect if they ever need to enforce their USERRA rights.
    When servicemembers are required to arbitrate their USERRA 
claims, they do not just lose the right to file an action in 
court. They also lose many of the enforcement tools that make 
USERRA a strong law, such as the right to file in any district 
where the employer has a place of business, the lack of a 
statute of limitations period, and a ban on making 
servicemembers pay filing fees or an employer's fees and costs.
    By enacting the Justice for Servicemembers Act, Congress 
can send a powerful bipartisan message to all those who have 
served or are thinking about serving in the future. Congress 
can make clear that it understands the challenges we face and 
supports us so that no servicemember or veteran will ever again 
experience what happened to me. No warfighter who is asked to 
leave his job and risk his life for his country should ever 
need to worry about fighting for his job when he returns home.
    Thank you very much for your time and consideration of my 
views. I look forward to answering your questions.
    [The prepared statement of Mr. Ziober follows:]
  Prepared Statement of Kevin Ziober, Member of the Reserve Component

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Isakson. Well, thanks to all of you for your 
testimony.
    I will make a couple of comments probably rather than 
questions. I do have a couple questions, too.
    Comment number 1--and I think Mr. Weidman talked about the 
Consumer Price Index adjustment--Senator Blumenthal and I, 
along with every Member of the Committee, Republican and 
Democrat alike, have cosponsored the cost of living adjustment 
for this year. Your concerns about the calculations of CPI are 
duly noted and I am pleased that we have made it the unanimous 
recommendation of the Senate to adjust compensation wherever it 
is indexable by CPI, and there will be an increase in those 
benefits at the end of this fiscal year for next fiscal year. 
That was approved by everybody on the Committee.
    Second, Mr. Fuentes, as I understood it, you and a number 
of others, the way you read the WINGMAN Act was that it did not 
require a privacy release before the staffer could get the 
information, is that right?
    Mr. Fuentes. That is correct, Mr. Chairman.
    Chairman Isakson. But I also heard you say, if it did 
require the privacy release, you did not have any problem with 
the legislation, is that correct?
    Mr. Fuentes. Well, there are a couple other concerns that 
we have with the legislation, mainly that the restriction 
levels have to apply to Congressional staff, as well, meaning 
that they could only view records for folks for whom they have 
a privacy release from. Also, as a Veterans Service 
Organization, we hold power of attorney for a number of 
veterans and we would like Congressional staff to either 
notify--or VA to notify Veterans Service Organizations of any 
individual that holds a power of attorney for that veteran. And 
I have a couple other ones. Overall, I think there are four 
recommendations that are included in my written testimony.
    Chairman Isakson. We have that, and all that testimony will 
be made a part of the record, without objection.
    Mr. Fuentes. Thank you, Mr. Chairman.
    Chairman Isakson. I had one other point. We will deal with 
each of these pieces of legislation in the near future. As we 
have in the past, this Committee tries to do due diligence to 
the maximum extent possible before we act, just as we did in 
the Veterans First Act, which is a consolidation of 148 
recommendations that came out of Members of this Committee. We 
are looking forward to moving that legislation in the near 
future.
    I want to make an editorial comment and a plea to each of 
your Service Organizations, all of whom have been supportive of 
what we have done with Veterans First, to help continue to 
express that support to members of the U.S. Senate and the U.S. 
House so that we can get that legislation passed.
    With the decision of Loretta Lynch, who is the Attorney 
General of the United States, not to enforce the government's 
position granted to the government under the Veterans Choice 
Act, we have a serious problem of accountability with no remedy 
whatsoever, either from the Secretary or from the Attorney 
General's Office. The Veterans First bill which Senator 
Blumenthal and I worked very hard on, along with every Member 
of the Committee, has a complete, comprehensive accountability 
piece to it. It may not be everything everybody would have 
liked to have had, but it is one heck of a lot better than what 
they have got right now, which is absolutely zero.
    So, help from your organizations to support us with the 
other members of Congress would be greatly appreciated. I thank 
you for your input.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to thank you, Mr. Ziober, for being here and for 
your participation earlier today in support of an event 
spreading awareness and raising concern. I am hoping that we 
will have bipartisan support on this Committee for the USERRA 
clarification that is in the legislation that I have proposed. 
I want to thank all of the Veterans Service Organizations that 
are supporting this measure--in fact, they all are--and I think 
it will make a significant difference in the lives of our 
Reservists and National Guard. I thank you and your attorney 
for being here today.
    Mr. Ziober. Yes, sir. Thank you.
    Senator Blumenthal. I want to thank the other witnesses. I 
appreciated your testimony. In the interests of time, since we 
have a classified briefing ongoing right now, I am going to 
talk to you individually about any questions that I might have. 
You have all been very generous with your time when I do have 
questions, so I thank you very much.
    Thanks, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Blumenthal, and thanks 
to all of you for your attendance today.
    We will stand adjourned.
    [Whereupon, at 4:20 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


             Prepared Statement of Max Cleland, Secretary, 
                  American Battle Monuments Commission
    Thank you for this opportunity to offer written testimony on behalf 
of the proposed legislation to authorize the American Battle Monuments 
Commission to acquire, operate and maintain the Lafayette Escadrille 
Memorial in Marne-la-Coquette, France, a suburb of Paris. We submitted 
this legislative proposal with the concurrence of the Administration, 
following review by the Department of Defense, the Department of 
Veterans Affairs, and other interested agencies.
    The Lafayette Squadron was created on 16 April 1916, one year prior 
to U.S. entry into World War I. Forty-two fliers composed the original 
Escadrille (thirty-eight Americans and four French officers in 
command). As the number of American volunteers grew, Americans flew for 
several French units known collectively as the Lafayette Flying Corps, 
in which 269 fliers served in total. Out of the 269 total American 
volunteers, 68 died in the air war over France. Some of the best known 
fliers were Kiffin Rockwell, Norman Prince, Raoul Lufbery and Eugene 
Jacques Bullard, the only African-American fighter pilot in World War 
I. When the United States entered the war in 1917, most of the 
Escadrille pilots joined the U.S. Air Service, teaching air combat 
tactics to those who followed them to France. The Lafayette Escadrille 
ceased to exist on February 18, 1918 and the U.S. 103d Pursuit Squadron 
took on its symbols and traditions.
    The memorial to these air combat pioneers was constructed in the 
1926-28 period and inaugurated on July 4, 1928. The Lafayette 
Escadrille Memorial is a private memorial about five miles west of 
Paris. It honors these 269 American volunteers who flew for French and 
United States units during the Great War. But it is more than a 
memorial; it is a burial ground. A crypt beneath the memorial contains 
68 sarcophagi, one for each of the 68 Americans of the Lafayette 
Escadrille who died in the skies over France; 49 Americans and two 
French officers rest there in honor today. Seventeen sarcophagi have 
remained empty because either the remains could not be found or were 
transferred.
    ABMC has a history of involvement with the Lafayette Escadrille 
Memorial, approving the Foundation's construction plans in 1924, a 
predicate for any administrative agency of the U.S. Government, such as 
the State Department, to assist the founders. ABMC also managed the 
maintenance of the memorial for the Foundation from 1971 to 1983, using 
Foundation funds under the authority of our Monument Maintenance 
Program. The Foundation ended this arrangement in 1983 and over the 
years the original trust fund established to maintain the memorial 
dwindled and the memorial fell into a state of disrepair. As a World 
War I Centennial initiative, ABMC and the French Ministry of Defense 
partnered with the Foundation to complete a $1.7M restoration project, 
using funds provided by the Foundation, by private donors in the United 
States, and by the French government. The memorial was rededicated on a 
beautiful spring day in Paris, on the occasion of the Centennial 
Anniversary of the Escadrille's establishment on April 20, 1916. It 
again stands as a beautiful tribute to service and sacrifice, but the 
Foundation is no longer able to maintain the memorial to a standard 
commensurate to the American sacrifice it honors.
    It is time to bring the memorial and the pioneering airmen buried 
beneath it under the perpetual care of the U.S. Government. There are 
several compelling reasons to do so.

    1. The vision for the Lafayette Escadrille Memorial was to have the 
American pilots resting together in a memorial that allowed the spirit 
of their enlistment to live on. This spirit reflects the historical 
cooperation between the United States and France. Just as France came 
to the aid of the United States during our revolution, the United 
States came to France's aid in two world wars. The memorial has become 
an important part of the U.S. Ambassador's Memorial Day commemorations 
and in other ceremonies within the American community, such as the high 
school graduation of the American School of Paris.
    2. Since American participation in World War I began unofficially 
with volunteers in units such as the Lafayette Escadrille, the memorial 
could serve as a point-of-entry for ABMC's World War I interpretation 
efforts. Its location near Paris facilitates that purpose.
    3. The U.S. Air Force considers the Lafayette Escadrille to be an 
important part of its tactical origins. The Air Force ties it history 
to the American men who flew with that unit and later joined the U.S. 
Air Service. The American pilots of the Lafayette Escadrille were 
combat veterans, whose wartime experiences were extremely valuable to 
the newly-arrived American units and the development of combat tactics 
within the Air Service. The Marine Corps considers Belleau Wood, which 
is part of the Aisne-Marne American Cemetery, to be an important part 
of its heritage. The continued support of the Marine Corps and its 
active participation at Memorial Day ceremonies is a highlight for 
Aisne-Marne and ABMC. The Lafayette Escadrille Memorial will serve a 
similar purpose for the Air Force.
    4. Most importantly it's the right thing to do. The Foundation 
passed a resolution approving transfer to ABMC of full legal title to 
the memorial site, including the land, memorial, crypt and caretaker's 
cottage, by gift or in exchange for symbolic consideration. We have 
assurances that the French government is prepared to incorporate the 
Memorial into the bilateral treaty granting the U.S. perpetual use of 
French lands, at no cost or taxation, for the commemorative cemeteries 
and memorials that ABMC maintains in France. Representatives of the 
French Ministries of Defense and Interior sit on the LEM Foundation 
Board and voted to approve the Foundation resolution.

    With the concurrence of the Foundation and the Government of 
France, it is appropriate that ABMC, on behalf of the American people, 
assume responsibility for preserving and protecting in perpetuity this 
memorial tribute and final resting place for pioneering combat Airmen 
who gave their lives in one of the most pivotal wars of the twentieth 
century. ABMC will incur no costs to acquire or transfer the memorial. 
The Commission will operate and maintain the memorial within existing 
appropriations.

    Mr. Chairman, the American Battle Monuments Commission appreciates 
very much the Committee's support of our sacred mission. We believe it 
is time for the Lafayette Escadrille Memorial to become an important 
and significant addition to that mission, so that, in the words of 
General John J. Pershing, Commander of the World War I American 
Expeditionary Forces and our first Chairman, ``Time Will Not Dim the 
Glory of Their Deeds.''
                                 ______
                                 
Prepared Statement of LeAnn Wilson, Executive Director, Association for 
                     Career and Technical Education

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Letter from Thomas S. Kahn, Director, Legislative Affairs, American 
              Federation of Government Employees, AFL-CIO

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Amy Webb, Legislative Policy Advisor, AMVETS
    Chairman Isakson, Ranking Member Blumenthal, and distinguished 
Members of the Committee: Since 1944, AMVETS (American Veterans) has 
been one of the largest congressionally-chartered veterans' service 
organizations in the United States and includes members from each 
branch of the military, including the National Guard, Reserves, and 
Merchant Marine. We provide support for the active military and all 
veterans in procuring their earned entitlements, and appreciate the 
opportunity to present our views on the pending legislation being 
considered today.
 s. 244--a bill to require an independent comprehensive review of the 
process by which the department of veterans affairs assesses cognitive 
  impairments that result from traumatic brain injury for purposes of 
       awarding disability compensation, and for other purposes.
    This measure would require an agreement between the VA Secretary 
and the Institute of Medicine (IOM) for the performance of an 
independent comprehensive review of Department of Veterans Affairs (VA) 
examinations that assess cognitive impairments of those who submit VA 
disability compensation claims for Traumatic Brain Injury (TBI).
    The goals of the comprehensive review would be to determine the 
adequacy of the tools and protocols used by VA in providing cognitive 
examinations, and to study the credentials necessary for health care 
providers to perform assessments of cognitive function. The IOM would 
convene a group of experts in clinical neuropsychology and other 
related disciplines to carry out the wide-ranging review.
    Within 540 days of the agreement, the Secretary would submit a 
report to Congress outlining the IOM findings and recommendations for 
legislative or administrative action required to improve the 
adjudication of TBI claims.
    If an acceptable agreement between the Secretary and the IOM were 
unable to be reached, the Secretary would make an agreement with 
another organization that is not part of the Government, operates as a 
not-for-profit entity, and has expertise and objectivity comparable to 
that of the Institute of Medicine. In this case, any reference in the 
bill to the IOM would be treated as a reference to the other 
organization.
    It seems prescient that Senator Tester introduced this bill almost 
a year and a half prior to the recent VA news that Secretary McDonald 
has granted equitable relief to more than 24,000 veterans who received 
VA medical exams processed between 2007 and 2015 related to disability 
compensation claims for TBI. This group of veterans whose first TBI 
examination was not performed by one of four medical specialists 
qualified to diagnose the condition, now has the option to receive a 
new exam.
    The Secretary noted in the VA News Release that, ``We let these 
veterans down,'' and that VA was taking every step to ensure this group 
of veterans receives the full benefits they are entitled to. AMVETS is 
encouraged that VA publicly admitted the inconsistencies and mistakes 
made from 2007 to 2015, and that it believes the current TBI policy is 
clear and being followed.
    AMVETS supports this measure pursuant to our National Resolution on 
Traumatic Brain Injuries, and supports the additional oversight from an 
independent entity such as the IOM to ensure that there are vetted 
protocols in place with the correct type of physician for this type of 
diagnosis, which can be nuanced.
         s. 603--rural veterans travel enhancement act of 2015
    Section 2 of this Act would make permanent the authority of the 
Department of Veterans Affairs (VA) to transport individuals to and 
from VA facilities in connection with rehabilitation, counseling, 
examination, treatment, and care.
    Section 3 would include Vet Centers as VA facilities for the 
purpose of providing payment of actual expenses of travel, or allowance 
for travel, to or from a VA facility. A Vet Center is defined as a 
center for readjustment counseling and related mental health services, 
and the travel reimbursement allowed for under this new subsection 
would begin on or after the date of enactment.
    Section 4 would amend Section 307(d) of Public Law 111-163 to 
reauthorize grants for veterans' service organizations to provide 
transportation of highly rural veterans to and from VA facilities for 
appointments through 2020.
    AMVETS supports this Act based on our National Resolution for 
Services for Rural & Remote Veteran Populations which urges an increase 
of the travel reimbursement allowance to the actual cost of expenses. 
We are particularly pleased with the inclusion of Vet Centers as VA 
facilities, and support making the authority permanent for VA to 
provide transportation to and from medical facilities as well as 
reauthorizing the grants for VSOs to continue providing rides to 
veterans in highly rural areas. This transportation assistance can 
literally save lives, and AMVETS supports that this Act increases 
veterans' access to physical and mental health care.
 s. 2210--veteran partners' efforts to enhance reintegration (peer) act
    The PEER Act would establish a peer specialist program in patient 
aligned care teams (PACTs) at medical centers of the Department of 
Veterans Affairs (VA) to promote the use and integration of mental 
health services in a primary care setting. This would occur in at least 
ten VA medical centers within 180 days after date of enactment. Within 
two years of enactment peer specialists in PACTs would be present in at 
least twenty-five VA medical centers.
    The selection of medical centers would represent a balance of 
geographic locations; at least five medical centers that specialize in 
polytrauma and at least ten that do not; those in rural and underserved 
areas; and those not in close proximity to an active duty military 
installation.
    Each location selected would ensure that the needs of women 
veterans were specifically considered and addressed, and female peer 
specialists would be included in the program.
    Within 180 days of enactment, and at least once every following 180 
days until the program was fully implemented, the Secretary would 
submit a report to Congress detailing findings, conclusions, and an 
assessment of the benefits to veterans and their family members. Within 
180 days of the last location being selected, the Secretary would 
submit an additional report to Congress containing recommendations on 
the feasibility and advisability of expanding the program to additional 
locations.
    Peer specialists are noted for being engaged in their own recovery, 
and who provide peer support services to others engaged in mental 
health treatment. AMVETS supports the integration of mental health 
services into primary care, and also the patient-centric approach of 
the PACT model of care. Peer Specialist delivered interventions have 
been shown to improve patient activation in multiple studies. It is 
also important that women veterans receive access to care that 
specifically addresses their needs.
    AMVETS has a National Resolution on Mental Health Care Services and 
supports the PEER Act, but notes that in August 2014, the White House 
issued an Executive Action mandating that twenty-five VA medical 
centers place Peer Specialists on Primary Care Teams. An update from 
VA's Office of Research and Development, in collaboration with the 
National Center for Health Promotion and Disease Prevention, shows that 
the, ``Evaluation of Peer Specialists on VA PACTs (Peers on PACT)'' 
officially began in January 2016, final data is projected to be 
collected in January 2018, and in September 2019 the study and findings 
are expected to be complete.
         s. 2279--veterans health care staffing improvement act
    Section 2 of this Act would require the Secretaries of Defense and 
Veterans Affairs to develop a ``Docs-to-Doctors Program'' aimed at 
recruiting those separating honorably from the Armed Forces and 
Reserves who have served in a health care capacity. Individuals in 
veteran status would be included if separation occurred during the 
period outlined.
    At least once a year the Secretary of Defense would submit a 
recruitment list to the Secretary of Veterans Affairs which would 
include, as available, contact information; military rank at 
separation; and a description of health care experience including any 
relevant credential, certificate, certification, or license.
    The Secretaries would work to resolve barriers related to 
credentialing or to specific hiring rules, procedures, and processes of 
the Department of Veterans Affairs (VA) that would potentially delay or 
prevent a qualified person's hiring, including reconciling different 
credentialing processes and standards between the VA and the Department 
of Defense.
    If the VA Secretary determined that a barrier was unable to be 
resolved, within 90 days a report would be submitted to Congress 
detailing recommendations for legislative and administrative action 
suitable to resolve the issue.
    Section 3 of this Act would implement a uniform credentialing 
process for each position held by Veterans Health Administration 
employees within one year of enactment.
    If a VA employee was credentialed under this section for purposes 
of practicing in a VA location, the credential would be sufficient for 
any VA location. VA would provide for renewal of credentials, which 
would not be required solely because an employee moved from one VA 
facility to another.
    Section 4 of this Act would provide full practice authority to 
advanced practice registered nurses (APRNs), physician assistants 
(PAs), and other licensed VA health care professionals as considered 
appropriate consistent with their education, training, and 
certification. Full practice authority would be provided without state 
limitations that would otherwise be imposed.
    All three sections of this Act support VA recruitment and 
retention. In the past, AMVETS has stated that VA must improve its 
recruitment, hiring and retention policies to ensure the timely 
delivery of high quality healthcare to our veterans. We appreciate the 
intent of this Act which works toward this goal.
    AMVETS has a National Resolution supporting Civilian Credentials 
for Military Training & Experience, and believes as a nation we need to 
be prepared to do our part to assist transitioning servicemembers 
obtain living-wage employment opportunities based on the experience and 
skills they developed in the military. We note that Section 2 pertains 
just to the medical field, and while AMVETS would hope that a broader 
measure would include all types of military occupation specialties for 
work inside and outside the VA, we do not oppose this program since the 
end result would be excellent providers of medical care inside VA, and 
quality treatment of veterans who receive VA medical care.
    AMVETS supports providing full practice authority to advanced 
practice registered nurses (APRNs), physician assistants (PAs), and 
other licensed VA health care professionals to allow them to provide 
care to the full extent of their training. VA has an access to care 
issue. This is a zero cost solution that would provide veterans with 
the access, continuity and quality of care, and reduce wait times for 
veterans needing care.
    A 2014 Federal Trade Commission report concluded ``that empirical 
research and on-the-ground experience demonstrate that APRNs provide 
safe and effective care within the scope of their training, and 
licensure.'' APRNs are not doctors, nor do they want to be doctors, but 
they are highly trained with more than 97 percent having graduate 
degrees and 99 percent having attained national certifications in 
specialty areas of healthcare. They want to take care of patients and 
they should be allowed to practice to their full scope to the advantage 
of veterans receiving care.
 s. 2316--a bill to expand the requirements for reissuance of veterans 
   benefits in cases of misuse of benefits by certain fiduciaries to 
include misuse by all fiduciaries, to improve oversight of fiduciaries, 
                        and for other purposes.
    S. 2316 authorizes the Department of Veterans Affairs (VA) to 
reissue veterans' benefits to a beneficiary in all cases of fiduciary 
misuse. The VA would pay the beneficiary or the successor fiduciary an 
amount equal to the misused benefits. VA access to fiduciary-held 
financial accounts would be increased and require VA access in order to 
obtain any financial records related to the fiduciary or the 
beneficiary whenever the VA determined that the financial records would 
be beneficial to view for the administration of a VA program, or to 
safeguard the beneficiary's benefits against neglect, misappropriation, 
embezzlement, or fraud.
    AMVETS does not have a National Resolution on this bill, and has 
taken no formal position at this time.
             s. 2791--atomic veterans healthcare parity act
    This act would provide for the treatment of veterans who 
participated in the cleanup of Enewetak Atoll between January 1, 1977 
and December 31, 1980 as radiation exposed veterans for purposes of the 
presumption of Department of Veterans Affairs (VA) service-connection 
for certain disabilities.
    It has been historically documented that from 1946 through the Cold 
War, the U.S. military tested nuclear weapons in the Marshall Islands, 
including detonations over 1,000 times stronger than the atomic bombs 
dropped on Hiroshima and Nagasaki. Radioactive and other fallout 
remained and natives sued the Federal Government in 1962 for 
compensation for losing their homeland, or for its return. In 1977 the 
U.S. military began the clean-up in preparation to return the land to 
Marshall Island natives.
    Approximately 4,000 American servicemen assisted in what became 
known as the Enewetak Radiological Support Project between 1977 and 
1980, working to scrape 73,000 cubic meters of surface soil off six 
different islands on the atoll. They deposited the radioactive soil 
into the Cactus Crater on Runit Island, part of the atoll, and then 
capped the crater with a thick layer of concrete.\1\
---------------------------------------------------------------------------
    \1\ https://marshallislands.llnl.gov/
---------------------------------------------------------------------------
    AMVETS has two National Resolutions addressing toxic wounds, and 
advocating for those who suffer chronic conditions as a result of 
exposure to various contaminants while serving their country remains a 
top priority. The definition of a Toxic Wound is any adverse health 
condition, chronic or terminal, suffered by military personnel 
resulting from, or associated with, exposure to toxic substances or 
environmental hazards during their military service, the effects of 
which may not emerge until months or years after initial exposure.
    The veterans who served as part of the Enewetak Radiological 
Support Project are small in number, and evidence of their exposure to 
contamination is large. AMVETS supports swift passage of this Act.
s. 2958--a bill to establish a pilot program on partnership agreements 
  to construct new facilities for the department of veterans affairs.
    This bill would authorize partnership agreements between Secretary 
of Veterans Affairs and up to five entities defined as a state or local 
authority, a 501c3 nonprofit organization, a limited liability 
corporation, a private entity, a donor or donor group, or any other 
non-Federal Government entity.
    The purpose would be to conduct at least one super construction 
project; major medical facility projects; or major construction 
projects of new cemeteries or to develop additional gravesites or 
columbarium niches at existing cemeteries. Projects selected would 
already be partially funded by Congress or those that the Department of 
Veterans Affairs (VA) identified on the Major Construction Strategic 
Capital Investment Planning priority list. Approved partners would be 
required to enter into a formal agreement with the Secretary to 
independently finance or donate project funds leaving no additional 
cost to the Federal Government.
    The program would fall under Federal laws relating to environmental 
and historic preservation, and the Davis--Bacon Act of 1931 which 
established the requirement for paying the local prevailing wages on 
public works projects for laborers and mechanics.
    One of the five partnership agreements authorized is to design, 
finance, and construct a new ambulatory care center in Omaha, Nebraska.
    The Secretary may contribute up to $56,000,000 for the projects and 
the contribution or liability of the Secretary would not exceed this 
except to the extent that additional funds are appropriated.
    Each partnership agreement would provide that the entity:

    <bullet> Practice due diligence and conduct any necessary 
environmental or historic preservation; comply with local zoning 
requirements except for studies and consultations required of VA under 
Federal law; and obtain any permits required before beginning 
construction.
    <bullet> Use VA construction standards when designing and building 
the project, except to the extent the Secretary determines otherwise.
    <bullet> Establish a Board of Directors to oversee the conduct of 
the project which would be comprised of five to ten members. At least 
one member would be a veteran who is not a VA employee, at least one 
would be a VA employee and function as a nonvoting member of the Board; 
a Chair would be designated to oversee the activities of the Board. All 
current or proposed members of the Board would promptly disclose any 
actual or potential conflicts to the Secretary and would agree to 
remove themselves from Board membership if the Chair and Secretary 
agreed that it was appropriate due to an actual or potential conflict.
    <bullet> Within 180 days of inception of the Board, or another 
timeframe the Secretary approves, a written charter to describe the 
roles, responsibilities, policies, and procedures of operation of the 
Board would be created to ensure successful project management, design, 
construction, and completion of the designated project.
    <bullet> In addition, the Board would be responsible for overseeing 
the activities needed to finance, design, and construct the designated 
project for the Department, and would submit written updates regarding 
the status of the designated project to the Secretary in a manner the 
Secretary specifies.
    <bullet> The Board would defer to the Secretary on all matters 
inherent to the mission and operations of VA, including conditional or 
final acceptance of the designated project.
    <bullet> The Board would not dissolve until after the Secretary 
provided final acceptance of completion of the designated project to 
the Board, plus such additional time or contingencies as the Board and 
the Secretary may jointly approve.

    To be eligible to participate in the program, entities would submit 
a detailed and thorough application to the Secretary to address needs 
relating to VA facilities identified in VA's Construction and Long-
Range Capital Plan.
    The Secretary would include in the budget submitted to Congress by 
the President information regarding any projects conducted under this 
section during the year preceding the submittal of the budget. Each 
report would provide a detailed status of projects, including the 
percentage of completion of the project.
    The Comptroller General of the United States would submit a 
biennial report on the partnership agreements to Congress.
    There are many aspects to this complex bill, and AMVETS does not 
have a formal position at this time.
     s. 3021--a bill to authorize the use of post-9/11 educational 
assistance to pursue independent study programs at certain educational 
       institutions that are not institutions of higher learning.
    This bill would authorize the use of Post-9/11 Educational 
Assistance to pursue independent study programs at certain educational 
institutions that are not institutions of higher learning. The 
independent study program would provide a certificate that reflects 
completion of a course of study, such as an area career or technical 
education school or vocational institution providing education at the 
postsecondary level.
    AMVETS does not have a National Resolution on this measure, but 
favors its passage. It is important that a veteran be able to utilize 
their earned educational assistance to learn a trade or to develop 
skills required for a career that are from facilities other than 
institutes of higher learning.
                     s. 3023--the arla harrell act
    The Arla Harrell Act would require the Secretaries of Defense and 
Veterans Affairs to reconsider all compensation claims related to 
exposure to mustard gas or lewisite during active military, naval, or 
air service during World War II, and make a new determination on claims 
denied before the date of enactment.
    In carrying this out, the Secretaries would determine if a veteran 
experienced full-body exposure to mustard gas or lewisite with a 
presumption that they did, unless it could be proven otherwise. The 
Secretaries would not use information contained in the Department of 
Defense (DOD) and Department of Veterans Affairs (VA) Chemical 
Biological Warfare Data base or any other VA or DOD list of known 
mustard gas or lewisite testing sites as the sole reason for 
determining whether this exposure occurred.
    Within 90 days of enactment, and at least once every 90 days 
thereafter, the VA Secretary would submit a report to Congress 
specifying any reconsidered claims that were denied during the 
preceding 90-days, including the rationale for each denial.
    Within one year of enactment, the Secretaries would jointly 
establish a policy for processing future compensation claims that VA 
determines are in connection with exposure to mustard gas or lewisite 
during active military, naval, or air service during World War II.
    Within than 180 days of enactment, the Secretary of Defense would, 
for purposes of determining whether a site should be added to the list 
of DOD sites where mustard gas or lewisite testing occurred, 
investigate and assess sites where the Army Corps of Engineers 
uncovered evidence of mustard gas or lewisite testing or where more 
than two veterans submitted claims for compensation where claims were 
denied.
    A report to Congress would be required covering experiments 
conducted by the DOD during World War II to assess the effects of 
mustard gas and lewisite on people and would include a list of each 
location where experiments occurred, including locations investigated 
and assessed related to review of claims; the dates of each experiment; 
and the number of members of the Armed Forces who were exposed to 
mustard gas or lewisite in each experiment.
    Within 80 days of enactment, the Secretary of Veterans Affairs 
would investigate and assess the outreach to individuals who had been 
exposed to mustard gas or lewisite in experiments; the claims for 
disability compensation that were filed, and the percentage of such 
claims that were denied. A report to Congress would be required related 
to findings of the investigations and assessments carried out under 
this bill, and a comprehensive list of each location where an 
experiment was conducted.
    According to Senator McCaskill, who AMVETS thanks for introducing 
this legislation, the military has acknowledged for decades that secret 
mustard gas tests were performed on troops at the end of World War II. 
A recent U.S. Senate investigation found that 90 percent of related 
disability compensation claims have been rejected by the Department of 
Veterans Affairs. This is an astounding statistic.
    AMVETS has two National Resolutions addressing toxic wounds, and 
advocating for those who suffer chronic conditions as a result of 
exposure to various contaminants while serving their country remains a 
top priority. The definition of a Toxic Wound is any adverse health 
condition, chronic or terminal, suffered by military personnel 
resulting from, or associated with, exposure to toxic substances or 
environmental hazards during their military service, the effects of 
which may not emerge until months or years after initial exposure.
    AMVETS supports swift passage of the Arla Harrell Act.
s. 3032--veterans' compensation cost-of-living adjustment (cola) act of 
                                  2016
    The COLA Act would provide for an increase in the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans effective December 1, 2016.
    The dollar amounts to be increased would be wartime disability 
compensation, additional compensation for dependents, clothing 
allowance, dependency and indemnity compensation to surviving spouse, 
and to children.
    Each dollar amount would be increased by the same percentage as the 
Social Security Act, effective December 1, 2016.
    The Secretary of Veterans Affairs would publish the amounts 
specified as increased in the Federal Register no later than the date 
on which those pertaining to the Social Security Act are required to be 
published.
    AMVETS supports this COLA Act, and encourages its swift passage.
s. 3035--maximizing efficiency and improving access to providers at the 
               department of veterans affairs act of 2016
    This act would establish an eighteen-month pilot program increasing 
the use of medical scribes to maximize the efficiency of physicians in 
at least five medical facilities of the Department of Veterans Affairs 
(VA). A medical scribe is a member of the medical team trained 
exclusively to perform documentation in an electronic health record to 
maximize productivity of a physician.
    The facilities chosen would have a high volume of patients, or be 
rurally located in areas determined to have a shortage of physicians 
which high caseloads.
    In carrying out the pilot program, the Secretary would enter into a 
contract with one or more appropriate nongovernmental entities that 
train and employ professional medical scribes.
    Data would be collected to determine the effectiveness of the pilot 
program in increasing the efficiency of physicians at VA medical 
facilities and would measure the following, both before and after 
implementation of the program:

    <bullet> The average wait-time for a veteran to receive care from a 
physician.
    <bullet> The average number of patients that such a physician is 
able to see on a daily basis.
    <bullet> The average amount of time such a physician spends on 
documentation on a daily basis.
    <bullet> The satisfaction and retention scores of each such 
physician.
    <bullet> The patient satisfaction scores for each such physician.
    <bullet> The patient satisfaction scores for their health care 
experience.

    Within 180 days after the start of the pilot program, and at least 
once every 180 days thereafter, the Secretary would submit a report to 
Congress including the number of VA medical facilities participating in 
the pilot, and an assessment of the effects that participation has had 
on maximizing the efficiency of physicians; reducing average 
appointment wait times; improving access of patients to electronic 
medical records; mitigating physician shortages by increasing the 
productivity of physicians as well as all of the data collected as part 
of the program. The report would also include recommendations with 
respect to the extension or expansion of the pilot.
    AMVETS does not have a National Resolution on this measure, but 
does not oppose its passage as it relates to increasing a physician's 
patient load with the goal of providing veterans more ready access to 
care.
            s. 3042--justice for servicemembers act of 2016
    As part of the Military Coalition (TMC), which is a consortium of 
uniformed services and veterans' associations representing more than 
5.5 million current and former servicemembers, their families and 
survivors, AMVETS recently signed a strong support letter for this 
bill.
    It was noted that this concise, straightforward bill ensures that 
our servicemembers and veterans can enforce the rights afforded to them 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA).
    Some servicemembers have been unable to exercise their USERRA 
rights due to increased use of forced arbitration clauses. Usually 
presented on a take-it-or-leave-it basis, these clauses preclude access 
to the judicial system and instead funnel servicemembers' employment 
discrimination or wrongful termination USERRA claims into private, 
costly arbitration systems set up by the employers. The ``Justice for 
Servicemembers Act'' gives servicemembers the ability to pursue their 
USERRA claims in court while preserving the option to enter into an 
arbitration agreement after a dispute arises.
    AMVETS supports passage of this important legislation.
       s. 3055--department of veterans affairs dental insurance 
                      reauthorization act of 2016
    This act would provide dental insurance to veterans and survivors 
and dependents of veterans who could enroll on a voluntary basis. This 
beneficiary group is defined as any veteran who is enrolled in the 
Department of Veterans Affairs (VA) system or any survivor or dependent 
of a veteran who is eligible for medical care under section 1781 of 
this title which is:

    <bullet> the spouse or child of a veteran who has a total 
disability, permanent in nature, resulting from a service-connected 
disability,
    <bullet> the surviving spouse or child of a veteran who (A) died as 
a result of a service-connected disability, or (B) at the time of death 
had a total disability permanent in nature, resulting from a service-
connected disability,
    <bullet> the surviving spouse or child of a person who died in the 
active military, naval, or air service in the line of duty and not due 
to such person's own misconduct, and
    <bullet> an individual designated as a primary provider of personal 
care services under the caregiver program who is not entitled to care 
or services under a health-plan contract who are not otherwise eligible 
for medical care under chapter 55 of title 10 (CHAMPUS).

    VA would establish a contract with a dental insurer to administer 
the plan, and provide benefits for dental care and treatment as 
considered appropriate, diagnostic services, preventative services, 
endodontics and other restorative services, surgical services, and 
emergency services.
    Premiums for the dental insurance would adjust annually, and each 
person covered at the time of adjustment would be notified of the new 
amount and effective date. The entire premium would be paid by the 
individuals covered, in addition to the full cost of any copayments.
    Voluntary disenrollment would be allowed if it occurred within 30-
days of enrollment, or in circumstances where disenrollment did not 
jeopardize the fiscal integrity of the dental insurance plan. Such 
circumstances include if an enrollee relocates outside the jurisdiction 
of the dental insurance plan which prevents use of the benefits, or if 
they have a serious medical condition preventing them from obtaining 
benefits. The Secretary would also establish procedures for determining 
permission for voluntary disenrollment in order to ensure timely 
decisions.
    This program would terminate on December 31, 2021.
    AMVETS does not have a National Resolution on this bill, and has 
taken no formal position at this time.
         s. 3076--charles duncan buried with honor act of 2016
    The Charles Duncan Buried with Honor Act would authorize the 
Secretary of Veterans Affairs to furnish caskets and urns for burial in 
cemeteries of states and Indian tribes of veterans without sufficient 
resources to provide for caskets or urns.
    It is noted that in 2013 Congress enacted the ``Dignified Burial 
and Other Veterans' Benefits Improvement Act of 2012'' which authorizes 
the U.S. Department of Veterans Affairs (VA) to furnish a casket or urn 
of such quality as the Secretary considers appropriate for a dignified 
burial in a national cemetery of a deceased eligible veteran who died 
with no known next of kin and without sufficient financial resources to 
furnish a casket or urn. While AMVETS does not have a National 
Resolution on this issue, we support this Act and believe that those 
who serve this country should be provided the dignity of having a 
proper burial if they or their survivors do not have the means to 
provide for a casket or urn.
 s. 3081--working to integrate networks guaranteeing member access now 
                             (wingman) act
    WINGMAN seeks to streamline the benefit claims procedure between 
the Department of Veterans Affairs (VA) and Congressional constituent 
advocates who process claims on behalf of veterans and their families.
    Under WINGMAN, an accredited, permanent Congressional employee 
would have access to electronic Veterans Benefits Administration (VBA) 
records in a read-only fashion in order to review the status of a 
pending claim, medical records, compensation and pension records, 
rating decisions, statement of the case, supplementary statement of the 
case, notice of disagreement, and Form-9 files. This eliminates the 
time-consuming step of using the VA as a middle-man to receive files 
the Congressional employee already has permission to possess.
    AMVETS supports this bill, which is in line with our National 
Resolution addressing the claims and appeals backlog which calls for 
improving the timeliness of all disability claims and appeals, and 
agrees that it is unacceptable for weeks or months pass before 
advocates are able to receive files they requested to help veterans.
 discussion draft to expand eligibility for readjustment counseling to 
      certain members of the selected reserve of the armed forces.
    This bill would allow any member of the Selected Reserve of the 
Armed Forces who has a behavioral health condition or psychological 
trauma to receive counseling provided by the Department of Veterans 
Affairs (VA) which may include a comprehensive individual assessment. 
No patient referral would be required and this would take effect one 
year after date of the enactment Act.
    The Selected Reserve includes the Army, Navy, Air Force, Marine 
Corps and Coast Guard Reserves, and the Army and Air National Guard. 
These groups have served in unprecedented numbers since 2001, and of 
the nearly 2 million Iraq and Afghanistan veterans who have become 
eligible for VA Health Care in that time, nearly 40 percent served in 
the Reserves or National Guard. This group of veterans present with a 
wide range of health conditions, and mental disorders are among the top 
three.
    We must do all that we can to provide access for readjustment 
services and counseling for those who serve in the Armed Forces of the 
United States, to include those in the Selected Reserve. AMVETS has a 
National Resolution on Mental Health Services and supports this draft 
measure.
discussion draft to authorize the american battle monuments commission 
to acquire, operate, and maintain the lafayette escadrille memorial in 
                      marnes-la-coquette, france.
    This bill would authorize the American Battle Monuments Commission 
to acquire, operate, and maintain the Lafayette Escadrille Memorial in 
Marne-la-Coquette, France.
    The Commission would carry out its duties pursuant to an agreement 
with the Lafayette Escadrille Memorial Foundation and would be subject 
to the consent of the Government of France. Additionally, the 
Commission could only employ the personnel needed to carry out this 
Act.
    AMVETS has no National Resolution on this issue, but supports 
passage of this bill and believes that this memorial should be properly 
maintained in honor of the U.S. troops who served in WWI and the forty-
nine American heroes who are entombed at this location.

    Mr. Chairman and Members of the Committee, this concludes my 
testimony and would be happy to answer any questions the Committee may 
have.
                                 ______
                                 
        Prepared Statement of American Public Health Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Joy J. Ilem, National Legislative Director, 
                       Disabled American Veterans
    Thank you for inviting DAV (Disabled American Veterans) to submit 
testimony for the record of this legislative hearing, and to present 
our views on the bills under consideration. As you know, DAV is a non-
profit veterans service organization comprised of 1.3 million wartime 
service-disabled veterans that is dedicated to a single purpose: 
empowering veterans to lead high-quality lives with respect and 
dignity.
 s. 244, to require an independent comprehensive review of the process 
    by which the department of veterans affairs assesses cognitive 
  impairments that result from traumatic brain injury for purposes of 
                    awarding disability compensation
    This measure would require VA to enter into an agreement with the 
Institute of Medicine (IOM) to conduct an independent review of the 
process by which the Department of Veterans Affairs (VA) assesses 
cognitive impairments that result from a Traumatic Brain Injury (TBI) 
for purposes of awarding disability compensation.
    The independent review committee would include a group of experts 
in clinical neuropsychology and other related disciplines and would be 
charged with determining the adequacy of the tools and protocols used 
by VA for examinations relating to assessment of cognitive functions 
and the required credentials of the clinicians who perform such 
examinations. Finally, the bill would allow VA to contract with an 
alternate organization to perform the above mentioned review.
    According to VA, following revision of its Schedule for Rating 
Disabilities addressing neurological conditions and convulsive 
disorders and the related examination protocol for residuals of TBI, 
guidance on using certain clinicians for compensation examinations on 
the residuals of TBI was sent to field operations of the Veterans 
Health Administration (VHA) and Veterans Benefits Administration (VBA).
    VA conducted a review of VHA and contractor examinations for 24,588 
veterans from 2007 through 2015, which revealed psychiatrists, 
physiatrists, neurologists, or neurosurgeons were not accustomed to 
performing initial TBI examinations. Consequently, VA granted equitable 
relief on May 3, 2016, to affected veterans who are invited to exercise 
this remedy to include the ordering of a new initial TBI examination 
with one of the four designated specialists, submission of additional 
supporting evidence, leading to readjudication of the previous claim 
for residuals of TBI using the new examination and evidence.
    DAV has no resolution on this specific issue. Notably however, we 
commend VA for revising its Schedule for Rating Disabilities in order 
to provide more detailed and updated criteria for evaluating residuals 
of TBI. The previous version did not recognize TBI as a signature 
injury of the conflict in Iraq and Afghanistan, and did not properly 
address the needs of a statistically larger number of veterans 
returning from these conflicts with residuals of TBI. In addition, the 
effects of injuries stemming from blasts resulting from roadside 
explosions of improvised explosive devices, which have been common 
sources of injury in these conflicts, appeared to be different from the 
effects of brain trauma observed from other explosive sources.
    VA's new rating schedule for residuals of TBI and corresponding 
examination criteria focuses on three main areas of dysfunction that 
may result from TBI with serious effects: cognitive dysfunction; 
emotional/behavioral dysfunction, and physical dysfunction. However, 
this measure would require the independent review be limited to VA's 
process in assessing only cognitive impairments. This measure, if acted 
on favorably, should include in its requirements the processes of 
assessing physical and emotional/behavioral dysfunction, and that the 
convening groups of subject matter experts established in the bill 
should include individuals in the appropriately related disciplines.
         s. 603, rural veterans travel enhancement act of 2015
    Section 2 of this bill would make permanent the authority set to 
expire December 31, 2016, for VA to operate the Veterans Transportation 
Service (VTS) program. DAV opposes this measure and asks for the 
opportunity to work with the sponsors of this legislation and the 
Committee to find a resolution.
    As the Committee may be aware, our organization began our free 
transportation program in 1987. Since then, the DAV National 
Transportation Network continues to show tremendous growth as an 
indispensable resource for veterans. Across the Nation, 190 DAV 
Hospital Service Coordinators operate nearly 197 active programs, in 
which our volunteer drivers have logged over 24.7 million miles last 
year, providing over 700,000 rides for veterans to and from VA 
healthcare facilities. To date, DAV has purchased and donated 2,967 
vehicles to the VA, at a cost of $65.1 million. The Ford Motor Company 
has also donated 207 vehicles at a cost of over 4.7 million dollars. 
Thus far our vans have carried veterans more than 642 million miles to 
and from their medical appointments.
    The VTS provides an invaluable service in meeting the 
transportation needs of a special subset of the VA patient population 
that the DAV Transportation Network is not equipped to serve--veterans 
in need of special modes of transportation and accommodation due to 
severe disabilities. We believe that with a truly collaborative 
relationship, the DAV Transportation Network and VTS will be able to 
meet the growing transportation needs of ill and injured veterans in a 
cost-effective manner.
    DAV Resolution No. 113 urges the VA to operate an effective and 
efficient transportation program for all service-connected veterans and 
to simplify access to transportation benefits and services so they may 
receive timely and high-quality VA health care, benefits and services. 
Accordingly, we have been working with the VHA Chief Business Office, 
as well as VA medical facilities across the country to resolve 
weaknesses that we have observed in the VTS program, which operates on 
resources that would otherwise go to direct medical care and services 
for veterans.
    As one of the strongest advocates of sufficient and predictable 
funding for VA, we believe these precious resources should be used 
judiciously for ancillary programs to ensure veterans are not denied 
care when they most need it. Ensuring VTS works in concert with other 
existing and emerging transportation resources will help maximize the 
ability of veterans to access VA care while guarding against fraud, 
waste and abuse of these limited resources.
    Section 3 of this bill would require VA to treat Vet Centers as 
department facilities in connection with payments for beneficiary 
travel. DAV has a special connection to the VA Vet Center program and 
the counseling services it provides. In 1976, the DAV funded the 
groundbreaking Forgotten Warrior Project, which first defined the issue 
of Post Traumatic Stress Disorder (PTSD) among Vietnam War veterans. 
Vietnam veterans were experiencing serious post-war problems at that 
time, and DAV hoped our new study would make it impossible for 
Congress, the VA, and the American public to continue to ignore the 
lingering dilemma that prevented many of these veterans from gaining 
normal lives after serving in a very unpopular and difficult war.
    DAV initiated our own Vietnam Veterans Outreach Program in 1978. 
This DAV-sponsored study and the DAV's clinical outreach work spurred 
new, broad realization and additional research by others that forced 
the Federal Government to confront the psychological impact of war on 
veterans of Vietnam, and subsequently of all wars. When that movement 
finally occurred, the DAV Vietnam Veterans Outreach Program was already 
there to serve as an effective counseling model to be adopted by the 
VA's Vet Center program as we know it today.
    Since the Readjustment Counseling Service program was established 
by Congress in 1979, eligibility for Vet Center readjustment counseling 
services has expanded from Vietnam-era veterans to include all combat 
veterans, to veterans who experienced military sexual trauma, to 
certain family members, and to survivors of veterans who die in combat 
or on active duty. Vet Centers also offer other vital services, 
including counseling for Post Traumatic Stress Disorder (PTSD) and 
other readjustment challenges; marriage and family counseling; and 
family bereavement counseling.
    DAV supports this section based on Resolution No. 117, which calls 
on Congress to enact legislation to change beneficiary travel policies 
to meet the specialized clinical needs of veterans receiving MST-
related treatment.
    Mr. Chairman, one key policy of Vet Centers is to ensure veterans 
seeking help are not required to wait to receive it. Vet Centers are 
known for minimal barriers with almost no bureaucracy and provide a 
non-medical setting in a safe environment with confidentiality and an 
emphasis on informed consent. Because of this type of delivery model, 
VA's current policy--to pay travel expenses for one-way travel to 
veterans who receive VA care for unscheduled appointments--needs to be 
adjusted to meet the full intent of this measure if enacted.
    Section 4 would extend the existing VA grant program to provide 
innovative transportation options to veterans in highly rural areas. 
DAV supports this section based on Resolution no. 226 calling for 
innovative improvements in providing health care to veterans living in 
rural and remote areas of the United States. We also urge the Committee 
to make appropriations to provide enhanced VA health care access to 
rural veterans.
    Finally, we recommend changing the language to be stricken from 
``through 2014'' to ``through 2016'' to reflect current law as amended 
by Public Law 114-58, Title I, Section 106.
                       s. 2210, veteran peer act
    Enactment of the Veteran PEER Act would require VA to establish a 
program that includes peer specialists within patient aligned care 
teams (PACT) in medical centers of the VA to promote better integration 
of mental health services into the primary care setting. VA must carry 
out this program in at least 10 VA medical centers within the first 180 
days of the Act passing and in no less than 25 locations after two 
years of the enactment of the bill, including within five polytrauma 
center locations.
    The bill also would require VA to consider the feasibility of 
locating peer specialists in rural areas and other locations that are 
underserved by the Department. VA would be required to ensure that the 
unique needs of women veterans are considered and that female peer 
specialists are included in the program. The measure includes 
requirements for routine reporting to include findings and conclusions 
with respect to the program and recommendations related to the 
feasibility of expansion of the program.
    When a veteran is experiencing a mental health crisis and asking 
for help, there must be ready access to a mental health specialist and 
services must be provided. However, even when in crisis, many veterans 
are reluctant to reach out for help and are reluctant to seek the 
mental health services they need. Since 2012, VA has hired over 900 
Peer Specialists, and we have heard from mental health providers that 
peer-to-peer interactions have been extremely helpful to both patients 
and treating clinicians. Making that first contact with another veteran 
who has had a similar experience seems to lessen the stigma and has 
been a successful method for coaching veterans into care.
    We are pleased the bill also includes provisions that would require 
VA to address the needs of women veterans. Findings show that when 
women return from deployment, the camaraderie and support from their 
male peers is often short-lived, resulting in isolation for many. 
Studies have shown that peer support is important to a successful 
transition, but women report they often cannot find a network of women 
who can relate to their military or wartime service. Including the 
requirement that VA focus on hiring female peer specialists helps 
ensure the unique needs of women veterans will be addressed and that 
women veterans can benefit from access to peer-to-peer interactions.
    DAV is pleased to support S. 2210, which is consistent with the 
following DAV resolutions: DAV Resolution No. 103, which calls for 
program improvements for VA mental health services to include increased 
staffing levels, improved outreach to veterans with a focus on reducing 
stigma when seeking post-deployment readjustment and other mental 
health services; DAV Resolution No. 104, which calls for enhanced 
medical services for women veterans as well as additional methods to 
address barriers to care. Also, the bill is consistent with 
recommendations in DAV's 2014 report, Women Veterans: The Long Journey 
Home.
         s. 2279, veterans health care staffing improvement act
    This bill would require the VA, in conjunction with the Department 
of Defense, to recruit military medical service personnel to VA health 
care positions following their service. To promote this outcome, the 
bill would require DOD to submit to VA a list once each year (or more 
often if agreed) of such individuals, including reservists and Coast 
Guardsmen, who are approaching the discharge point, or afterwards, 
along with contact and other relevant information to identify these 
individuals and their prior duties in military health care, including 
credentials, licensure and related information.
    In respect to this program, the bill would require VA to work to 
resolve barriers in credentialing or other rules that could delay or 
prevent such VA hiring. In the event that an identified barrier cannot 
be resolved by VA, the bill would require VA to report its existence 
and nature to Congress, with recommendations for legislation or 
administrative action (including any barrier imposed by a state).
    The bill would require VA to treat applications for VA employment 
by the individuals contemplated by this authority as Federal civilian 
employees rather than outside applicants, if applications were made 
within one year of discharge.
    The bill would require VA to establish a national, uniform 
credentialing policy for any VA employee who needs credentials to 
practice, and that once an individual is VA-credentialed in one site, 
the bill would enable such an employee to practice anywhere in the VA 
health care system without further credentialing.
    The bill would authorize full practice authority for advance 
practice nurses, physician assistants (PA), and other categories of 
health personnel as identified by the Secretary. The bill would empower 
these individuals to conduct independent practices in VA health care, 
irrespective of limitations that might be imposed by state laws. The 
bill would define a number of terms associated with these authorities.
    With regard to easing transition from military careers to civilian 
careers, DAV strongly supports the intent of this bill on the basis of 
DAV National Resolution 130, which urges continuing support for 
veterans' preference in Federal, state and local employment. While the 
resolution does not specify employment in VA itself, the bill is a 
logical method of aiding VA's recruitment efforts for medical 
professionals and, therefore, DAV supports this provision.
    With respect to the credentialing provisions of this bill, setting 
aside differing requirements from state to state, or from VA facility 
to VA facility, could produce unintended consequences. While it is true 
that credentialing may often delay or complicate the employment of 
clinical professionals in VA health care (and elsewhere), such policies 
are put in place to protect the quality of care and health of patients 
and to ensure individual practitioners are in fact capable of providing 
patients the type and intensity of care they are licensed to provide. 
In VA, credentialing in a major, affiliated VA academic health center, 
generally a teaching center of health professions, is considerably 
different than in a secondary, non-affiliated VA facility, and these 
differences exist for good reason.
    Finally, on the issue of independent practice authority of advance 
practice nurses, PAs and others that might be identified by the 
Secretary, VA recently proposed new regulations affecting these groups. 
While DAV has no resolution specific to these issues in the bill, or in 
VA's proposed regulation, we ask the sponsors to consider the 
implications of setting aside VA's proposal and any public comment that 
it may generate, with such sweeping Federal supremacy legislation.
s. 2316, to expand the requirements for reissuance of veterans benefits 
in cases of misuse of benefits by certain fiduciaries to include misuse 
by all fiduciaries, to improve oversight of fiduciaries, and for other 
                                purposes
    The bill would authorize the Department of Veteran Affairs (VA) to 
reissue benefits to veterans within the fiduciary program when 
fiduciaries are found to have misused or mishandled the administration 
of their benefits.
    VA would require that any person or entity appointed or recognized 
as a fiduciary for a beneficiary to provide VA with authorization to 
obtain from any financial institution any record held by the 
institution with respect to the fiduciary or beneficiary. This 
authorization would be utilized whenever a financial record is 
necessary for the administration of a VA program. The authorization 
could also be executed when it becomes necessary to safeguard a 
beneficiary's benefits against neglect, misappropriation, misuse, 
embezzlement, or fraud.
    Under this bill, in instances when a fiduciary refuses to provide 
or revokes an authorization to permit VA access to financial 
institution information concerning benefits paid to a beneficiary, VA 
would have the authority to revoke the appointment or the recognition 
of the fiduciary for each beneficiary for whom such fiduciary had been 
appointed or recognized.
    Although we not have a resolution specific to fiduciary matters, 
DAV appreciates the importance of safeguarding benefits of veterans 
within the fiduciary program; therefore, DAV supports the intent of 
this legislation because it protects the rights and benefits of ill and 
injured veterans.
             s. 2791, atomic veterans healthcare parity act
    The Atomic Veterans Healthcare Parity Act would provide health care 
parity for veterans who participated in the atomic debris cleanup 
mission on Enewetak Atoll in the Marshall Islands between 1977-1980. 
Currently these veterans are not included in the definition of ``atomic 
veterans'' and are not considered to have experienced at-risk exposure 
to radiation while relocating radioactive materials contaminated by 43 
atomic tests at Enewetak Atoll. This measure would require VA to 
consider such veterans to be radiation exposed for presumption of 
service connection for recognized radiogenic diseases.
    DAV is pleased to support S. 2791 because it is consistent with DAV 
Resolution No. 089, which supports legislation authorizing presumptive 
service connection for atomic veterans with a recognized radiogenic 
disease including any veteran involved in clean-up operations following 
the detonation of a nuclear device. We urge the Committee to 
expeditiously pass this legislation that would establish eligibility 
for personnel who participated in this specific radiation-risk activity 
during military service to receive presumptive service connection for 
recognized radiogenic diseases.
s. 2958, a bill to establish a pilot program on partnership agreements 
   to construct new facilities for the department of veterans affairs
    This bill would provide VA a discretionary authority to enter into 
not more than five public-private partnerships to construct major VA 
medical facilities, new cemeteries, and expanded cemeteries. Under the 
bill, VA could choose any qualified entity to carry out this 
construction, including ``a donor group,'' an undefined term. The bill 
would require in each instance that a board of directors were chosen to 
guide each project, and the project chosen for this pilot program would 
come either from projects partially funded by Congress, or from VA's 
internal capital planning process and its priority list submitted 
annually to Congress as a part of VA's budget request.
    One of the five sites that would be authorized and required to 
participate in this pilot program would be located in Omaha, Nebraska, 
and would include a new ambulatory care clinic with sufficient space 
and parking facilities, and would be limited in cost to $56 million, 
unless Congress appropriated additional funds for this project.
    The bill would set rules for the conduct of the pilot program, 
including activities, actions, reports and dissolutions of these boards 
of directors, as well as for the entities chosen to partner with VA on 
the projects chosen, and would prescribe various terms and conditions 
applicable to both the five entities and VA. Finally, the bill would 
specify required elements in the application process, and would 
prescribe required reports to Congress by VA and the Government 
Accountability Office.
    DAV National Resolution No. 100 urges VA to request adequate 
funding to fulfill the intent of its strategic capital planning 
initiative; that Congress carefully monitor any intended VA changes in 
infrastructure that could jeopardize VA's ability to meet veterans' 
needs; and, that Congress continue to provide appropriated funding 
sufficient to fulfill the needs for infrastructure identified through 
the strategic capital planning process. Enactment of this bill would 
introduce a major change in VA's capital planning and construction 
management programs. This new approach may hold promise in reforming 
VA's capital infrastructure program. Nevertheless, because it is an 
untested concept, before advancing this bill in the legislative 
process, we would urge further discussions with VA officials on the 
impact and intent of the measure on normal VA construction operations, 
especially given that VA is currently managing 49 major construction 
projects system-wide.
     s. 3021, a bill to authorize the use of post-9/11 educational 
assistance to pursue independent study programs at certain educational 
       institutions that are not institutions of higher learning
    This bill would authorize the use of Post-9/11 Educational 
Assistance to pursue independent study programs at certain educational 
institutions that are not institutions of higher learning as currently 
defined by law.
    Section 3452 of title 38 defines an ``institution of higher 
learning'' as one that grants an associate degree or higher degree. 
Post-secondary career and technical education (CTE) centers, which are 
public, non-profit, non-degree-granting institutions that award 
certificates, are an integral part of the postsecondary education and 
workforce training systems in many states--offering alternative routes 
for non-traditional students to obtain a postsecondary credential. To 
better accommodate working adult students, some CTE centers are 
utilizing technology by incorporating distance learning online. 
However, under current law, any independent study program offered 
through these institutions that includes an online component is 
ineligible because CTE centers are non-degree-granting and are 
therefore not considered institutions of higher learning.
    This bill would update existing law to mirror the Post-9/11 
Veterans Educational Assistance Improvement Act's incorporation of non-
degree-granting institutions as an option for veterans, while also 
recognizing the expanding role of technology in these institutions. 
This legislation would accomplish this much-needed update by providing 
an exception for accredited independent study programs that lead to 
certificates from non-degree-granting institutions.
    DAV has no resolution concerning this issue; however, we would not 
oppose its enactment because it would appear to be beneficial to 
veterans.
                     s. 3023, the aria harrell act
    This bill would establish procedures to address mustard gas or 
lewisite testing done on servicemembers by the Department of Defense 
during World War II.
    This legislation would require the Secretary of Veterans Affairs, 
in consultation with the Secretary of Defense, to reconsider claims for 
compensation relative to these experiments and render new 
determinations. The legislation would establish a presumption of 
exposure, unless proven otherwise, thus creating a lower evidentiary 
standard to demonstrate exposure to mustard gas or lewisite.
    DAV is pleased to offer our support for this legislation consistent 
with Resolution No. 010, which calls on Congress to vigorously support 
VA's expeditious handling of veterans' claims and payment of fair and 
just compensation for all conditions associated with exposure to toxic 
and environmental hazards.
 s. 3032, veterans' compensation cost-of-living adjustment act of 2016
    This bill would provide for an increase in the rates of 
compensation, commensurate with an increase for Social Security 
recipients with no ``round down,'' effective December 1, 2016.
    Mr. Chairman, DAV strongly supports this legislation, especially 
since it does not mandate that the cost-of-living adjustment (COLA) it 
would authorize be rounded down to the next lowest whole dollar amount.
    Many disabled veterans and their families rely heavily, or solely, 
on VA disability compensation, or DIC payments, as their only means of 
financial support, and they have struggled during recent years. Their 
personal economic circumstances have been negatively affected by rising 
costs of many essential items, including food, medicines and gasoline.
    In FY 2016, no COLA increase was authorized due to depressed 
inflation, so it seems only fitting that no round-down be imposed in 
2017 to help offset the loss of COLA in 2016. It is imperative that 
veterans and their dependents receive a full COLA; on the strength of 
DAV Resolution No. 013, DAV supports enactment of this legislation.
    S. 3035, Maximizing Efficiency and Improving Access to Providers at 
the Department of Veterans Affairs Act of 2016
    DAV supports this legislation that would require VA to carry out an 
18-month pilot program in at least five VA medical centers to use 
medical scribes to transcribe provider comments during visits with 
patients, thereby saving the provider time to manage the medical 
documentation process while also allowing more visual contact and 
better communication between provider and patient.
    DAV resolution 126 calls for quality care for veterans to be 
achieved when health care providers are given the freedom and resources 
to provide the most effective and evidence-based care available. In 
response to the growing complexity of health care and the electronic 
medical record, medical scribes have been used in the private sector to 
improve productivity, clinical documentation, completion of medical 
records, as well as provider satisfaction.
    We understand VA has been exploring the scope of responsibilities 
for medical scribes. DAV believes this bill, if enacted, would help 
provide a wider scope through which meaningful information could be 
produced to help determine the most effective integration of scribes 
within the various patient aligned care teams and across care settings 
in VA.
          s. 3042, the justice for servicemembers act of 2016
    This bill would improve the scope of procedural rights under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA), and 
improve the enforcement authority of the Department of Justice.
    Section 1 would clarify employment and reemployment rights of 
servicemembers by proposing any agreement to arbitrate a claim under 
USERRA is unenforceable, unless all parties consent to arbitration 
after a complaint on the specific claim has been filed in court or with 
the Merit Systems Protection Board and all parties knowingly and 
voluntarily consent to have that particular claim subjected to 
arbitration. Under the bill, consent would not be considered voluntary 
when a person is required to agree to arbitrate an action, complaint, 
or claim alleging a violation under USERRA as a condition of future or 
continued employment, advancement in employment, or receipt of any 
right or benefit of employment.
    Section 2 would enhance enforcement of employment and reemployment 
rights of servicemembers with respect to employment with State or 
private employers. This section would provide that the Attorney General 
may commence an action for relief under USERRA, further clarifying 
Congressional intent to effectively protect servicemembers.
    DAV has no specific resolution pertaining to the issues addressed 
by this bill; however, these changes would appear to improve 
servicemembers' employment and reemployment rights; thus, we would not 
oppose its favorable consideration.
       s. 3055, department of veterans affairs dental insurance 
                      reauthorization act of 2016
    If enacted, this measure would make permanent and existing pilot 
program of VA dental insurance for veterans, survivors and dependents 
of veterans as mandated under Section 510 of Public Law 111-163, by 
allowing eligible veterans plus family members receiving care under the 
Civilian Health and Medical Program of VA (CHAMPVA), to purchase dental 
insurance.
    DAV recognizes that oral health is integral to the general health 
and wellbeing of a patient, and is part of comprehensive health care 
irrespective of service-connected disability. The law defines 
preventive health services as a broad collection of VA health services 
that improve, protect and sustain the general health and well-being of 
veterans enrolled in VA health care, to include ``such other health 
care services as the Secretary may determine to be necessary to provide 
effective and economical preventive health care.'' It is for this 
reason that DAV supports the intent of this bill in accordance with DAV 
resolution 049, which supports providing VA outpatient dental care to 
all enrolled veterans. However, DAV opposes any copayments that this 
program would require. DAV resolution 114, adopted at our most recent 
convention, calls for legislation to eliminate or reduce VA and DOD 
health care out-of-pocket costs for service-connected disabled 
veterans.
    Veterans, through service to their Nation, have made extraordinary 
sacrifices and contributions, and have earned the right to certain 
benefits in return. Premiums, health care cost sharing and deductibles 
are features of health care systems in which some costs are shared by 
the insured and the insurer in a contractual relationship between the 
patient and the insurer.
         s. 3076, charles duncan buried with honor act of 2016
    Currently, VA reimburses the purchase of a casket or urn used only 
when the deceased veteran is interred in a VA National Cemetery. The 
veteran must have no identifiable next of kin and insufficient 
resources to pay for a casket or urn. This bill would extend the 
benefit to such veterans interred in state and tribal cemeteries.
    DAV has no resolution pertaining to this issue; however, we would 
not oppose passage of this legislation because it appears to be 
beneficial to veterans.
 s. 3081, working to integrate networks guaranteeing member access now 
                                  act
    This bill would provide certain permanent Congressional employees 
with read-only remote access to the electronic VBA claims records of 
veterans who are constituents of Members. These employees would be 
prohibited from modifying any data, processing, preparing or 
prosecuting of claims.
    These designated Congressional staff members could utilize this 
system to provide their constituents with information relevant to the 
processing of their claims or appeals. Designated staff members would 
require certification by the VA in order to access this system in the 
same manner currently required for agents or attorneys. Any costs 
associated with gaining access to these VA systems would be incurred by 
the particular Member of Congress whose staff accessed these records.
    DAV has no resolution relative to this issue, but would not oppose 
passage of the legislation.
   draft bill, to expand eligibility for readjustment counseling to 
 certain members of the selected reserve of the armed forces (john b.)
    This bill, if enacted, would authorize VA Readjustment Counseling 
Centers to provide counseling in Vet Centers to members of the Selected 
Reserve, for psychological trauma or behavioral conditions, and would 
protect the privacy of these individuals in seeking out such counseling 
by not requiring them to obtain referrals, presumably from their 
commands or military medical authorities, before seeking counseling.
    VA Resolution No. 103 urges Congress, the Administration and VA to 
enable Vet Centers to continue expanding and extending their 
rehabilitative and readjustment services, including in more rural 
communities, to veterans of past, present and future military service, 
and to their family members when necessary to aid in the recovery of 
veterans suffering the latent effects of combat exposure. Therefore, 
DAV strongly supports this proposal.
draft bill, to authorize payment by the department of veterans affairs 
for the costs associated with service by medical residents and interns 
 at facilities operated by indian tribes and tribal organizations, to 
require the secretary of veterans affairs to carry out a pilot program 
    to expand medical residencies and internships at such facilities
    This bill would expand into health care facilities of Indian tribal 
organizations VA's current responsibilities and costs incurred in its 
graduate medical education programs. The bill would require VA to 
establish a five-year program of residency training in Alaska and two 
as-yet unidentified locations, and to reimburse tribal facilities 
selected for some of their costs in hosting VA medical residencies as 
specified in the bill. After three years of operation, the bill would 
require VA to report to Congress on the feasibility and advisability of 
expanding the pilot program to additional tribal health care sites, and 
on making the program or any aspect of it permanent.
    VA has executed an extensive memorandum of agreement with the 
Indian Health Service to ensure that veterans of Indian ancestry 
receive adequate health care and other services. It is unclear from the 
language of this bill whether this new academic program would impact 
this agreement, and to what extent. Also, an authorization of $20 
million per year over a five-year period for a three-site pilot program 
seems excessive; we recommend the amount be reconsidered.
    While DAV has no resolution supporting this concept of VA medical 
residencies in Indian tribal facilities, we would not offer opposition 
to this bill; nevertheless, we recommend the sponsor consult with the 
VA Office of Rural Health, as well as the Office of Academic 
Affiliations, on the implications of the bill prior to its further 
advancement through the legislative process.
discussion draft to authorize the american battle monuments commission 
to acquire, operate, and maintain the lafayette escadrille memorial in 
                       marnes-la-coquette, france
    This bill would authorize the American Battle Monuments Commission 
to take ownership and operational control of an important World War I 
memorial in France. DAV has received no resolution dealing with this 
particular topic and takes no position on this bill.

    Mr. Chairman, this concludes DAV's testimony. We thank the 
Committee for inviting DAV to submit this testimony for the record. DAV 
is prepared to respond to any questions by Committee Members on the 
positions we have taken with respect to the bills under consideration.
                                 ______
                                 
          Prepared Statement of Allen Doederlein, President, 
                Depression and Bipolar Support Alliance

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of the Civil Rights Division and the Servicemembers 
      and Veterans Affairs Initiative, U.S. Department of Justice

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [The Clark 50-page brief can be seen here:]
https://www.justice.gov/archives/opa/blog-entry/file/861466/download

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
    Prepared Statement of Michael Michaud, Assistant Secretary for 
      Veterans' Employment and Training, U.S. Department of Labor

    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, Thank you for the opportunity to provide the views of the 
Department of Labor (DOL) on pending legislation aimed at helping the 
men and women who served, or are serving, this country succeed in the 
civilian workforce. As Assistant Secretary of the Veterans' Employment 
and Training Service (VETS), I look forward to working with the 
Committee to ensure that these brave and committed individuals have the 
employment support, assistance and opportunities they deserve.
    While this hearing will address numerous bills pending before the 
Committee, my statement will focus on Ranking Member Blumenthal's draft 
legislation, which would make a number of important amendments to the 
Uniformed Services Employment and Reemployment Rights Act of 1994, 38 
U.S.C. Sec. Sec. 4301-4335, (USERRA or the Act), which is enforced by 
VETS, the Department of Justice (DOJ), and the U.S. Office of Special 
Counsel (OSC). My statement also will briefly discuss S. 2958, which 
would ``establish a pilot program on partnership agreements to 
construct new facilities for the Department of Veterans' Affairs.''
    USERRA prohibits discrimination in employment based on an 
individual's prior service in the uniformed services; current service 
in the uniformed services; or intent to join the uniformed services. An 
employer is also prohibited from discriminating against a person 
because of such person's attempt to enforce his or her rights under the 
Act. In addition, an employer may not retaliate against an individual 
for filing a USERRA claim or testifying or otherwise providing 
assistance in any proceeding under the Act. USERRA also provides 
reemployment rights with the pre-service employer following qualifying 
service in the uniformed services. In general, the protected person is 
entitled to be reemployed with the status, seniority, and rate of pay 
as if he or she had been continuously employed during the period of 
service. USERRA applies to private employers, the Federal Government, 
and State and local governments. It also applies to United States 
employers operating overseas and foreign employers operating within the 
United States.
    USERRA protects civilian job rights and benefits for veterans and 
members of the Uniformed Services. VETS provides assistance to those 
persons experiencing service-connected problems with their civilian 
employment, and provides information about USERRA to employers. In 
Fiscal Year (FY) 2015, the Department reviewed a total of 1,288 USERRA 
cases. 77 of those cases were referred to DOJ and OSC for further 
review and possible litigation in either U.S. District Court or before 
the Merit Systems Protection Board (MSPB). In addition, DOL staff 
provided technical assistance to more than 10,000 servicemembers and 
other individuals in FY 2015, and well over a million individuals since 
September 11, 2001. The rights USERRA affords our servicemembers and 
veterans are critical, and we are committed to doing everything 
possible to ensure those rights are protected and preserved.
 s. xxxx--a bill to amend title 38, united states code, to clarify the 
 scope of procedural rights of members of the uniformed services with 
  respect to their employment and reemployment rights, to improve the 
 enforcement of such employment and reemployment rights, and for other 
                               purposes.
    DOL strongly supports the Ranking Member's draft bill. The 
significant USERRA improvements it would provide mirror those we have 
urged the Congress to enact, as reflected both in the Administration's 
recent legislative proposal, and in several of our USERRA Annual 
Reports to Congress. We applaud this effort to strengthen enforcement 
of USERRA, and believe the proposed statutory amendments, some of which 
are discussed in more detail, below, will address several critical 
issues.
    Section 1 of the draft bill is intended to make clear the scope of 
employment and reemployment rights of covered individuals, by 
clarifying the definitions of ``rights'' and ``benefits'' under USERRA, 
and by clarifying the status of arbitration agreements under the Act. 
These amendments guarantee the availability and protection of 
procedural rights included in the statute, ensuring that USERRA 
operates to safeguard both substantive and procedural rights and 
benefits from reduction, limitation, or elimination. We are 
particularly grateful that, to ensure the procedural right of 
adjudication of USERRA claims, the bill expressly provides that 
agreements to arbitrate are unenforceable ``unless all parties consent 
to arbitration after a complaint on the specific claim has been filed 
in court or with the MSPB and all parties knowingly and voluntarily 
consent to have that particular claim subjected to arbitration.''
    DOL supports limiting the ability to consent to arbitration until 
after a claim is filed in court or with the MSPB because, at that stage 
of the adjudication process, claimants already have a sense of their 
rights and likely have consulted with an attorney. Section 1(c)(2) is 
not necessary, and is potentially harmful, because there may well be 
other circumstances, not specifically provided for, where a claimant's 
agreement might not be voluntary. DOL believes that the determination 
as to whether a USERRA claimant's consent to arbitrate is voluntary is 
best left to the adjudicator, who will decide that question based upon 
the particular facts and circumstances of the case.
    Federal judicial circuits are presently divided as to whether 
USERRA protections apply to procedural as well as substantive rights. 
It has long been the Department's interpretation of USERRA, as well as 
that of DOJ and OSC, that USERRA applies to procedural rights, 
regardless of how such rights may be construed. Clarifying that USERRA 
applies to both procedural and substantive rights provides certainty 
in legal interpretation, and would resolve the ambiguity that currently 
exists among Federal judicial circuits. It also reassures our 
servicemembers and veterans that they have proper recourse when they 
believe their USERRA rights have been violated.
    The amendments contained in Section 2 of the bill would make a 
number of substantial improvements to the enforcement of employment and 
reemployment rights with respect to a State or private employer. 
Significantly, subsection (a) would strengthen enforcement under USERRA 
by allowing the United States to serve as a plaintiff in all suits 
filed by the Attorney General (AG), rather than only in those suits 
filed against State employers. This amendment would ensure that USERRA 
is consistent with other civil rights laws by allowing the United 
States to bring suit in its own name as the plaintiff, to vindicate the 
public interest in ensuring the statute is enforced. The aggrieved 
person on whose behalf the AG files suit would retain the right to 
intervene in such suits, or to bring his or her own action if the AG 
declines to file suit.
    This section also grants independent authority to the AG to 
investigate and file suit to challenge employment policies or practices 
that establish a pattern or practice of violating USERRA. This 
amendment, modeled after Title VII of the Civil Rights Act of 1964 (42 
U.S.C. Sec. 2000e-6(a)), would strengthen significantly DOJ's ability 
to enforce USERRA to address a systemic violation (such as an employer 
policy prohibiting extended absences, including absences for military 
service) that could adversely affect the employment rights of multiple 
servicemembers.
    In support of this new pattern-or-practice authority, the bill also 
would amend USERRA to provide the AG with the authority to issue civil 
investigative demands to compel the production of relevant documentary 
materials and unsworn answers to written questions from the custodian 
of such documents. DOL has the power to issue subpoenas in the conduct 
of its investigations under USERRA. However, with no investigatory role 
under current law, the AG has no authority to compel the production of 
evidence prior to filing suit. Because the section now empowers the AG 
to initiate an investigation, this further amendment would provide 
appropriate and much-needed investigative tools.
    Finally, DOL also supports other amendments section 2 would make to 
enable servicemembers and veterans to more ably exercise their USERRA 
rights, and to enhance the available remedies for violations of USERRA 
rights. For instance, subsection (b) explicitly abrogates sovereign 
immunity to eliminate any question whether Congress intends that USERRA 
claimants be able to bring an action against a State employer in State 
court or Federal district court. And, subsection (d) adds compensatory 
and punitive damage provisions that are similar to damages provisions 
in Title VII of the Civil Rights Act of 1964.
s. 2958--a bill to establish a pilot program on partnership agreements 
  to construct new facilities for the department of veterans' affairs
    This bill would authorize the Secretary of Veterans' Affairs to 
enter into up to five partnership agreements with certain designated 
entities to conduct one or more super construction projects; major 
medical facility projects; or major construction projects to construct 
new cemeteries, or develop additional gravesites or columbarium niches 
at existing cemeteries. Section 1(b) of the bill provides that this 
authority may be carried out ``notwithstanding any other provision of 
law (including section 8103(e) of title 38, Untied States Code), except 
for Federal laws relating to environmental and historic preservation; 
and, subchapter IV of chapter 31 of title 40, United States Code 
(commonly referred to as the 'Davis Bacon Act').''
    Like VA, DOL strongly supports the bill's authorization of these 
partnership agreements, provided the legislation does not roll back key 
civil rights protections for veterans and other employees who will be 
working to construct the facilities resulting from these partnership 
agreements. These safeguards protect millions of workers, including 
veterans. DOL looks forward to working with the Committee to revise the 
language of section 1(b) to ensure that S. 2958 provides VA the 
authority it needs while maintaining the applicability of laws that 
protect against employment discrimination or that otherwise ensure 
equal employment opportunities.
                               conclusion
    Every day, we at DOL do our best to serve the civilian employment 
needs of our veterans, transitioning servicemembers, and military 
families. It is the least we can do to honor the tremendous sacrifices 
made by our service men and women and their families. Secretary Perez 
and VETS strongly believe that the reforms included in Ranking Member 
Blumenthal's draft bill to amend USERRA will not only help our veterans 
and servicemembers find good jobs, but also ensure that they can retain 
their civilian employment when they must leave it to serve our Nation. 
We look forward to working with the Committee on these important issues 
and are available to provide any technical assistance you request with 
respect to these proposed amendments. DOL also stands ready to assist 
the Committee and VA to make certain that S. 2958 does not operate to 
exclude veterans and other workers from important equal opportunity and 
employment protections.

    I again thank the Committee for your commitment to our Nation's 
veterans and servicemembers and for the opportunity to submit this 
statement for the record.
                                 ______
                                 
 Letter from Alexander Blumrosen, President, The Lafayette Escadrille 
                          Memorial Foundation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Frederick R. Salanti, Maj, US Army (USAR), 
   Founder/Executive Director, Missing In America Veterans Recovery 
                                Program

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
     Prepared Statement of Military Officers Association of America
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, The Military Officers Association of America (MOAA) is 
pleased to present its views on veterans' health care and benefits 
legislation under consideration by the Committee.
    MOAA does not receive any grants or contracts from the Federal 
Government.
                           executive summary
    On behalf of our more than 390,000 members, MOAA thanks the 
Committee for holding this important hearing and for your continued 
support of our Nation's servicemembers, veterans and their families. 
MOAA is especially grateful for the Committee's leadership in 
introducing S. 2921, the Veterans First Act, a comprehensive bill to 
improve the delivery of health care and benefits in the Department of 
Veterans Affairs (VA).
    We believe many of the bills being considered today will buildupon 
the work of the Committee in the Veterans First Act, further enhancing 
VA's health and benefits systems. Our Association looks forward to 
working with the Members and staff to strengthen and improve the 
legislation for enactment this year.
    MOAA's position and recommendations are provided on the following 
bills:

    <bullet> S. 603, Rural Veterans Travel Enhancement Act of 2015
    <bullet> S. 2210, Veteran Partners' Efforts to Enhance 
Reintegration (PEER) Act
    <bullet> S. 2279, Veterans Health Care Staffing Improvement Act
    <bullet> S. 3035, Maximizing Efficiency and Improving Access to 
Providers at the Department of Veterans Affairs Act of 2016
    <bullet> S. 244, Review of the Disability Compensation Process for 
Traumatic Brain Injuries
    <bullet> S. 2791, Atomic Veterans Healthcare Parity Act
    <bullet> S. 3023, The Arla Harrell Act
    <bullet> S. 3032, Veterans' Compensation Cost-of-Living Adjustment 
Act of 2016
    <bullet> Draft Bill, Clarification of Procedural Rights Under the 
Uniform Services Employment and Reemployment Rights Act (USERRA)
                              health care
    S. 603, Rural Veterans Travel Enhancement Act of 2015. The bill 
would give the Secretary of VA permanent authority to transport 
individuals to and from any VA facility which provides rehabilitation, 
counseling, examination, treatment, and care.
    The measure specifically authorizes the Secretary to cover the 
actual expenses of travel or allowances for a veteran using a VA 
Veterans Readjustment and Counseling Program or `Vet Center' facility.
    Vet Centers provide important services to help guide veterans and 
their family members through the major life changes that often occur 
when a member returns from combat. Services include individual, group 
and family counseling in such areas as post-traumatic stress, alcohol 
and drug assessment, and suicide prevention.
    Currently VA covers travel expenses for care at VA medical centers 
and community-based outpatient clinics. Vet Centers provide a critical 
capability within VA's health system, thus inclusion of these 
facilities for purposes of payments for beneficiary travel and 
allowances should also be a covered benefit for consistency and 
continuity of care throughout the system.
    MOAA supports S. 603, but recommends funds be appropriated to 
support the bill. We would urge against trading funding from other 
medical programs to offset these costs as MOAA believes medical care 
and services, including associated travel expenses and allowances, are 
central components to opening up access and delivering high quality 
health care to our veterans.
    S. 2210, Veteran Partners' Efforts to Enhance Reintegration (PEER) 
Act. MOAA strongly supports this measure which would establish a two-
year pilot program to incorporate peer specialists in patient aligned 
care teams at 25 VA medical centers to promote the use and integration 
of mental health services in the primary care setting.
    MOAA has long endorsed peer support programs as a means to enhance 
the delivery of health care services. Extending VA's existing mental 
health peer support model into the primary care setting will help to 
further reduce barriers in accessing mental health services while 
concurrently increasing system capacity.
    We greatly appreciate Senator Richard Blumenthal's (D-CT) 
leadership on this significant issue. We are particularly grateful for 
the legislation's special consideration of gender specific peer support 
services for female veterans and focus on veterans living in rural or 
underserved areas.
    S. 2279, Veterans Health Care Staffing Improvement Act. This bill 
would increase efficiency in the recruitment and hiring of health care 
professionals in VA. The bill contains a number of innovative and much 
needed solutions to addressing critical health care staffing shortfalls 
and veterans' access to care.
    The Department of Defense (DOD) would be required, at least 
annually, to submit a list of transitioning military members serving in 
health care fields to the VA for recruitment and hiring consideration.
    Additionally, the measure would create uniform credentialing 
standards for certain health care professionals working in the agency 
so employees are allowed to practice in any location in the VA Health 
Administration (VHA) system.
    MOAA is also pleased to see a provision granting full practice 
authority to Advanced Practice Nurses and Physician Assistants, 
bringing VHA in line with other practicing professionals in the DOD, 
Indian Health Service, and the Public Health Service systems.
    Our Veterans need all the skills Advanced Practice Nurses can 
provide them. The implementation of the Veterans Health Care Staffing 
Improvement Act would help fill a critical system need today.
    VA's current health system, where 10 Advanced Practice Nurses in a 
single medical facility have 10 different state licensures, and 10 
different scopes of practice, imposes unnecessary supervision 
requirements, further limiting system capability and capacity. This 
aspect of the system needs to be corrected.
    By aligning VA nurse workforce with other Federal healthcare 
services, we better serve and honor our veterans.
    MOAA fully supports S. 2279 and urges immediate passage of the 
bill.
    S. 3035, Maximizing Efficiency and Improving Access to Providers at 
the Department of Veterans Affairs Act of 2016. MOAA also supports this 
measure which would require the Department to carry out an 18-month 
pilot program using medical scribes to support physicians in at least 
five VHA facilities.
    The purpose of the pilot is to collect data to determine the 
effectiveness of the program in increasing efficiency of physicians, 
reduce average wait times for appointments, improve access of patients 
to electronic medical records, and mitigate physician shortages through 
increased productivity.
    Medical scribes are a health care innovation broadly used outside 
of VHA to assist physicians by alleviating paperwork and electronic 
health record burdens, allowing physicians to spend more time treating 
patients while at the same time being able to see more patients.
    MOAA urges the Committee to support funding of this important 
program and swift passage of the bill. VA needs innovative solutions 
like S. 3035 to address its current physician shortages and growing 
demand for health care in the coming years.
                                benefits
    S. 244, Review of the Disability Compensation Process for Traumatic 
Brain Injuries. MOAA supports this bill, which would fund research into 
Traumatic Brain Injuries. Traumatic Brain Injuries are tremendously 
complex, and a recent study found brain injuries incurred due to war-
related events such as blasts differ from those incurred during sports-
related activities. War-related brain injury requires further study, 
and VA should be provided the resources to buildupon current expertise 
in this arena and provide veterans with the most up-to-date options in 
treatment.
    S. 2791, Atomic Veterans Healthcare Parity Act. MOAA supports the 
inclusion of veterans who participated in the cleanup of Enewetak Atoll 
as radiation-exposed veterans. The nuclear testing performed at 
Enewetak Atoll should entitle these veterans to the same presumptions 
for radiation-related illnesses when applying for VA disability 
compensation as in other incidents of service-related toxic exposure. 
There is no discernable reason why these veterans should be denied 
equal treatment under the law.
    S. 3023, The Arla Harrell Act. MOAA supports the passage of this 
bill, which would require VA to reconsider claims that have previously 
been denied for veterans exposed to mustard gas or lewisite testing by 
the DOD. It is a matter of fairness to these veterans that our 
government should be obligated to compensate these human test subjects 
for the resulting effects of those studies. The bill would close this 
loophole for this group of veterans seeking relief.
    S. 3032, Veterans' Compensation Cost-of-Living Adjustment Act of 
2016. MOAA supports the passage of this bill to provide veterans with 
the same type of cost-of-living increases in their disability 
compensation and survivor annuities that Social Security recipients 
receive in theirs.
    Draft Bill, Clarification of Procedural Rights Under the Uniform 
Services Employment and Reemployment Rights Act (USERRA). MOAA supports 
passage of this bill to close the loophole that currently exists in 
USERRA. Presently, servicemembers returning to their civilian jobs who 
find their employer has violated USERRA may not be fully protected if 
he or she has signed an employment contract that requires disputes be 
mediated by an arbitrator vice litigated in court.
    Arbitration provides no opportunity for a servicemember to appeal 
an unfavorable decision and places the employer in a much more 
advantageous position than the servicemember. Closing this loophole is 
important to ensure our servicemembers are fully protected, as Congress 
intended in enacting USERRA.

    MOAA thanks the Committee for considering this important 
legislation and for your continued support of our veterans and their 
families.
                                 ______
                                 
      Prepared Statement of the Military Order of the Purple Heart
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee, on behalf of the Military Order of the Purple Heart of the 
U.S.A. (MOPH) we would like to thank you for including S. 3042, the 
Justice for Servicemembers Act of 2016 on today's hearing agenda. We 
are grateful for the opportunity to provide written testimony in 
support of this legislation and in support of restoring the rights of 
servicemembers in the face of forced arbitration. We would like to urge 
Congress to quickly pass this important legislation on behalf of all of 
our brave men and women who serve.
    Throughout history, Congress has enacted laws that provide 
additional rights and protections for the men and women who serve our 
country. Congress did so in recognition of the significant, additional 
burdens that being called away from your family and your job to serve 
our country places on these brave individuals; burdens that civilians 
do not face. One of these landmark laws is the Uniformed Services 
Employment and Reemployment Act (USERRA). Passed in 1994, the USERRA 
protects our servicemembers from employment discrimination and 
guarantees that when called for military service, they can perform 
their duties with the knowledge and security that they have the right 
to return to their jobs with the same pay, benefits, and status they 
would have attained had they not been called away.\1\ This law is one 
of the most important protections for members of the uniformed services 
and one of the strongest employment-protection laws in our country.
---------------------------------------------------------------------------
    \1\ Leisha Self, A Guide to the Uniformed Services Employment and 
Reemployment Rights Act and the Recent Hostile Work Environment 
Amendment, 28 ABA J. Lab. & Emp. L. 449 (2013)
---------------------------------------------------------------------------
    Just as important as the substantive rights afforded by USERRA are 
the procedural and enforcement rights guaranteed under the law. Under 
USERRA, when servicemembers' rights are violated, they have the right 
to bring a USERRA claim to court.\2\ The bill expressly dictates that 
any employment agreement that limits or eliminates a right or benefit 
provided by USERRA, including the establishment of additional 
prerequisites to the exercise of any such right, is facially void.\3\
---------------------------------------------------------------------------
    \2\ 38 U.S.C. Sec. 4323(a) (2).
    \3\ 38 U.S.C. Sec. 4302(b).
---------------------------------------------------------------------------
    Nevertheless, servicemembers and veterans are increasingly unable 
to enforce their rights under USERRA for one specific reason: forced 
arbitration clauses buried in the fine print of their employment 
contracts. Presented on a take-it-or-leave-it basis, employers across 
the country are requiring servicemembers to sign forced arbitration 
agreements that effectively eliminate the important rights afforded by 
USERRA. Forced arbitration clauses undermine the very protections of 
USERRA, and other laws that Congress has deemed necessary and 
appropriate to afford to our military, by kicking claims out of court, 
and funneling them into a rigged, secretive system where all the rules, 
including who decides the outcome of the forced arbitration, are chosen 
by the employer that violated the law in the first place.
    While forced arbitration clauses used in employment contracts can 
be harmful and oppressive for all employees, the ramifications are even 
more serious when these clauses are enforced against our men and women 
in uniform. When servicemembers become distracted from the mission at 
hand due to fears of unemployment, paying bills, providing for their 
family and other financial stresses upon returning home from duty, it 
directly impacts our national security.
    Congress intended for USERRA to ensure servicemembers did not lose 
their right to take an employer who wronged them to a court of law in 
order to have their story heard. This bill would honor that intent. 
Given the expansive use of these clauses by financial institutions and 
employers in contracts with servicemembers, prohibiting the use of 
forced arbitration clauses is now more critical than ever. We strongly 
urge you to support the Justice for Servicemembers Act and any other 
legislative efforts to prohibit the use of forced arbitration clauses 
against our Nation's heroes: our servicemembers and veterans.
    MOPH would also like to add our comments on several other pieces of 
legislation on today's agenda.
    MOPH supports S. 244, a bill to require an independent 
comprehensive review of the process by which the Department of Veterans 
Affairs assesses cognitive impairments that result from Traumatic Brain 
Injury for purposes of awarding disability compensation. Due in part to 
the devastating effects of improvised explosive devices used on the 
battlefields of Iraq and Afghanistan, more veterans than ever are 
claiming disabilities associated with Traumatic Brain Injuries (TBI). 
Still, not enough is currently known about TBI, and the way it affects 
veterans' abilities to function properly. By requiring the Institute of 
Medicine to conduct a review of TBI examinations provided by the 
Department of Veterans Affairs (VA), this bill will help ensure that 
injured veterans receive the proper health care and compensation they 
need.
    MOPH supports S. 603, the Rural Veterans Travel Enhancement Act of 
2015, which would improve transportation options for veterans traveling 
to and from VA for medical appointments. It would do so by permanently 
authorizing the Veterans Transportation Service program, which allows 
VA to offer rides to veterans that need them; allowing veterans to 
receive travel reimbursement for episodes of care received at Vet 
Centers; and reauthorizing grants for Veterans Service Organizations 
that provide veterans with transportation. These provisions are 
critical to ensuring that no veteran is forced to forgo VA medical 
care, simply because they cannot provide their own transportation due 
to impairment or financial reasons.
    MOPH supports S. 2210, the Veteran PEER Act, which would require VA 
to establish peer specialists in patient aligned care teams at medical 
centers of the department. The utilization of peer specialists at VA is 
a proven model of success. Veterans consistently report that having 
access to peer support greatly improves their comfort level at VA 
facilities, as well as their ability to navigate the often confusing 
processes they encounter there when newly enrolled. Adding peer 
specialists to patient aligned care teams would help grant veterans 
access to this important resource at every stage of their medical care.
    MOPH supports some provisions of S. 2279, the Veterans Health Care 
Staffing Improvement Act. We strongly support section 2, which would 
require VA and the Department of Defense (DOD) to cooperatively 
facilitate the recruitment of recently separated veterans who served in 
medical fields in the military as VA health care professionals, known 
as the ``Docs-to-Doctors Program.'' Not only have these personnel 
received superior training in the military, they have also proven their 
leadership and desire to serve their country, which can only benefit 
VA. Further, they are uniquely qualified to provide care to their 
fellow veterans, as they have a first-hand understanding of their 
military experience. We believe that this program will improve VA's 
ability to recruit top talent, while simultaneously increasing patient 
satisfaction. MOPH also supports section 3, which would require VA to 
implement a uniform credentialing process for employees of the Veterans 
Health Administration.
    MOPH does not support section 4 of S. 2279, which would require VA 
to provide full practice authority to advanced practice registered 
nurses (APRN), physician assistants (PA), and such other licensed 
health care professionals of the department. While we fully appreciate 
the importance of APRNs and PAs in in the modern health care industry, 
we would defer to VA on this matter. We note that VA recently published 
regulations to allow flexibility in full practice authority to meet the 
access needs of the department. This would allow VA to implement full 
practice authority in specialties where it is needed, but not require 
them to do so in specialties where it is not. Accordingly, we do not 
believe a legislative fix to this issue is necessary or appropriate at 
this time.
    MOPH supports S. 2316, which would improve VA oversight of 
fiduciaries, and allow for the reissuance of veterans benefits in cases 
of misuse by fiduciaries. Generally speaking, fiduciaries provide an 
invaluable service to veterans who are incapable of handling their own 
finances due to disability. However, there have been cases where 
fiduciaries, both family members and professional firms, have misused 
veterans' benefits for their own personal gain. MOPH believes it is 
critically important that vulnerable veterans in need of assistance 
with their finances be properly protected from theses unscrupulous 
actors. For this reason, we believe it is fully reasonable that all 
fiduciaries be subject to robust oversight, to include the auditing of 
their bank accounts. Furthermore, we believe it is the right thing to 
do to restore benefits that are found to have been intentionally 
misused, to ensure that veterans who are taken advantage of are made 
whole in those unfortunate cases.
    MOPH supports S. 2791, the Atomic Veterans Parity Act, which would 
grant a presumption of service connection for certain cancers to 
veterans who participated in the cleanup of Enewetak Atoll and the 
Marshall Islands between January 1, 1977 and December 31, 1980. These 
veterans would be treated the same as other veterans who were exposed 
to known sources of radiation for the purposes of VA benefits. Current 
law provides presumptive service connection for veterans who 
participated in atomic testing between 1944 and 1958, but not those who 
were assigned to clean up the debris years later. MOPH strongly 
believes that toxic wounds incurred in service are wounds just the 
same, and should be treated with the same urgency as physical or mental 
wounds. We are aware that many of these veterans are now suffering from 
tell-tale cancers associated with radiation exposure, and believe that 
granting them access to VA health care and benefits as a result is long 
overdue.
    MOPH supports S. 3021, which would allow veterans to use their GI 
Bill benefits to pursue programs of independent study at schools that 
do not meet the industry definition of an ``institution of higher 
learning,'' such as a state university or a community college. This 
bill would provide veterans with more options by allowing them to use 
their benefits to obtain certificates and professional credentials from 
institutions such as area career and technical education schools. We 
note that these programs would still be accredited and subject to 
review by State Approval Agencies, as provided in statute for all 
courses of study approved for GI Bill use.
    MOPH supports S. 3023, the Arla Harrell Act, which would provide 
for the reconsideration of claims for disability compensation for 
veterans who participated in DOD experiments with mustard gas and 
lewisite on a presumptive basis. During World War II, thousands of 
servicemembers were used as subjects in experiments to test the effects 
of these harmful agents on the human body. Not surprisingly, this left 
many of them with chronic health issues. However, most veterans were 
routinely denied disability compensation for these conditions, as the 
experiments remained classified for decades. MOPH strongly believes 
that these claims should be reconsidered on a presumptive basis in 
order to finally grant these veterans the health care and benefits they 
need and deserve.
    MOPH supports S. 3032, the Veterans' Compensation Cost-of Living 
Adjustment Act of 2016, which would increase the rate of compensation 
for disabled veterans and their survivors, effective December 1, 2016. 
Unlike Social Security benefits, which are automatically increased by 
statute, Congress must pass a bill each year to ensure that the 
benefits that disabled veterans and their survivors have earned are 
increased to keep pace with inflation. This is absolutely critical, 
given the ever rising prices of food, housing, health care, and other 
essential goods and services. By providing reasonable increases to 
those benefits, your legislation would ensure that the most basic needs 
of disabled veterans and their survivors are met. MOPH is especially 
pleased that your legislation does not include the ``round down'' 
provision of previous years, which is nothing more than a cost-saving 
device that requires veterans to pay for their own benefits.
    MOPH supports S. 3035, the Maximizing Efficiency and Improving 
Access to Providers at the Department of Veterans Affairs Act of 2016, 
which require the Department of Veterans Affairs (VA) to carry out an 
18 month pilot program to increase the use of medical scribes at no 
fewer than five medical facilities in rural areas where there is a 
shortage of physicians and each physician has a high caseload. These 
medical scribes would be responsible for assisting VA physicians with 
administrative tasks that are normally done by support staff in the 
private sector.
    It is well documented that rural areas across the country suffer 
from physician shortages. This affects the ability of VA to recruit and 
retain an adequate number of physicians, resulting in longer 
appointment wait times. For this reason, MOPH believes that it is 
absolutely critical that VA physicians in these areas are able to 
practice medicine as efficiently as possible. The increased use of 
medical scribes would accomplish this by allowing VA doctors to spend 
less time on administrative tasks such as data entry and more time 
doing what is most important; providing care to veterans.
    MOPH supports S. 3055, the Department of Veterans' Affairs Dental 
Insurance Reauthorization Act of 2016, which would require VA to 
contract with a private insurance company to offer a voluntary dental 
insurance plan to veterans and certain dependents. Generally, VA only 
provides dental care to veterans who incurred dental trauma while in 
service, or who are rated 100 percent service-connected. Veterans who 
are service-connected but rated less than 100 percent are generally not 
offered dental care at VA. MOPH believes that dental care should be 
considered the same as health care, as a number of serious 
comorbidities affecting a veterans' overall health can arise from 
dental neglect, including diabetes and heart disease. These conditions, 
which may have been preventable with routine dental care, then have to 
be treated at far greater expense by VA. While MOPH would rather see 
full VA dental care eligibility extended to all service-connected 
veterans, we would still support the establishment of a voluntary, 
reasonably priced dental insurance program for veterans and their 
families, as envisioned by this legislation.
    Finally, MOPH opposes the draft bill entitled the Working to 
Integrate Networks Guaranteeing Member Access Now Act, or WINGMAN Act. 
While we appreciate Senator Cassidy's intent to provide faster service 
to veteran constituents who request assistance from congressional 
offices, we are concerned that there would be unintended consequences 
to allowing congressional staff access to veterans' VA claims files. It 
is yet unclear to us how VA would ensure that staff only gains access 
to the records of veterans who have provided them with privacy 
releases. Further, we are concerned that granting congressional staff 
this access would create confusion in their role in the claims process 
as it relates to veterans, VA and Veterans Service Organizations. While 
we cannot support the bill as written, we would be happy to work with 
Senator Cassidy and his staff on ways to improve congressional offices' 
ability to provide veteran constituents with more timely responses.

    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, once again, we thank you for the opportunity to submit our 
views on these important bills.
                                 ______
                                 
 Prepared Statement of Keith Kiefer, Director at Large, NAAV Minnesota 
  State Co-Commander & Enewetak Radiological Cleanup Veteran (1978), 
                National Association of Atomic Veterans

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
       Prepared Statement of National Alliance on Mental Illness

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Prepared Statement of Joseph W. Wescott II, Legislative Director, 
            National Association of State Approving Agencies
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee: The National Association of State Approving Agencies (NASAA) 
is pleased to provide its views on certain education benefits 
legislation under consideration by the Committee today, June 29, 2016, 
particularly S. 3021.
    NASAA does not receive any grants or contracts directly from the 
Federal Government, though its member organizations are state agencies 
operating in whole or in part under Federal contracts funded by 
Congress and administered by the Department of Veterans Affairs (VA).
    On behalf of fifty-five SAAs in 49 states and the territory of 
Puerto Rico, NASAA thanks the Senate Committee on Veterans Affairs for 
its strong commitment to a better future for all servicemembers, 
veterans and their families through its continued support of the GI 
Bill educational program.
     s. 3021, a bill to authorize the use of post-9/11 educational 
assistance to pursue independent study programs at certain educational 
       institutions that are not institutions of higher learning
    State approving agencies take seriously our role as ``the 
gatekeepers of quality'' and the ``boots on the ground'' defending the 
integrity of the GI Bill and making sure that only quality programs are 
approved by applying Federal and state law and regulation. An 
additional and equally important role is the continued oversight of 
these programs after their initial approval. We do so in conjunction 
with other stakeholders in veteran and higher education, including 
state licensing agencies, state higher education departments, the 
Department of Veterans Affairs, the Department of Education and 
national and regional accrediting agencies.
    Congress, in establishing the laws and regulations governing the 
manner and method by which education could be approved for veterans, 
wisely provided that Non College Degree training could be delivered by 
way of independent study (on-line education) only when affiliated with 
or provided by an accredited institution of higher learning (IHL). 
Certainly, in view of the uncertain quality of distance learning in the 
early years of its development, it made sense to make sure that 
regionally accredited IHLs were the only places that online NCD 
training would be approved. This also recognized the fact that many 
unaccredited NCD programs are offered in a clock-hour as opposed to a 
credit hour format and as such, it is virtually impossible to ensure 
that veterans met approved program attendance standards outside of the 
classroom.
    S. 3021 seeks to expand Post-911 GI Bill to provide for the 
approval of independent study programs at certain educational 
institutions that are not institutions of higher learning, namely 
stand-alone NCD granting institutions. Though this bill does include 
language to restrict the extent of this expansion somewhat, some of 
that language could be problematical. As this is a radical departure 
from the inherent safeguard provided in the code of disallowing the 
approval of ``any independent study program except an accredited 
independent study program (including open circuit television) leading 
(A) to a standard college degree, or (B) to a certificate that reflects 
educational attainment offered by an institution of higher learning,'' 
NASAA cannot support this legislation. However, we would not oppose it 
as long as the following concerns are addressed.
    First, as regards proposed subsection (C)(ii): The definition of a 
``postsecondary vocational institution'' as defined in the Higher 
Education Act, does seem to contain adequate parameters to protect the 
integrity of the GI Bill. The institution must be limited to high 
school graduates or equivalent; authorized by the State to offer the 
program; is public or nonprofit; and is accredited by a nationally 
recognized accrediting agency or granted preaccreditation status by an 
agency authorized to grant such status. This definition would seem to 
bar predatory institutions providing training of questionable quality 
which might or might not lead to a job or career from seeking approval.
    However, NASAA is concerned that proposed subsection (C)(i) is 
problematical. If you solely look at the definition that is cited, the 
Perkins Act limits the institutions covered to public and nonprofit 
institutions, but it does not require that the institutions be 
accredited, nor does it require that the institution be authorized by 
the State. So, upon reviewing the definition that the proposed language 
cites, the schools might not be required to have a license to operate. 
Also, although the lead-in provision in 3680A(4) requires the 
independent study program to be accredited, there is nothing that 
requires the accrediting agency for career and technical education 
schools to be nationally or regionally recognized, as, unlike the 
definition of a ``postsecondary vocational institution,'' the 
definition of an ``area career and technical education school'' does 
not mention accreditation. Therefore, as the proposed language 
currently stands, an area career and technical education school could 
be accredited by an unrecognized accrediting entity, and still be able 
to qualify for the GI Bill. Finally, the Perkins Act definition of 
``career and technical education'' includes entrepreneurship, which, as 
you'll recall, is currently restricted under the GI Bill when the 
program is a non-degree program.
    We would also seek to point out to the Committee that though we 
would not expect that a large number of proprietary schools would rush 
to become non-profits accredited by unrecognized accrediting entities, 
some predatory institutions might seek to do so in order to fit into 
the otherwise broad definition of an ``area career and technical 
education school.'' Also, some institutions might seek to provide 
programs of questionable quality under contract with institutions 
granted access under this proposed legislation. For these and other 
reasons cited above, NASAA respectfully requests that the language of 
this bill be changed so that only NCD institutions that are either 
public or not-for-profit institutions AND are accredited by a 
nationally recognized accredited agency be allowed to seek approval.
    Finally, we would respectfully remind the Committee that even with 
the passage of this legislation, it is important to note that programs 
would still have to meet appropriate statutory approval criteria in 
order for an SAA to grant approval. We are concerned that some CTE 
programs do not maintain appropriate standards of academic progress and 
that in other cases some CTE programs could not be approved as they are 
self-paced without any fixed limitation as to how long a student takes 
to complete the program. Given our very generous housing allowance 
under the Post-9/11 GI Bill, such policies would provide a disincentive 
for students to complete such a program in a reasonable time.
    Today, SAAs throughout our Nation, composed of approximately 175 
professional and support personnel, are supervising over 10,000 active 
facilities with 100,000 programs. We pledge to you that we will not 
fail in our critical mission and in our commitment to safeguard the 
public trust, to protect the GI Bill and to defend the future of those 
who have so nobly defended us.

    Mr. Chairman, NASAA thanks the Committee for the opportunity to 
share our concerns and suggestions and we commit to working together 
with you and your staff to enhance the pending legislation.
                                 ______
                                 
  Letter from Terisa E. Chaw, Executive Director, National Employment 
                          Lawyers Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
         Prepared Statement of the National Guard Association 
                          of the United States
    Dear Chairman Isakson and Ranking Member Blumenthal and other 
distinguished Senators of the Veterans Committee: On behalf of the 
almost 45,000 members of the National Guard Association of the United 
States and the nearly 500,000 soldiers and airmen of the National 
Guard, we deeply appreciate this opportunity to share with you our 
thoughts on today's hearing topics for the record. We also thank you 
for the tireless oversight you have provided to ensure accountability 
and improve our Nation's services to veterans and their families.
    Today's slate of bills under consideration bears witness to the 
importance of continuing reforms that improve choice, access and 
standard of care to our Nation's veteran population. In our testimony 
to the Committee in March, we have provided our views on some of these 
bills, so this testimony will focus on those bills that are 
specifically focused on veterans within the National Guard, as 
requested.
    Since 9/11, National Guardsmen have mobilized roughly 780,000 times 
in support of the Nation's national security objectives abroad, 
creating possibly the largest number of National Guard veterans since 
World War II.
    The vast majority of these deployments involve members of the Guard 
who also have civilian or government employers making the Veterans' 
Reemployment Rights statute and the Uniformed Services Employment and 
Reemployment Rights Act of 1994 two of the most important laws 
protecting the National Guard members who step away from their jobs to 
serve their country. Under USERRA, all uniformed servicemembers are 
protected within their civilian employment. Guard members may not be 
discriminated against because of their past, present or future service, 
including training or deployment. USERRA establishes a right to prompt 
reinstatement after service and ensures certain health care benefits 
during and after.
    At NGAUS, we receive calls from our members asking about their 
civilian employment rights as well as from citizens considering 
enlisting in the National Guard. USERRA enforcement offices of the 
Department of Labor and the Office of Special Counsel receive tens of 
thousands of calls annually asking for assistance. The National Guard 
is also heavily reliant on Employer Support for the Guard and Reserve 
(ESGR), a Department of Defense program established in 1972 to promote 
cooperation and understanding between reserve-component servicemembers 
and their civilian employers and to assist in the resolution of 
conflicts arising from an employee's military commitment. Many 
employers have rightfully received awards for their commitment to their 
National Guard employees, but there are still many instances where lack 
of understanding has caused problems.
    We strongly support Senator Blumenthal's efforts under S. 3042, 
legislation that will clarify in law the procedural rights of Guard 
members within USERRA. Unfortunately, current USERRA language 
surrounding forced arbitration is not clear, and there are conflicting 
court decisions that do not always protect Guard members' procedural 
rights. NGAUS asks you champion changes in law to clarify congressional 
intent, stop misinterpretations, protect our Guard members and grant 
them due process in these workplace circumstances.
    NGAUS also strongly supports Senator Tester's bill, S. 832 to amend 
Title 10, United States Code, to authorize the provision of behavioral-
health readiness services to certain members of the Selected Reserve of 
the Armed Forces based on need and to expand eligibility to such 
members for readjustment counseling from the Department of Veterans 
Affairs.
    Guardsmen and Reservists struggle to access the same care as their 
active-component counterparts because they often live far from military 
installations. Additionally, outreach efforts to address mental-health 
conditions may not always reach those in need. The suicide rate for 
members of the National Guard and Reserve is consistently much higher 
than the rate for civilians and the rate for active-duty military as a 
result. Currently, members of the National Guard and Reserves undergo 
annual health assessments to identify medical issues that could impact 
their ability to deploy, but any follow-up care is often pursued at 
their own expense. Senator Tester's legislation would allow Guardsmen 
and Reservists to access Vet Centers for mental-health screening and 
counseling, employment assessments, education training, and other 
services to help them.
    We strongly urge you to champion language that will address the 
military's highest suicide rates . . . those men and women in the 
National Guard who have never deployed, yet stand ready and trained to 
serve when called.
    Although today this Committee is only considering part of Senator 
Tester's bill, NGAUS strongly supports the entire bill.

    Thank you again, Chairman Isakson and Ranking Member Blumenthal, 
for allowing NGAUS to submit testimony for this hearing, and for your 
interest and commitment to the members of the National Guard.
                                 ______
                                 
    Prepared Statement of Hon. Carolyn N. Lerner, Special Counsel, 
                     U.S. Office of Special Counsel

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, on behalf of Paralyzed Veterans of America (PVA), we would 
like to thank you for the opportunity to submit our views on pending 
legislation before the Committee.
                                 s. 244
    PVA recognizes that the effects of Traumatic Brain Injuries (TBI) 
are under-studied, and there is a significant need with the current 
population of veterans for care and treatment. This bill seeks to 
ensure that when veterans submit disability claims related to TBI, VA 
is using the appropriate personnel and protocols to conduct the 
examinations. This measure is a common sense step toward ensuring 
veterans with TBI receive a fair analysis of their disability claim.
    Unfortunately, if implemented, this bill will likely be prevented 
from reaching its full potential because of current VA practices. Too 
often we see doctors doing Compensation and Pension exams outside of 
their practice area. For example, a claimant might have a podiatrist 
conduct an exam for a vascular disease, and this exam in turn forms the 
basis of his or her disability claim. Sometimes, an appropriate 
specialist is simply not available to provide an opinion, but more 
often it is because VA is inundated with the backlog of claims and 
appeals which creates an overwhelming incentive to complete as many 
exams as possible rather than ensure the right type of doctor is 
conducting the exam. Naturally, claims appeals based on faulty exams 
are an outcropping of this policy failure, and until issues like these 
are addressed we will continue to struggle to fix the bigger problems, 
such as appeals reform, that pervade VA.
     s. 603, ``the rural veterans travel enhancement act of 2015''
    PVA supports S. 603, the ``Rural Veterans Travel Enhancement Act of 
2015,'' a bill that would increase access to transportation options for 
veterans with disabilities who need vocational rehabilitation, 
counseling, and medical care from the Department of Veterans Affairs. 
This legislation includes three important components. First, it would 
make permanent the Secretary's authority to transport veterans to and 
from VA facilities. Second, it would make veterans who use the services 
provided by Vet Centers eligible for beneficiary travel. Finally, it 
would extend the authorization for grants to veterans service 
organizations and state departments of veterans' affairs for 
transporting veterans in highly rural areas.
    Paralyzed Veterans supports extension of VA's authority to 
transport veterans to and from VA facilities as these services are 
critical for veterans who have mobility impairments and benefit from 
the accessible transportation options available through VA. We also 
support allowing veterans to access needed financial assistance to help 
them benefit from the services provided through Vet Centers. Without 
this assistance, some veterans may be forced to forgo this important 
resource. Last, we also support the extension of the Highly Rural 
Transportation Grants. These grants provide additional transportation 
options for veterans with disabilities who live in hard to reach areas, 
particularly those with mobility impairments, because all vehicles must 
operate under Department of Transportation standards for accessibility 
under the Americans with Disabilities Act.
                   s. 2210, the ``veteran peer act''
    PVA supports S. 2210, the ``Veterans Partners' Efforts to Enhance 
Reintegration (PEER) Act.'' This bill would carry out a program to 
establish peer specialists in patient aligned care teams (PACTs) at VA 
polytrauma and rural medical centers. The effectiveness of the peer 
support model has been an overall success. These specialists help 
veterans access mental health services, navigate the healthcare system, 
and perhaps most importantly, they offer familiarity and acceptance to 
veterans who may find those experiences lacking. While the stigma 
surrounding mental health care is declining, for older veterans it can 
remain a firm barrier to care. In the wake of the jarring statistic 
that veterans over 50 are committing suicide in greater numbers than 
the post-9/11 generation, this bill is aptly timed, and necessary.
     s. 2279, the ``veterans health care staffing improvement act''
    PVA supports S. 2279, the ``Veterans Health Care Staffing 
Improvement Act.'' This bill would carry out a program to allow 
servicemembers who have served in medical roles to transition directly 
into the VA. By rapidly absorbing qualified, experienced health care 
providers, this bill could ease some of the strains on VA's hiring 
process. VA would be entitled to a list of recently separated 
servicemembers who have served in a health care capacity, allowing them 
direct access to recruit in a more expeditious hiring process. Further, 
it would allow for Advanced Practice Registered Nurses and Physicians 
Assistants to provide a wider range of health care, through full 
practice authority, based on the scope of practice recommended by the 
appropriate professional organizations. This in turn, would help expand 
care in rural areas.
                                s. 2316
    S. 2316 would make changes to the Department of Veterans Affairs' 
fiduciary program by requiring the Secretary to reissue or promptly 
remit as recouped to beneficiaries any benefits misused by their 
fiduciaries in a broader range of situations than currently required 
under the statute. According to the VA's Office of Inspector General's 
August 27, 2015, report titled ``Audit of Fiduciary Program Controls 
Addressing Beneficiary Fund Misuse,'' in 16 of 16 cases reviewed, 
fiduciary hubs failed to restore approximately $347,000 of misused 
funds to beneficiaries. Some of the delay in restoring those funds 
appears to have been due to misunderstanding when a determination of 
negligence is currently required prior to reissuance. In all of those 
cases, a negligence determination was not required. We hope that 
simplifying the requirement for reissuing benefits to all beneficiaries 
when those funds are misused, without requiring a negligence 
determination in certain cases, will lead to prompt restoration of 
needed financial resources for these beneficiaries. This legislation 
would also provide increased access to the financial records of 
fiduciaries in an effort to improve oversight of the use of 
beneficiary's funds. Overall, these changes would likely be helpful to 
beneficiaries who have been harmed due to the actions of their 
fiduciaries.
        s. 2791, the ``atomic veterans health care parity act''
    While PVA has no formal position on this issue, we believe that 
this a clearly reasonable proposal. Over the years, significant numbers 
of veterans have been denied access to VA health care and benefits due 
to participation in highly classified and secret activities. Atomic 
testing and subsequent clean-up activities are no exception. These 
veterans should be afforded access necessary health care and benefits 
as a result of their service. Denying these men this opportunity simply 
because the Department of Defense would never admit to these secret 
activities at atomic sites is morally unjust.
                                s. 2958
    PVA generally supports this proposed bill. Late last year, PVA, 
along with our partners in The Independent Budget--DAV and VFW--
provided a framework for veterans health care reform that included a 
recommendation that Congress and the Administration consider the 
development of public-private partnerships to improve and expedite the 
process for major medical facility construction. It is a well-
established fact that the process for designing and building new 
facilities currently takes far too long to complete. By leveraging 
public-private partnerships, VA can align its already limited capital 
infrastructure dollars to ensure adequate services are provided in 
given locations while allowing the efficiency of private sector capital 
planning and building to position the VA to actually provide those 
services. Ultimately, public-private partnerships will allow VA to 
bring new health care facilities online faster thereby assuring faster 
access to critically needed services.
                                s. 3021
    PVA supports this legislation. Not all military members wish to 
pursue a standard college degree when they leave service. Career and 
Technical Education (CTE) at area career and technical centers comprise 
an important part of our education system. Credential-granting programs 
offered at these institutions span across many industries, from health 
care to information technology, and provide a solid pathway to 
employment for many of our veterans.
                   s. 3023, ``the arla harrell act''
    PVA supports the ``Arla Harrell Act.'' Veterans who have for so 
long quietly suffered the effects of Mustard Gas or Lewisite exposure 
as a result of Department of Defense testing deserve to receive 
critically need care from the VA. Senator McCaskill's report indicates 
that the number of servicemembers exposed numbers around 4,000, and yet 
only 610 have been identified. Currently, only 40 veterans have 
successfully filed claims and are receiving related benefits. The fact 
that only 1 percent of the veterans exposed are receiving benefits is 
attributed to the 90 percent rejection rate of claims. Shifting the 
burden of proof relating to events that occurred so long ago from the 
veteran to VA is an appropriate and deserved step toward rectifying the 
failure to fully identify this population and ensure they are receiving 
their earned benefits. We would also note that with a new presumption 
comes increased stress on VA resources. It is imperative that Congress 
ensure resources are appropriately adjusted to prevent VA from having 
to rob Peter to pay Paul.
s. 3032, the ``veterans' compensation cost-of-living adjustment act of 
                                 2016''
    PVA supports S. 3032, the ``Veterans' Compensation Cost-of-Living 
Adjustment (COLA) Act of 2016,'' which would increase, effective as of 
December 1, 2016, the rates of compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for the survivors of certain disabled veterans. This 
would include increases in wartime disability compensation, additional 
compensation for dependents, clothing allowance, and dependency and 
indemnity compensation for children.
s. 3035, the ``maximizing efficiency and improving access to providers 
          at the department of veterans affairs act of 2016''
    PVA supports S. 3035, the ``Maximizing Efficiency and Improving 
Access to Providers at the Department of Veterans Affairs Act of 
2016.'' This legislation would allow for a pilot program to increase 
the use of medical scribes to maximize the efficiency of physicians at 
medical facilities of the Department of Veterans Affairs. A medical 
scribe helps to decrease the burden of data entry on the part of the 
medical provider. They accompany a provider to document the physician-
patient interaction, and enter it into the Electronic Health Record 
(EHR) at that time. The physician later reviews and approves the data 
entry. This dynamic allows for the physician to spend more 
uninterrupted time interacting with the patient, and less time 
dictating notes. Multiple studies have indicated that medical scribes 
increase physician-patient satisfaction. Further, because the physician 
is relieved of data entry, they are able to see more patients, thus 
impacting wait times. We see no reason why VA would should not avail 
themselves of this pilot program. In a time when VHA is struggling to 
hire and retain physicians, allowing for medical scribes to help 
existing providers carry the patient volume is essential.
    s. 3055, the ``department of veterans affairs dental insurance 
                     reauthorization act of 2016''
    PVA supports S. 3055, the ``Department of Veterans Affairs Dental 
Insurance Reauthorization Act of 2016.'' This bill would reauthorize 
the VA administered dental insurance program for five years, allowing 
current users to maintain their care. The original pilot program began 
in 2014 and will expire in 2017 without action. While PVA previously 
expressed concerns about the cost of the program, and the role of VA as 
insurer, the success of the program is unquestionable. Veterans and 
their families markedly agree that the care is high quality and low 
cost. As researchers are beginning to more clearly identify the links 
between dental care and overall care, particularly cardiac care, this 
program can only be considered a sound investment into the lifelong 
well-being of veterans and their families.
     s. 3076, the ``charles duncan buried with honor act of 2016''
    PVA supports this draft bill to furnish caskets and urns for burial 
in cemeteries of States and Indian tribes of veterans without next of 
kin or sufficient resources. Currently, veterans without next of kin or 
sufficient resources who are buried in state of tribal cemeteries are 
not furnished a casket or urn. These veterans buried in state and 
tribal cemetery are no less deserving of a dignified resting place than 
those in a national cemetery. This bill is, without question, the 
decent thing to do.
                      s. 3081, the ``wingman act''
    PVA supports the goal of ensuring veterans receive timely 
information regarding the status of their claims. We appreciate that 
this bill ensures that Congressional employees granted access to such a 
program undergo the same training and certification program that VA 
currently uses to certify VSO representatives and attorneys 
representing claimants. This legislation, however, allows access to a 
claimant's information regardless of whether the covered employees are 
acting under a power of attorney. Claims files contain the most private 
information about that particular veteran and, often times, information 
of other individuals consulted during the claim's development. PVA 
believes that in the interest of maintaining strict protection of such 
private information, this legislation should be limited to those who 
hold a power of attorney. Other logistical issues may also arise in the 
form of the added administrative burden on VA of managing the 
certification process and tracking users. Certainly we do not want to 
see resources that should be applied to adjudicating claims shifted to 
facilitating Congressional involvement unless it produces a significant 
increase in productivity. Finally, we believe that VSO national service 
officers and VBA employees are best suited to answering questions 
regarding a claimant's file. Unlike a Congressional aide viewing the 
file in isolation, they have the ability to view the file in context 
and identify the issues holding up the claim.
                      discussion draft, ``userra''
    PVA supports strengthening the Uniformed Services Employment and 
Reemployment Rights Act (USERRA). The Supreme Court of the United 
States has firmly established a ``liberal policy of favoring 
arbitration agreements.'' \1\ Courts of inferior jurisdiction have 
examined servicemembers' employment and reemployment rights under 
USERRA and determined that the forum in which a claim is adjudicated is 
a procedural consideration.\2\ Case law holds that whether the claim is 
adjudicated through arbitration or the U.S. District Courts has no 
bearing on the substantive statutory rights meant to be protected. 
While the Courts are free to believe enforcement of substantive rights 
is equally effected by arbitration and the courts, the servicemember 
may not be so persuaded and should be free to determine his forum.
---------------------------------------------------------------------------
    \1\ Gilmer v. Interstate/Johnson Lane Corp., 500 U.S. 20, 23 (1991) 
(citing Moses H. Cone Memorial Hospital v. Mercury Construction Corp., 
460 U.S. 1, 24 (1983)).
    \2\ See Garrett v. Circuit City Stores, Inc., 449 F.3d 672 (5th 
Cir. 2006) and Landis v. Pinnacle EyeCare, LLC, 537 F.3d 559 (6th Cir. 
2008).
---------------------------------------------------------------------------
    One might argue that a servicemember exercised a choice by waiving 
his or her right to avail themselves of the court when they signed the 
arbitration clause. But this implies that job prospects are elastic to 
the extent that employees hold a bargaining position strong enough to 
reject a job solely on the basis of that clause. More and more 
employers are beginning to require arbitration clauses as conditions of 
employment. Current employment conditions effectively make that choice 
for the servicemember; few, if any, walk away from a job on this basis. 
As this pattern evolves, the servicemember is slowly being stripped of 
his or her choice to employ the court system. To put the choice back in 
the hands of the servicemember, Congress must specifically indicate its 
intent to preclude a waiver of judicial remedies for the statutory 
rights at issue.\3\ This bill would accomplish this by rendering 
arbitration agreements enforceable only after a complaint has been 
filed in court. There is an additional threshold requirement of the 
parties making a knowing and voluntary decision. We also support the 
additional touch of expanding the venue options to be more in line with 
those applied in the Federal Rules of Civil Procedure.
---------------------------------------------------------------------------
    \3\ Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 
U.S. 614, 626-27 (1985).
---------------------------------------------------------------------------
  discussion draft, ``to expand eligibility to certain members of the 
 selected reserve of the armed forces for readjustment counseling from 
                 the department of veterans affairs.''
    While we appreciate the intent of this bill, PVA has concerns with 
this legislation as written because it extends the intended benefits to 
any and all members of the Selected Reserve but does not equally 
include veterans who served on active duty. The current law under 38 
U.S.C. 1712A provides certain mental health services to delineated 
groups of veterans or members of the Armed Forces, including a reserve 
component of the Armed Forces. To qualify for these services, 
individuals must meet one of the listed qualifications, such as 
deploying to a theatre of combat operations or participating in 
mortuary services to casualties of combat operations. In essence, 
current law requires a triggering event or circumstance which 
demonstrates a nexus between the servicemember or veteran's mental 
health condition and their military service. This bill would allow 
Selected Reserve members to avoid this requirement while still 
subjecting those who served on active duty to the existing 
requirements.
    draft bill on medical residents at facilities operated by tribes
    PVA supports the draft bill to authorize payment by the Department 
of Veterans Affairs for the costs associated with service by medical 
residents and interns at facilities operated by Indian tribes and 
tribal organizations, and to carry out a pilot program to expand such 
residencies and internships at those facilities. While recruiting and 
retaining capable providers continues to be a struggle for VA, rural 
communities feel these vacancies two fold. In Indian Country 
particularly, the minimal availability of consistent high quality 
health care has resulted in some of the worst health care outcomes in 
the United States. The United States government has a centuries-old 
legal obligation to provide health care to two groups--Native Americans 
and veterans. The overlapping, and at times inter-reliability of these 
two systems is necessary, as Native Americans serve the Armed Forces at 
the highest rate of any demographic. In Alaska, where this health care 
system interoperability is most prevalent, the need for primary care 
providers is critical. Vacancies are expected to increase in the coming 
decade, leaving health care systems with a high volume need and little 
capacity.
    This bill would likely provide some relief, by incentivizing 
medical residents and interns to work at tribal facilities that have 
existing reimbursement agreements with VA. The five-year pilot program 
would have VA reimburse the tribal facilities for the recruitment and 
training of residents. These participants would then be eligible for 
loan forgiveness through the Indian Health Services Loan Repayment 
Program. This bill offers a sound step forward to ensuring we meet the 
needs of those who have served, no matter their zip code.
        discussion draft on american battle monuments commission
    PVA has no formal position on this issue.

    This concludes our statement for the record. We appreciate the 
opportunity to submit our views before this Committee.
                                 ______
                                 
Prepared Statement of Reserve Officers Association of the United States
                               statement
    ROA appreciates the opportunity to discuss S. 3042, Justice for 
Servicemembers Act, which is proposed legislation to clarify the scope 
of procedural rights of members of the uniformed services with respect 
to their employment and reemployment rights, to improve the enforcement 
of such employment and reemployment rights, and for other purposes.
    The Justice for Servicemembers Act would amend section 4302 by 
adding a new subsection (c) to the Uniformed Services Employment and 
Reemployment Rights Act (USERRA), as follows:

          (1) Pursuant to this section and the procedural rights 
        afforded by Subchapter III of this chapter [USERRA], any 
        agreement to arbitrate a claim under this chapter is 
        unenforceable, unless all parties consent to arbitration after 
        a complaint on the specific claim has been filed in court or 
        with the Merit Systems Protection Board and all parties 
        knowingly and voluntarily consent to have that particular claim 
        subjected to arbitration.
          (2) For purposes of this subsection, consent shall not be 
        considered voluntary when a person is required to agree to 
        arbitrate an action, complaint, or claim alleging a violation 
        of this chapter as a condition of future or continued 
        employment or receipt of any right or benefit of employment.
                                 userra
    Section 4302 makes it clear that USERRA is a floor and not a 
ceiling on serevicemember's rights as a person who is serving or has 
served. USERRA does not supersede or nullify any other law, policy, 
agreement, practice, or other matter that gives greater or additional 
rights. 38 U.S.C. 4302(a).
    Section 4302(a) of USERRA provides:

        Nothing in this chapter [USERRA] shall supersede, nullify, or 
        diminish any Federal or State law (including any local law or 
        ordinance), contract, agreement, policy, plan, practice, or 
        other matter that establishes a right or benefit that is more 
        beneficial to, or is in addition to, a right or benefit 
        provided for such person in this chapter.

    USERRA does supersede state laws, contracts, policies, agreements, 
etc. that reduce, limit, or eliminate USERRA rights or that impose 
additional prerequisites on a servicemember's exercise of those rights. 
38 U.S.C. 4302(b).
    Section 4302(b) provides:

        This chapter supersedes any State law (including any local law 
        or ordinance) contract, agreement, policy, plan, practice, or 
        other matter that reduces, limits, or eliminates in any manner 
        any right or benefit provided by this chapter, including the 
        establishment of additional prerequisites to the exercise of 
        any such right or the enjoyment of any such benefit.

    Despite section 4302(b), both the 5th Circuit and the 6th Circuit 
have held that USERRA does not override employer-employee agreements 
that purport to bind employees to submit future disputes about USERRA 
rights to binding arbitration, in lieu of filing suit or filing a 
formal complaint with the Veterans' Employment and Training Service of 
the United States Department of Labor (DOL-VETS). See Garrett v. 
Circuit City Stores, Inc., 449 F.3d 672 (5th Cir. 2006) and Landis v. 
Pinnacle Eye Care LLC, 537 F.3d 559 (6th Cir. 2008).
    ROA member, and USERRA drafter, Mr. Samuel F. Wright explains, 
``Employers can make a mockery of USERRA by demanding that individuals 
agree to binding arbitration as a condition of initial employment or 
continued employment. S. 3042 is necessary to ensure effective 
enforcement of USERRA.''
                          binding arbitration
    Arbitration is defined as, ``The settling of disputes (especially 
labor disputes) between two parties by an impartial third party, whose 
decision the contending parties agree to accept. Arbitration is often 
used to resolve conflict diplomatically to prevent a more serious 
confrontation,'' as defined by dictionary.com. In and of itself this is 
not a bad thing. There are times when the problem between employee and 
employer does not rise to the level or complexity requiring court 
review.
    The problem is that binding arbitration takes away the employee's 
choice to pursue the level of resolution they consider necessary with 
their employment. If an employee believes his or her case should be 
reviewed by the courts and he or she is willing to accept the time, 
cost, and complexity of this legal review that should be the employee's 
choice. If an employee believes the case is not complicated but 
believes an independent person or body should settle the dispute, then 
arbitration should also be a choice.
    What is not right is when employees do not have a choice on 
resolution of future employment issues based on a boiler plate 
provision in an agreement he or she was required to sign as a condition 
of employment; especially as these decisions affect his or her ability 
to provide for their family.
    The Bill of Rights includes the right to ``life, liberty and the 
pursuit of happiness.'' In the decision of S. 3042, we should be 
reminded that liberty requires that no one can rule citizens without 
consent--each of us, whether as individuals or as companies, should 
respect the equal rights of others.
                    reserve component participation
    During the present war, nearly a million Guard and Reserve members 
have been mobilized, proving essential to the war effort. The reliance 
of the Nation on its Reserve Components will not diminish.
    Since September 11, 2001, more than 900,000 members of our reserve 
components--the National Guard and Reserves of our Army, Navy, Air 
Force, Marines and Coast Guard--have served in support of the war on 
terrorism. According to DOD more than 10,000 Guard and Reserve members 
were casualties in that fight. https://www.dmdc.osd.mil/dcas/pages/
report--sum--comp.xhtml

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    ``War is a national challenge, and, for our part, we cannot execute 
without the Guard and the Reserve,'' said Army Chief of Staff Gen. Mark 
Milley. ``You can't talk to a general or admiral for more than five 
minutes without hearing a variation on that theme,'' according to ROA 
Executive Director, Jeff Phillips.
    The chart below shows that the Guard and Reserve have been used in 
increasingly higher amounts per year. While usage is dropping it will 
not go down to previous peacetime levels because threats to the Nation 
and world have increased.

                     Usage of the Reserve Components
------------------------------------------------------------------------
                                                               Man-Days
                        Fiscal Year                            Per Year
------------------------------------------------------------------------
1986-1989..................................................    1 million
1996-2001..................................................   13 million
2002.......................................................         41.3
                                                                 million
2005.......................................................         68.3
                                                                 million
2012.......................................................         25.8
                                                                 million
------------------------------------------------------------------------
Data from the Office of the Assistant Secretary of Defense for Reserve
  Affairs (OASD/RA).

    The reserves are now considered ``operational.'' They are used 
continually, like the active force. In the late 1980s, usage of the 
reserves was 1 million man-days per year; it is now about 25 million 
man-days.
    Guard and Reserve members will continue to face employment issues 
as they support increased operational levels. They should not be 
penalized for serving their nation by being forced into binding 
arbitration.
                               conclusion
    The Reserve Officers Association supports the enactment of S. 3042 
which would make clear that the individual servicemember cannot be 
forced to submit his or her USERRA complaint to binding arbitration. 
The matter of using arbitration or not should remain the employee's 
option. The choice should be made when a dispute has arisen--not 10 
years earlier when the servicemember is hired or rehired.
                                 ______
                                 
             Prepared Statement of Southcentral Foundation
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee: Thank you for the opportunity to submit testimony on behalf 
of the Southcentral Foundation (``SCF'') Thank you also to Senator 
Sullivan, for championing legislation today that will help SCF make 
important progress toward bridging the provider gap in isolated 
geographic communities and helping the next generation of doctors learn 
the holistic, customer-centered, and relationship-based systems of care 
we believe are vital to high-quality healthcare in our communities.
                               background
    SCF is an Alaska Native owned and governed tribal health 
organization in Anchorage, Alaska. We provide medical, dental, 
optometry, a range of maternal child health services, behavioral 
health, and substance abuse treatment services to over 52,000 Alaska 
Native and American Indian beneficiaries living within the Municipality 
of Anchorage, the Matanuska-Susitna Borough to the north, and nearby 
villages. SCF also provides services to an additional 13,000 residents 
of 55 rural Alaska villages covering an area exceeding 100,000 square 
miles, extending from near the Canadian border in the east to the 
Pribilof Islands in the west. Finally, SCF provides statewide tertiary 
OB/GYN and pediatric services for approximately 150,000 Alaska Native 
people. We also co-manage the Alaska Native Medical Center, a 167 bed 
hospital, which is the tertiary care referral point for all IHS 
facilities in the state. We employ over 1900 people to do this work.
    SCF's Nuka System of Care is a name given to the whole health care 
system created, managed and owned by Alaska Native people to achieve 
physical, mental, emotional and spiritual wellness. This relationship-
based Nuka System of Care is comprised of organizational strategies and 
medical, behavioral, dental, and traditional practices processes and 
supporting infrastructure that work together--in relationship--to 
support wellness. By putting relationships at the forefront of what we 
do we and how we do it, the Nuka System of Care will continue to 
develop and improve healthcare delivery for future generations.
    Our Nuka System of Care is acclaimed nationally and internationally 
for its numerous innovative practices including: same day access to an 
individual's own primary care provider; patient-centered medical home 
services that have received the highest level of certification; and 
provision of primary care through interprofessional teams that include 
behavioral health, health education, and pharmacy consultants. In 2011, 
we received the National Malcolm Baldrige Award for Performance 
Excellence from the United States Department of Commerce. SCF is the 
only Native organization to ever be honored with this distinction, and 
one of only about 20 United States healthcare organizations of any type 
to receive this difficult-to-achieve award.
                               discussion
    The Veterans' Administration (``VA'') medical residency legislation 
being discussed today is intended to address several interlocking 
issues. In general, providing quality healthcare for veterans in rural 
areas is challenging for a number of reasons, but central to the issue 
is the lack of physicians. This legislation would increase the number 
of primary care physicians serving rural and remote areas by adding a 
new section to the existing provisions found in 38 U.S.C. Sec. 7406 
authorizing a pilot program that would make specific tribal health care 
providers eligible to work with the VA to expand or create new medical 
residency programs. The bill would allow non-VA facilities to access 
this critical funding and allow for additional expenses. SCF supports 
this effort and this legislation because we understand the need for 
more--and better trained--physicians to serve the veterans in the 
communities we serve, and communities like it.
    As this Committee well knows, the Nation is facing a shortage of 
primary care physicians, and this gap is exacerbated throughout rural 
Alaska. This shortage exists nationally, and is likely to increase over 
time. According to the Department of Health and Human Services, if 
changes do not occur to meet the physician demand, reports indicate a 
projected shortage by 2020 of 20,400 physicians. The Association of 
American Medical Colleges predicts a shortage of 12,500-31,100 primary 
care physicians by 2025. This provider shortage is likely to hit 
hardest in places like Alaska and Native American communities that are 
already struggling to attract primary care and other physicians to 
practice. In Alaska, for example, there will need to be a 40% increase 
in the total number of primary care physicians, an increase of 237 
positions, by 2030.
    One of the single most effective ways to increase the number of 
physicians practicing in our communities would be to train them in our 
communities. This legislation provides VA the authority to do just 
that. The VA system is uniquely situated to partner with Native 
American community healthcare providers because medical residents who 
train in these programs will help reduce this provider gap by serving 
multiple, overlapping underserved communities to whom the country has 
significant healthcare obligations: veterans and Native Americans. In 
addition, studies show that doctors who train in certain communities 
are more likely to stay, and we are confident that the opportunity to 
train directly in the Nuka System of Care both will not only increase 
the number of physicians who are likely to practice in rural and Native 
American communities, but will also enhance the quality of care they 
will be providing to veterans and other patients throughout their 
careers.
    Through the Nuka System of Care, SCF has been able to decrease the 
per-capita use of the Emergency Department by over 36% between 2000 and 
2015. In addition:

    <bullet> SCF's diabetes management measures put SCF among the top 
5% of health care organizations in the country;
    <bullet> SCF ranks in the top 10% for per-capita use of the 
Emergency Department and hospital admissions measures;
    <bullet> SCF's customer-owner satisfaction ratings consistently are 
96-99% positive, well above the average compared to other health care 
organizations;
    <bullet> SCF's total employee turnover is one quarter of earlier 
levels, and is now in the top 25% nationally, despite SCF's difficult 
location for recruiting and retention;
    <bullet> SCF's Alaska Native Medical Center received magnet status 
in 2011 for nursing excellence, an honor bestowed only to 5 percent of 
hospitals, nationally; and
    <bullet> SCF has had a Level III certified Patient Centered Medical 
Home since 2009.

    Despite these successes, workforce development is one of the major 
challenges SCF faces as an innovative, constantly-improving 
organization. And given the provider shortage, it is not likely to get 
any easier. Exacerbating the challenge is the gap between the knowledge 
and skills needed to perform in our health care system and the 
knowledge and skills of graduates from health professional training 
programs at United States colleges and universities. However, medical 
residents who are trained in the Nuka System of Care and similar 
systems will be able to help to transform health care throughout the 
United States by bringing the innovations SCF and other programs have 
developed to the VA and to healthcare systems around the country. The 
pilot program authorized by this legislation would serve as an 
incubator for positive change in our healthcare systems, and is worthy 
of your support.
                               conclusion
    The Southcentral Foundation is an innovative healthcare 
organization on the cutting edge of holistic, customer centered, and 
relationship based healthcare delivery. We would be thrilled to 
participate in the pilot program authorized by this legislation, and 
are confident that the legislation would be a strong step in the right 
direction for the VA and rural healthcare providers. We thank the 
Committee for its consideration of this bill, and Senator Sullivan for 
his leadership on it.
                                 ______
                                 
 Prepared Statement of Derek Fronabarger, Director of Policy, Student 
                          Veterans of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Letter from Bruce R. Josten, Executive Vice President, Government 
      Affairs, Chamber of Commerce of the United States of America

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
